APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the District of Columbia Circuit,
Confederated Tribes of the Chehalis Rsrv.
v. Mnuchin, No. 20-5204 (Sept. 25, 2020)... App-1
Appendix B
Order, United States Court of Appeals for
the District of Columbia Circuit,
Confederated Tribes of the Chehalis Rsrv.
v. Mnuchin, No. 20-5204 (Sept. 30, 2020). App-29
Appendix C
Order, United States Court of Appeals for
the District of Columbia Circuit,
Confederated Tribes of the Chehalis Rsrv.
v. Mnuchin, No. 20-5204 (Sept. 14, 2020). App-31
Appendix D
Memorandum Opinion, United States
District Court for the District of
Columbia, Confederated Tribes of the
Chehalis Rsrv. v. Mnuchin, No. 20-cv01002 (June 26, 2020) ............................... App-33
Appendix E
Memorandum Opinion & Order, United
States District Court for the District of
Columbia, Confederated Tribes of the
Chehalis Rsrv. v. Mnuchin, No. 20-cv01002 (July 7, 2020) .................................. App-80

Appendix F
Memorandum Opinion, United States
District Court for the District of
Columbia, Confederated Tribes of the
Chenalis Rsrv. v. Mnuchin, No. 20-cv01002 (Apr. 27, 2020) ................................ App-88
Appendix G
Relevant Statutory Provisions ................ App-132
25 U.S.C. § 5304 ................................ App-132
42 U.S.C. § 801 .................................. App-135
43 U.S.C. § 1601 ................................ App-142
43 U.S.C. § 1606 ................................ App-144
43 U.S.C. § 1607 ................................ App-172
43 U.S.C. § 1626 ................................ App-173

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
________________
No. 20-5204
________________
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, et al.,
Appellees,
UTE TRIBE OF THE UINTAH AND
OURAY INDIAN RESERVATION,
v.

Appellant,

STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury, et al.,
Appellees.
________________
Consolidated with 20-5205, 20-5209
________________
Argued: Sept. 11, 2020
Decided: Sept. 25, 2020
________________
Before: HENDERSON, MILLETT, and KATSAS,
Circuit Judges.
________________
OPINION
________________

App-2
Katsas, Circuit Judge: Title V of the Coronavirus
Aid, Relief, and Economic Security Act (CARES Act)
makes certain funds available to the recognized
governing bodies of any “Indian Tribe” as that term is
defined in the Indian Self-Determination and
Education Assistance Act (ISDA). Alaska Native
Corporations are
state-chartered
corporations
established by Congress to receive land and money
provided to Alaska Natives in settlement of aboriginal
land claims. We consider whether these corporations
qualify as Indian Tribes under the CARES Act and
ISDA.
I
A
Since the Alaska Purchase in 1867, the United
States has taken shifting positions on the political
status of Alaska’s indigenous populations. Initially,
the government thought that Alaska Natives had no
distinct sovereignty. See, e.g., In re Sah Quah, 31 F.
327, 329 (D. Alaska 1886) (“The United States has at
no time recognized any tribal independence or
relations among these Indians . . . .”). Over time, it
came to view Alaska Natives as “being under the
guardianship and protection of the Federal
Government, at least to such an extent as to bring
them within the spirit, if not within the exact letter, of
the laws relative to American Indians.” Leasing of
Lands Within Reservations Created for the Benefit of
the Natives of Alaska, 49 Pub. Lands Dec. 592, 595
(1923). Those laws recognize and implement the
unique trust relationship between the federal
government and Indian tribes as dependent
sovereigns, and the distinct obligations that

App-3
relationship imposes. See, e.g., United States v.
Jicarilla Apache Nation, 564 U.S. 162, 175-76 (2011).
But Alaska Natives differed from other Indians in
their “peculiar nontribal organization” in small,
isolated villages. Op. Sol. of Interior, M-36975, 1993
WL 13801710, at *18 (Jan. 11, 1993) (“Sansonetti
Op.”) (quoting H.R. Rep. 74-2244, at 1-5 (1936)).
For over a century, the federal government had no
settled policy on recognition of Alaska Native groups
as Indian tribes. Instead, it dealt with that question
“in a tentative and reactive way,” with “decisions on
issues concerning the relationship with Natives
[being] postponed, rather than addressed.” Sansonetti
Op. at *2. Because of the “remote location, large size
and harsh climate of Alaska,” there was no pressing
need “to confront questions concerning the
relationship between the Native peoples of Alaska and
the United States.” Id. But in 1958, the Alaska
Statehood Act provided for a large transfer of land
from the federal government to the soon-to-be State.
Pub. L. No. 85-508, § 6, 72 Stat. 339, 340-43. And in
1968, oil was discovered on Alaska’s North Slope,
requiring construction of a pipeline system running
across the entire State. See Alyeska Pipeline Serv. Co.
v. Wilderness Soc’y, 421 U.S. 240, 241-42 & n.2 (1975).
These developments forced the federal government to
confront at least the question of Native claims to
aboriginal lands. See Sansonetti Op. at *43.
In 1971, Congress enacted the Alaska Native
Claims Settlement Act (ANCSA), a “comprehensive
statute designed to settle all land claims by Alaska
Natives.” Alaska v. Native Vill. of Venetie Tribal Gov’t,
522 U.S. 520, 523 (1998). Rather than set aside land

App-4
for reservations, as Congress often had done in the
lower 48 states, it “adopted an experimental model
initially calculated to speed assimilation of Alaska
Natives into corporate America.” 1 Cohen’s Handbook
of Federal Indian Law § 4.07(3)(b)(ii)(C) (2019).
Among
other
things,
ANCSA
“completely
extinguished all aboriginal claims to Alaska land” and
abolished all but one Native reservation in Alaska.
Native Vill. of Venetie, 522 U.S. at 524. “In return,
Congress authorized the transfer of $962.5 million in
state and federal funds and approximately 44 million
acres of Alaska land to state-chartered private
business corporations that were to be formed pursuant
to the statute.” Id.
As relevant here, ANCSA authorized the creation
of two types of corporations to receive this money and
land: Alaska Native Regional Corporations and
Alaska Native Village Corporations, which we
collectively refer to as ANCs. First, the statute divided
Alaska into twelve geographic areas, each sharing a
common heritage and interests, and it created a
regional corporation for each area. 43 U.S.C.
§ 1606(a). Second, ANCSA required the Alaska Native
residents of each “Native village”—defined as any
community of at least twenty-five Alaska Natives, id.
§ 1602(c)—to organize as a village corporation to
receive benefits under the statute. Id. § 1607(a).
Village corporations “hold, invest, manage and/or
distribute lands, property, funds, and other rights and
assets for and on behalf of a Native village.” Id.
§ 1602(j).
Like other corporations, ANCs have boards of
directors and shareholders. 43 U.S.C. §§ 1606(f)-(h),

App-5
1607(c). The initial ANC shareholders were
exclusively Alaska Natives; each Native received one
hundred shares of the regional and village corporation
operating where he or she lived. Id. §§ 1606(g)(1)(A),
1607(c). ANCSA initially prohibited the transfer of
stock to non-Natives for twenty years, 43 U.S.C.
§ 1606(h)(1) (1971), but Congress later made the
prohibition continue unless and until an ANC chose to
end it, 43 U.S.C. § 1629c(a). ANCs may freely sell land
to non-Natives and need not use the land “for Indian
purposes.” Native Vill. of Venetie, 522 U.S. at 533.
Regional ANCs may provide “health, education, or
welfare” benefits to Native shareholders and to
shareholders’ family members who are Natives or
Native descendants, without regard to share
ownership. 43 U.S.C. § 1606(r).
B
In 1975, Congress enacted ISDA to “help Indian
tribes assume responsibility for aid programs that
benefit their members.” Menominee Indian Tribe of
Wis. v. United States, 136 S. Ct. 750, 753 (2016). ISDA
authorizes the federal government to contract with
Indian tribes to provide various services to tribal
members. Salazar v. Ramah Navajo Chapter, 567 U.S.
182, 185 (2012). Under these “self-determination”
contracts, the government provides money to an
individual tribe, which agrees to use it to provide
services to tribal members. See Menominee Indian
Tribe, 136 S. Ct. at 753.
Specifically, ISDA directs the Secretary of the
Interior or the Secretary of Health and Human
Services, “upon the request of any Indian tribe,” to
contract with an appropriate “tribal organization” to

App-6
provide the requested services. 25 U.S.C. § 5321(a)(1).
ISDA defines an “Indian tribe” as
any Indian tribe, band, nation, or other
organized group or community, including any
Alaska Native village or regional or village
corporation as defined in or established
pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688), which is
recognized as eligible for the special programs
and services provided by the United States to
Indians because of their status as Indians.
Id. § 5304(e). ISDA further defines a “tribal
organization” to include “the recognized governing
body of any Indian tribe.” Id. § 5304(l).
C
On March 27, 2020, Congress passed the CARES
Act to provide various forms of relief from the ongoing
coronavirus pandemic. Title V of the CARES Act
appropriated $150 billion “for making payments to
States, Tribal governments, and units of local
government.” 42 U.S.C. § 801(a)(1). These payments
cover “necessary expenditures incurred due to the
public health emergency.” Id. § 801(d)(1). Congress
directed the payments to be made within 30 days. Id.
§ 801(b)(1).
Of these funds, the CARES Act reserved $8 billion
“for making payments to Tribal governments.” 42
U.S.C. § 801(a)(2)(B). The CARES Act defines a
“Tribal government” as “the recognized governing
body of an Indian Tribe.” Id. § 801(g)(5). It further
defines “Indian Tribe” as bearing “the meaning given
that term” in ISDA. Id. § 801(g)(1).

App-7
II
On April 13, 2020, the Department of the
Treasury published a form seeking tribal data to help
apportion Title V funds. The Department requested
each tribe’s name, population, land base, employees,
and expenditures. The form suggested that ANCs
would receive funding. For example, in seeking
population information, the form requested the total
number of tribal citizens, members, or shareholders.
On April 22, the Department confirmed its conclusion
that ANCs were eligible to receive Title V funds.
Between April 17 and 23, three separate groups of
Indian tribes filed lawsuits challenging that decision.
Collectively, the plaintiffs encompass six federally
recognized tribes in Alaska and twelve federally
recognized tribes in the lower 48 states. The tribes
argued that ANCs are not “Indian Tribes” within the
meaning of the CARES Act or ISDA because they do
not satisfy the final requirement of the ISDA
definition—i.e., because they are not “recognized as
eligible for the special programs and services provided
by the United States to Indians because of their status
as Indians.” 23 U.S.C. § 5304(e). The government
agreed that ANCs have not been so recognized, and it
further argued that ANCs could not be so recognized.
But, the government reasoned, Congress expressly
included ANCs within the ISDA definition, and we
must give effect to that decision.
The district court consolidated the three cases and
granted a preliminary injunction prohibiting the
distribution of any Title V funds to ANCs. In finding
that the tribes were likely to succeed on the merits,
the court reasoned that any “Indian tribe” under ISDA

App-8
must be “recognized” as such and that Alaska Native
corporations, unlike Alaska Native villages, have not
been so recognized. As a result of the preliminary
injunction, the government has withheld distribution
of more than $162 million in Title V funds that it
otherwise would have provided to ANCs. Several
ANCs and ANC associations then intervened as
defendants.
The district court ultimately granted summary
judgment to the defendants. After further
consideration, the court agreed with the government:
ANCs must qualify as Indian tribes to give effect to
their express inclusion in the ISDA definition, even
though no ANC has been recognized as an Indian
tribe.
To permit orderly review, the district court
granted the tribes’ motion for an injunction pending
appeal, subject to the tribes seeking expedition in this
Court. The injunction prohibited the distribution of
Title V funds to ANCs until the earlier of September
15 or a merits decision by this Court. We granted
expedition, heard oral argument, and extended the
injunction pending our decision.
III
The government first contends that its decision to
provide CARES Act funds to ANCs is not judicially
reviewable. The Administrative Procedure Act
provides a cause of action to persons “adversely
affected or aggrieved by agency action,” 5 U.S.C. § 702,
but withdraws the action to the extent that “statutes
preclude judicial review,” id. § 701(a)(1). “Whether
and to what extent a particular statute precludes
judicial review is determined not only from its express

App-9
language, but also from the structure of the statutory
scheme, its objectives, its legislative history, and the
nature of the administrative action involved.” Block v.
Cmty. Nutrition Inst., 467 U.S. 340, 345 (1984). Any
preclusion must be “fairly discernible in the statutory
scheme,” id. at 351, and must appear “with sufficient
clarity to overcome the strong presumption in favor of
judicial review,” Thryv, Inc. v. Click-to-Call Techs.,
LP, 140 S. Ct. 1367, 1373 (2020) (quotation marks
omitted).
Nothing in the CARES Act expressly precludes
review of spending decisions under Title V.
Nonetheless, the government argues that the statute
precludes judicial review by implication. It highlights
three structural or contextual considerations: the
short deadline for disbursing funds, the urgency of
providing relief funds quickly, and the lack of any
requirement for advance notice of funding decisions.
We are unpersuaded. To begin, the government
cites no case in which short statutory deadlines have
been held to preclude judicial review by implication.
To the contrary, in Dunlop v. Bachowski, 421 U.S. 560
(1975), the Supreme Court held that judicial review
was available despite a 60-day deadline for the
relevant administrative action. Id. at 563 n.2, 567.
Likewise, in Texas Municipal Power Agency v. EPA, 89
F.3d 858 (D.C. Cir. 1996), we rejected a claim that
“short statutory deadlines,” combined with the need
“to compile enormous amounts of data and allocate
allowances to 2,200 utilities” within the deadline,
made the claim at issue unreviewable. See id. at 86465. The government cites Morris v. Gressette, 432 U.S.
491 (1977), where the plaintiffs sought to challenge an

App-10
administrative failure to object to a state voting
measure under section 5 of the Voting Rights Act. But
the Act provided other means to obtain judicial review
of the underlying legal question, see id. at 504-05, and
the case involved the same kind of enforcement
discretion later held to be generally unreviewable in
Heckler v. Chaney, 470 U.S. 821 (1985). The
government also cites Dalton v. Specter, 511 U.S. 462
(1994), but that case turned on the fact that
presidential action is not subject to APA review. See
id. at 471-76. As for urgency, the government frames
its argument as only a slight variation on its point
about the need for speed.
Finally, while the government may be correct that
judicial review would be difficult had it simply
disbursed the funds with no prior warning, see City of
Hous. v. HUD, 24 F.3d 1421, 1424 (D.C. Cir. 1994),
that should hardly preclude review where, as here, the
government did take prior agency action in time to
afford review. To be sure, the government might have
argued that the actions taken here, including a
solicitation of information, were not final agency
action reviewable under the APA. We take no position
on that question because finality in this context bears
on the scope of the plaintiff’s cause of action; it is a
forfeitable objection that the government did not press
here. See Marcum v. Salazar, 694 F.3d 123, 128 (D.C.
Cir. 2012).
IV
On the merits, the district court held that ANCs
are Indian tribes within the ISDA definition and thus
are eligible for funding under Title V of the CARES
Act. We review de novo this legal ruling, which was

App-11
appropriately made on summary judgment. Stoe v.
Barr, 960 F.3d 627, 629 (D.C. Cir. 2020). In
considering the difficult legal question now before us,
we have benefitted greatly from the district court’s two
thoughtful opinions, rendered under severe time
constraints, which carefully assess the arguments on
both sides.
Title V of the CARES Act makes funding available
“to States, Tribal governments, and units of local
government.” 42 U.S.C. § 801(a)(1). Alaska Native
Corporations are neither “States” nor “units of local
government” in Alaska. ANCs thus are eligible to
receive Title V funds only if they are “Tribal
governments.” Title V defines a “Tribal government”
as “the recognized governing body of an Indian Tribe,”
id. § 801(g)(5), and defines “Indian Tribe” as bearing
“the meaning given that term” in ISDA, id. § 801(g)(1).
So ANCs are eligible for Title V funding only if they
qualify as an “Indian tribe” under ISDA. As explained
below, ANCs do not satisfy the ISDA definition.
A
ISDA defines an “Indian tribe” as
[1] any Indian tribe, band, nation, or other
organized group or community, [2] including
any Alaska Native village or regional or
village corporation as defined in or
established pursuant to the Alaska Native
Claims Settlement Act (85 Stat. 688),
[3] which is recognized as eligible for the
special programs and services provided by the
United States to Indians because of their
status as Indians.

App-12
25 U.S.C. § 5304(e). The first, listing clause sets forth
five kinds of covered Indian entities—any “tribe, band,
nation, or other organized group or community.” The
second, Alaska clause clarifies that three kinds of
Alaskan entities are covered—“any Alaska Native
village or regional or village corporation.” The third,
recognition clause restricts the definition to a subset
of covered entities—those “recognized as eligible for
the special programs and services provided by the
United States to Indians because of their status as
Indians.”
The text and structure of this definition make
clear that the recognition clause, which is adjectival,
modifies all of the nouns listed in the clauses that
precede it. Under the series-qualifier canon, “[w]hen
there is a straightforward, parallel construction that
involves all nouns or verbs in a series, a prepositive or
postpositive modifier normally applies to the entire
series.” A. Scalia & B. Garner, Reading Law 147
(2012); see, e.g., Lockhart v. United States, 136 S. Ct.
958, 963 (2016) (canon applies where “the listed items
are simple and parallel without unexpected internal
modifiers”); Jama v. ICE, 543 U.S. 335, 344 n.4 (2005)
(same where “modifying clause” appears “at the end of
a single, integrated list”). This canon applies to the
listing clause, which ticks off five synonyms in a
grammatically simple list (any “tribe, band, nation, or
other organized group or community”). Moreover,
through its usage of “including,” the Alaska clause
operates to equate its two parallel nouns (“village” and
“corporation”) with the five preceding nouns. And
given the obvious similarities between the Indian
entities in the listing clause and Alaska Native
villages—more than 200 of which have been

App-13
recognized as tribes—the recognition clause
undisputedly modifies “village” as well as the five
previously listed Indian groups. Finally, it is not
grammatically possible for the recognition clause to
modify all of the five nouns in the listing clause, plus
the first noun in the more proximate Alaska clause
(“village”), but not the one noun in the preceding two
clauses that is its most immediate antecedent
(“corporation”). If possible, we construe statutory text
to make grammatical sense rather than nonsense. See
Scalia & Garner, supra, at 140-43 (“Grammar
Canon”). For these reasons, an ANC cannot qualify as
an “Indian tribe” under ISDA unless it has been
“recognized as eligible for the special programs and
services provided by the United States to Indians
because of their status as Indians.”
B
Because no ANC has been federally “recognized”
as an Indian tribe, as the recognition clause requires,
no ANC satisfies the ISDA definition.
“[I]t is a cardinal rule of statutory construction
that, when Congress employs a term of art, it
presumably knows and adopts the cluster of ideas that
were attached to each borrowed word in the body of
learning from which it was taken.” Air Wis. Airlines
Corp. v. Hoeper, 571 U.S. 237, 248 (2014) (quoting FAA
v. Cooper, 566 U.S. 284, 292 (2012)). We adhere to this
presumption unless the statute contains some
“contrary indication.” McDermott Int’l, Inc. v.
Wilander, 498 U.S. 337, 342 (1991).
In the context of Indian law, “recognition” is a
“legal term of art.” Frank’s Landing Indian Cmty. v.
Nat’l Indian Gaming Comm’n, 918 F.3d 610, 613 (9th

App-14
Cir. 2019). It refers to a “formal political act
confirming the tribe’s existence as a distinct political
society, and institutionalizing the government-togovernment relationship between the tribe and the
federal government.” Cal. Valley Miwok Tribe v.
United States, 515 F.3d 1262, 1263 (D.C. Cir. 2008)
(quotation marks omitted). Federal recognition both
establishes the tribe as a “domestic dependent nation”
and “requires the Secretary [of the Interior] to provide
a panoply of benefits and services to the tribe and its
members.” Frank’s Landing, 918 F.3d at 613-14
(quotation marks omitted); see Muwekma Ohlone
Tribe v. Salazar, 708 F.3d 209, 211 (D.C. Cir. 2013)
(“Federal recognition is a prerequisite to the receipt of
various services and benefits available only to Indian
tribes.”); Miwok Tribe, 515 F.3d at 1263-64 (noting
“the federal benefits that a recognized tribe and its
members may claim”); Golden Hill Paugussett Tribe of
Indians v. Weicker, 39 F.3d 51, 57 (2d Cir. 1994)
(“After passage of the Indian Reorganization Act
recognition proceedings were necessary because the
benefits created by it were made available only to
descendants of ‘recognized’ Indian tribes.”). Given the
well-established meaning of “recognition” in Indian
law, and its connection to the provision of benefits to
tribal members, we interpret ISDA’s requirement that
an Indian tribe be “recognized as eligible for the
special programs and services provided by the United
States to Indians because of their status as Indians”
to require federal recognition of the putative tribe.
Several pre-ISDA statutes bolster this conclusion.
During the 1950s and 1960s, Congress sought to
assimilate Indians by terminating federal recognition
of various tribes, thereby ending the special

App-15
relationship that existed between the federal
government and the tribes as sovereigns. Felter v.
Kempthorne, 473 F.3d 1255, 1258 (D.C. Cir. 2007). By
rote formula, these statutes provided that, upon
termination, members of the former tribe “shall not be
entitled to any of the services performed by the United
States for Indians because of their status as Indians.”
See, e.g., An Act to Provide for the Division of the
Tribal Assets of the Catawba Indian Tribe of South
Carolina, Pub. L. No. 86-322, 73 Stat. 592, 593 (1959);
An Act to Provide for the Distribution of the Land and
Assets of Certain Indian Rancherias and Reservations
in California, Pub. L. No. 85-671, 72 Stat. 619, 621
(1958); An Act to Provide for the Termination of
Federal Supervision Over the Property of the Ottawa
Tribe of Indians in the State of Oklahoma, Ch. 909, 70
Stat. 963, 964 (1956). 1 These statutes confirm that,
long before ISDA was enacted, there was an
established connection between recognition and
sovereignty. Likewise, in text that closely mirrors
ISDA’s recognition clause, they confirm that with
recognition comes various benefits provided “by the
United States for Indians because of their status as
Indians.” In sum, they confirm that not only the
general concept of recognition, but also the specific
phrase used to describe it in ISDA, are terms of art
denoting federal recognition of a sovereign Indian
tribe.
The Federally Recognized Indian Tribe List Act of
1994 (List Act) further reinforces this conclusion. It
1 This precise formulation, or close variants of it, appears in at
least sixteen termination statutes enacted between 1954 and
1968.

App-16
charges the Secretary of the Interior with “keeping a
list of all federally recognized tribes.” Pub. L. No. 103454, § 103(6), 108 Stat. 4791, 4792. The list must be
“accurate, regularly updated, and regularly
published,” so that all federal agencies may use it “to
determine the eligibility of certain groups to receive
services from the United States.” Id. § 103(7), 108
Stat. at 4792. The list also must “reflect all federally
recognized Indian tribes in the United States which
are eligible for the special programs and services
provided by the United States to Indians because of
their status as Indians.” Id. § 103(8), 108 Stat. at 4792.
Repeating this language, the List Act’s only
substantive section, titled “Publication of list of
recognized tribes,” requires the Secretary to publish
annually a list of “all Indian tribes which the
Secretary recognizes to be eligible for the special
programs and services provided by the United States
to Indians because of their status as Indians.” 25
U.S.C. § 5131(a). Thus, in language that twice tracks
ISDA’s recognition clause almost verbatim, the List
Act equates federal recognition of Indian tribes with
eligibility for “the special programs and services
provided by the United States to Indians because of
their status as Indians.”
To be sure, the List Act post-dates ISDA. But
during the time between those two statutes, the
Secretary of the Interior consistently recognized
Indian tribes on the same terms and listed them as so
recognized. See Procedures for Establishing that an
American Indian Group Exists as an Indian Tribe, 43
Fed. Reg. 39,361, 39,362 (Sept. 5, 1978)
(“[A]cknowledgment of tribal existence by the
Department is a prerequisite to the protection,

App-17
services, and benefits from the Federal Government
available to Indian tribes. Such acknowledgment shall
also mean that the tribe is entitled to the immunities
and privileges available to other federally
acknowledged Indian tribes by virtue of their status
as Indian tribes . . . .”) (codified at 25 C.F.R. § 83.2
(1978)). Given the strikingly similar language
between the List Act and ISDA, the term-of-art nature
of that language, and its usage in administrative
practice spanning several decades, we conclude that
the List Act and ISDA must reflect the same
understanding of tribal recognition.
The intervenors urge a different understanding of
what kind of recognition ISDA requires. Rejecting the
term-of-art understanding laid out above, the
intervenors contend that an Alaska Native group is
“recognized” within the meaning of ISDA if it receives
any Indian-related funding or benefits, regardless of
whether the federal government has acknowledged a
sovereign-to-sovereign relationship with the group.
Because some statutes fund programs for Alaska
Natives in part through ANCs, see, e.g., 20 U.S.C.
§ 7453(b) (Alaska Native language immersion
schools), the intervenors contend that that ANCs are
therefore recognized Indian Tribes for ISDA purposes.
The intervenors’ proposed interpretation cannot
be reconciled with the text of ISDA. First, ISDA’s
recognition clause does not simply require the group
to be “recognized as eligible” for any special program
or service “provided by the United States to Indians
because of their status as Indians.” Instead, it requires
the group to be “recognized as eligible for the special
programs and services provided by the United States

App-18
to Indians because of their status as Indians”
(emphases added). Use of the definite article (“the”)
indicates that what follows “has been previously
specified by context.” Nielsen v. Preap, 139 S. Ct. 954,
965 (2019). Here, the only “special programs and
services” (in the plural) plausibly specified by context
are the “panoply of benefits and services” to which
“recognized” tribes are entitled. Frank’s Landing, 918
F.3d at 613-14. Second, the intervenors would read
recognition out of ISDA; whereas the statute requires
a group to be “recognized as eligible” for various
special programs, the intervenors would read it to
require only that the group be “eligible” to receive
benefits or funding.
The ANCs have not satisfied the recognition
clause as we construe it. They do not contend that the
United States has acknowledged a political
relationship with them government-to-government.
Nor could they, for in 1978, the Interior Department
promulgated
regulations
making
“corporations … formed in recent times” ineligible for
recognition. See 25 C.F.R. § 83.4(a). Under that
regulation, which remains in effect, no ANC appears
on the Secretary of the Interior’s current list of
recognized Indian tribes. See Indian Entities
Recognized by and Eligible To Receive Services from
the United States Bureau of Indian Affairs, 85 Fed.
Reg. 5,462 (Jan. 30, 2020). And because ANCs are not
federally recognized, they are not Indian tribes under
ISDA.
C
The government agrees that ANCs have not been
“recognized” as ISDA requires. Indeed, it stresses that

App-19
ANCs, which have never enjoyed any sovereign-tosovereign relationship with the United States, could
never be so recognized. For the government, the
upshot is that ANCs need not satisfy the recognition
clause to qualify as Indian tribes. Otherwise, the
government
reasons,
Congress
would
have
accomplished nothing by expressly adding “any
Alaska native village or regional or village
corporation” (emphasis added) to the list of possible
recognized tribes. Given what the government
describes as a misfit between the last noun in the
statutory list (“corporation”) and the adjectival clause
that follows (including “recognized”), the government
contends that the adjectival clause must be read to
modify every listed noun except its immediate
antecedent.
Fortunately, we need not choose between the
government’s
interpretation,
which
produces
grammatical
incoherence,
and
a
competing
interpretation that would produce equally problematic
surplusage. For we conclude that, although ANCs
cannot be recognized as Indian tribes under current
regulations, it was highly unsettled in 1975, when
ISDA was enacted, whether Native villages or Native
corporations would ultimately be recognized. The
Alaska clause thus does meaningful work by
extending ISDA’s definition of Indian tribes to
whatever
Native
entities
ultimately
were
recognized—even though, as things later turned out,
no ANCs were recognized.
For over a century, claims of tribal sovereignty in
Alaska went largely unresolved. Soon after the Alaska
Purchase, many courts held that Native villages were

App-20
not sovereigns in control of some distinct “Indian
country.” United States v. Seveloff, 27 F. Cas. 1021,
1024 (C.C.D. Or. 1872); Kie v. United States, 27 F. 351,
351-52 (C.C.D. Or. 1886); see also In re Sah Quah, 31
F. at 329 (“The United States at no time recognized
any tribal independence or relations among these
Indians . . . .”). That view changed over the first half of
the 20th century, yet there were still few occasions for
the federal government to develop political
relationships with the remote and isolated Native
villages. Sansonetti Op. at *9, *15-16. Accordingly, the
government
addressed
questions
of
Native
sovereignty only “in a tentative and reactive way.” Id.
at *2. And when land disputes came to the fore in
ANCSA, Congress complicated the question of Native
sovereignty even more. As a general matter, Indian
tribes must control a particular territory. See, e.g.,
Merrion v. Jicarilla Apache Tribe, 455 U.S. 130, 142
(1982); Montoya v. United States, 180 U.S. 261, 266
(1901). But ANCSA terminated 22 of the 23 existing
reservations in Alaska, 43 U.S.C. § 1618(a);
extinguished all aboriginal land claims of Native
individuals or tribes, id. § 1603; and transferred
settlement proceeds not to the Native villages
previously thought to have at least arguable
sovereignty, but to newly-created corporations
chartered under and thus subject to Alaska law, id.
§§ 1605(c), 1606(d).
After the enactment of ISDA, questions persisted
for nearly two more decades about the nature of tribal
sovereignty in Alaska. In 1977, a congressional
commission concluded that the sovereign powers of
Alaska Native villages had been placed “largely in
abeyance at the present time because the tribes

App-21
currently do not possess tribal domains.” 2 Am. Indian
Pol’y Rev. Comm’n, No. 93-440, Final Report, 489, 490491 & n.12 (1977). In 1988, the Alaska Supreme Court
held that Alaska Native villages had “not been
accorded tribal recognition” (except for the tribe
inhabiting the one remaining reservation) and thus
lacked tribal sovereign immunity. Native Vill. of
Stevens v. Alaska Mgmt. & Planning, 757 P.2d 32, 3941 (Alaska 1988). And as late as January 1993, the
Solicitor of Interior concluded that Alaska Native
villages enjoyed some attributes of tribal sovereignty,
but only after conducting an exhaustive historical
survey and analysis of various conflicting
considerations. Sansonetti Op. at *5-35, *75-76. Even
then, the Solicitor concluded that this sovereignty did
not extend to control over the lands transferred by
ANCSA to the regional and village corporations. Id. at
*75.
Moreover, ANCSA charged the new ANCs with a
handful of functions that would ordinarily be
performed by tribal governments, making potential
future recognition of ANCs more plausible. For one
thing, ANCs were the vehicle for implementing a
global settlement encompassing all land claims that
any Native individual or sovereign could bring against
the United States. 43 U.S.C. § 1601(a). Moreover, the
village corporations were charged with managing the
land transferred by the United States not on behalf of
their shareholders, but “on behalf of a Native village.”
Id. § 1602(j). And the regional corporations were
authorized to “promote the health, education, or
welfare” of Alaska Natives. Id. § 1606(r). That
function is currently performed by two large cabinet
agencies, the Department of Health and Human

App-22
Services and the Department of Education, which at
the time of ANCSA were constituted as a single
Department of Health, Education, and Welfare. The
intervenors themselves characterize ANCs as
performing functions “that one would most naturally
describe as governmental.” Intervenor-Appellees’ Br.
at 35.
When ISDA was enacted, the standards and
procedures for the United States to recognize Indian
tribes also were unsettled. At that time, recognition
occurred in an “an ad hoc manner,” with petitions for
recognition evaluated “on a case-by-case basis,”
Mackinac Tribe v. Jewell, 829 F.3d 754, 756 (D.C. Cir.
2016), and “at the discretion” of the Interior
Department, Procedures Governing Determination
that Indian Group Is a Federally Recognized Indian
Tribe, 42 Fed. Reg. 30,647, 30,647 (June 16, 1977). It
was not until 1978 that the Department first
promulgated regulations establishing uniform
standards to govern the question whether to grant
“formal recognition” to specific Indian groups.
Mackinac Tribe, 829 F.3d at 756.
But even after promulgating those regulations,
Interior still had difficulty sorting out whether to
recognize Native villages, corporations, or both. In
1979, Interior published its first list of tribes
recognized under the new regulatory criteria. The list
contained no Alaska Native entities, which the agency
said would be addressed “at a later date.” Indian
Tribal Entities that Have a Government-ToGovernment Relationship with the United States, 44
Fed. Reg. 7,235, 7,235 (Feb. 6, 1979). In 1988, Interior
included both villages and corporations in a single list

App-23
designated as “native entities within the State of
Alaska recognized and eligible to receive services from
the United States Bureau of Indian Affairs.” Indian
Entities Recognized and Eligible to Receive Services
from the United States Bureau of Indian Affairs, 53
Fed. Reg. 52,829, 52,832-33 (Dec. 29, 1988) (cleaned
up). Finally, Interior changed course in October 1993,
publishing a substantially revised list of recognized
Native entities that included over 200 Alaska Native
villages, but no Alaska Native corporations. Indian
Entities Recognized and Eligible to Receive Services
from the United States Bureau of Indian Affairs, 58
Fed. Reg. 54,364 (Oct. 21, 1993). In the preamble to
that list, Interior analogized Native corporations to
“tribal organizations” in the lower 48 states, which
were not recognized as Indian tribes. See id. at 54,365.
Moreover, it expressed concern that recognizing
Native corporations as sovereign entities would
undercut the case for so recognizing the traditional
Native villages. See id. As the leading Indian-law
treatise explains, “the question of federal recognition
of Alaska tribes” thus was not “definitively settled”
until Interior published this “revised list of federally
recognized tribes” in October 1993. Cohen’s Handbook,
supra, § 4.07(3)(d)(ii).
In sum, when Congress enacted ISDA in 1975, it
was substantially uncertain whether the federal
government would recognize Native villages, Native
corporations, both kinds of entities, or neither. In the
face of this uncertainty, Congress expanded the term
“Indian tribe” to cover any Native “village or regional
or village corporation” that was appropriately
“recognized.” By including both villages and
corporations, Congress ensured that any Native

App-24
entities recognized by Interior or later legislation
would qualify as Indian tribes. There is no surplusage
problem simply because, almost two decades later,
Interior chose to recognize the historic villages but not
the newer corporations as the ultimate repository of
Native sovereignty.
Finally, we reject the government’s plea for
deference. The government does not contend that its
interpretation of ISDA is entitled to deference under
Chevron, U.S.A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984), presumably
because that interpretation has never been formally
expressed, see United States v. Mead Corp., 533 U.S.
218, 226-27 (2001). Instead, the government claims
deference under Skidmore v. Swift & Co., 323 U.S. 134
(1944), to the extent that its position is persuasive.
The government’s position in this case traces back to
an internal agency memorandum written by an
Assistant Solicitor of Interior, who simply asserted
that ANCs must be exempt from ISDA’s recognition
clause in order to avoid statutory surplusage. That
memorandum did not address any of the textual or
historical considerations set forth above. Moreover, it
appears inconsistent with a binding regulation
adopted by the Department of the Treasury, the
agency before the Court on this appeal. The regulation
provides that, under ISDA, “[e]ach such Indian Tribe”
covered by the definition—“including any Alaska
Native village or regional or village corporation” as
defined in ANCSA—“must be recognized as eligible for
special programs and services provided by the United
States to Indians because of their status as Indians.”
12 C.F.R. § 1805.104. Because the Interior
Department’s administrative interpretation of ISDA

App-25
has little persuasive power, we afford it no deference.
Likewise, we decline to follow Cook Inlet Native Ass’n
v. Bowen, 810 F.2d 1471 (9th Cir. 1987), in which the
Ninth Circuit accepted that interpretation. See id. at
1473-76.
For these reasons, we read the ISDA definition to
mean what it says, that Alaska Native villages and
corporations count as an “Indian tribe” only if
“recognized” as such.
D
The ANCs suggest that a ruling for the tribes
would produce sweeping adverse consequences. They
worry that such a ruling would disentitle them not
only from CARES Act funding, but also from funding
under ISDA and the many other statutes that
incorporate its “Indian tribe” definition. This is far
from obvious, for ISDA makes funding available to any
“tribal organization,” upon request by any “Indian
tribe.” 25 U.S.C. § 5321(a)(1). And it further defines
“tribal organization” to include not only “the
recognized governing body of any Indian tribe,” but
also “any legally established organization of Indians
which is controlled, sanctioned, or chartered by such
governing body.” Id. § 5304(l). The parties disagree on
whether ANCs, if requested to provide services by a
recognized Native village, may receive ISDA funding
as an “organization of Indians” that was “sanctioned”
by the village to provide the services. We need not
resolve that question, and so we leave it open.
The ANCs further claim flexibility to provide
coronavirus relief to Alaska Natives who are not
enrolled in any recognized village. Given the urgent
need for relief, the ANCs say, we should broadly

App-26
construe the CARES Act to direct funding to the
entities best able to provide needed services. The short
answer is that we must of course follow statutory text
as against generalized appeals to sound policy. But we
also note that ANCSA expressly preserves “any
governmental programs otherwise available to the
Native people of Alaska as citizens of the United
States or the State of Alaska.” 43 U.S.C. § 1626(a). We
are confident that, if there are Alaska Natives uncared
for because they are not enrolled in any recognized
village, either the State of Alaska or the Department
of Health and Human Services will be able to fill the
void.
V
We hold that Alaska Native Corporations are not
eligible for funding under Title V of the CARES Act.
We thus reverse the grant of summary judgment to
the government and the intervenors, as well as the
denial of summary judgment to the plaintiff tribes.
So ordered.

App-27
KAREN LECRAFT HENDERSON, Circuit Judge,
concurring: It is, was and always will be, this court’s
duty “to say what the law is,” Marbury v. Madison, 5
U.S. (1 Cranch) 137, 177, 2 L.Ed. 60 (1803), but that
does not mean we should be blind to the impact of our
decisions. The COVID-19 pandemic is an
unprecedented calamity, subjecting Americans to
physical and economic suffering on a national scale.
The virus respects no geographic or political
boundaries and invades nearly every facet of life. And
as the virus has swept through our Nation, it has
disproportionately affected American Indian and
Alaska Native communities. 1
Although I join my colleagues in full, I write
separately to express my view that this decision is an
unfortunate and unintended consequence of highstakes, time-sensitive legislative drafting. 2 It is
indisputable that the services ANCs provide to Alaska
Native communities—including healthcare, elder
care, educational support and housing assistance—
have been made only more vital due to the pandemic.
Press Release, Centers for Disease Control and Prevention,
CDC data show disproportionate COVID-19 impact in American
Indian/Alaska
Native
populations
(Aug.
19,
2020),
https://www.cdc.gov/media/releases/2020/p0819-covid-19impact-american-indian-alaska-native.html.
1

The CARES Act was drafted and required to be implemented
on an extraordinarily short timeline. Only eight days elapsed
between the CARES Act’s introduction in the Senate on March
19 and the President’s signature on March 27. See H.R. 784,
116th Cong. (2020) (enacted); S. 3548, 116th Cong. (2020). The
CARES Act funds at issue were to be distributed no later than 30
days after enactment and any undistributed funds are scheduled
to lapse on September 30. 42 U.S.C. § 801(a)(1), (b)(1).
2

App-28
I can think of no reason that the Congress would
exclude ANCs (and thus exclude many remote and
vulnerable Alaska Natives) from receiving and
expending much-needed Title V funds.
Indian law, however, does not have a simple
history or statutory scheme and “no amount of wishing
will give it a simple future.” Lummi Indian Tribe v.
Whatcom Cty., 5 F.3d 1355, 1360 (9th Cir.) (Beezer, J.,
dissenting), as amended on denial of reh’g (Dec. 23,
1993); see also United States v. Lara, 541 U.S. 193, 219
(2004) (Thomas, J., concurring) (“Federal Indian
policy is, to say the least, schizophrenic.”). Indian law’s
complexity and the pressure to provide swift relief
may have proved too much in this case. ISDA is only
one of the many statutes which define “Indian tribe”
in less than clear—and even conflicting—terms. 3 I
believe the Congress must have had reason to believe
its definition would include ANCs but, by
incorporating by reference ISDA’s counter-intuitive
definition, it did not, in fact, do so. As a result, many
of our fellow citizens who depend on ANCs will not
receive Title V aid. Nonetheless it is not this court’s
job to “soften . . . Congress’ chosen words whenever
[we] believe[] those words lead to a harsh result.”
United States v. Locke, 471 U.S. 84, 95 (1985). And a
harsh result it is.
For example, the Native American Housing Assistance and
Self-Determination Act defines “Indian tribe” as a “federally
recognized tribe” and defines “federally recognized tribe” as those
tribes, Alaska Native villages or ANCs “recognized as eligible for
the special programs and services provided by the United States
to Indians because of their status as Indians pursuant to [ISDA].”
25 U.S.C. §4103(13)(B) (emphasis added).
3

App-29
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
________________
No. 20-5204
________________
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, et al.,
Appellees,
UTE TRIBE OF THE UINTAH AND
OURAY INDIAN RESERVATION,
v.

Appellant,

STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury, et al.,
Appellees.
________________
Consolidated with 20-5205, 20-5209
________________
Filed: Sept. 30, 2020
________________
Before: HENDERSON *, MILLETT, and KATSAS,
Circuit Judges.
________________
ORDER
________________

*

Circuit Judge Henderson would deny the motion.

App-30
Upon consideration of the emergency motion to
suspend statutory lapse of appropriation and extend
budget authority, the responses thereto, and the
replies, it is
ORDERED that to ensure an opportunity for
orderly review of this Court’s September 25, 2020
decision, as well as the government’s ability to
disburse the disputed funds upon completion of the
litigation, any expiration of the appropriation for
Tribal governments set forth in 42 U.S.C. 801(a)(2)(B)
is hereby suspended. See Nat’l Ass’n of Reg’l Councils
v. Costle, 564 F.2d 583, 588 (D.C. Cir. 1977). It is
FURTHER ORDERED that this order will
expire at 5:00 p.m. on October 30, 2020, unless the
federal government or the intervenor-appellees has by
then filed either a petition for rehearing en banc or for
a writ of certiorari seeking review of this Court’s
decision, in which case this order will remain effective
until seven days after final action by this Court or the
Supreme Court.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Amanda Himes
Deputy Clerk

App-31
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
________________
No. 20-5204
________________
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, et al.,
Appellees,
UTE TRIBE OF THE UINTAH AND
OURAY INDIAN RESERVATION,
v.

Appellant,

STEVEN T. MNUCHIN, in his official capacity
as Secretary of U.S. Department
of the Treasury, et al.,
Appellees.
________________
Consolidated with 20-5205, 20-5209
________________
Filed: Sept. 14, 2020
________________
Before: HENDERSON, MILLETT, and KATSAS,
Circuit Judges.
________________
ORDER
On July 7, 2020, the district court issued a
memorandum opinion staying its June 26, 2020 order
until the earlier of September 15, 2020, or resolution

App-32
of this matter by this court. Upon consideration of the
foregoing, it is
ORDERED, on the court’s own motion, that the
Secretary of the Treasury be enjoined from disbursing
or otherwise paying Title V funds to any Alaska
Native regional or village corporations pending
resolution of these consolidated appeals.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

App-33
Appendix D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
________________
No. 20-cv-01002
________________
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, et al.,
Plaintiffs,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________
No. 20-cv-01059
________________
CHEYENNE RIVER SIOUX TRIBE, et al.,
Plaintiffs,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________

App-34
________________
No. 20-cv-01070
________________
UTE TRIBE OF THE UINTAH AND OURAY RESERVATION,
Plaintiff,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________
Filed: June 26, 2020
________________
MEMORANDUM OPINION
________________
Under Title V of the Coronavirus Aid, Relief, and
Economic Security Act, or CARES Act, Congress
appropriated $8 billion for “Tribal governments” to
combat the COVID-19 pandemic. This consolidated
case concerns who qualifies as a “Tribal government”
under the CARES Act. Plaintiffs are a group of
federally recognized tribes from the lower 48 states
and Alaska; they ask this court to permanently enjoin
the Secretary of the Treasury from making Title V
payments to Alaska Native regional and village
corporations, or ANCs. ANCs are not federally
recognized tribes; rather, they are for-profit
corporations established by Congress in 1971 under
the Alaska Native Claims Settlement Act and
recognized under Alaska law.

App-35
The CARES Act defines “Tribal governments” to
mean “the recognized governing body of an Indian
Tribe.” The Act in turn defines “Indian Tribe” by crossreferencing the definition of that term in another
statute: the Indian Self-Determination and Education
Assistance Act. In Plaintiffs’ view, ANCs do not meet
the statutory definition of either “Indian Tribe” or
“Tribal government.” The Secretary of the Treasury,
whom Congress vested with authority to allocate Title
V funds, on the other hand, reads the CARES Act to
allow payment of Title V funds to ANCs. The court
previously agreed with Plaintiffs, at least tentatively,
and preliminarily enjoined the Secretary from
distributing CARES Act funds to ANCs. See
Confederated Tribes of the Chehalis Reservation v.
Mnuchin, Case No. 20-cv-1002 (APM), 2020 WL
1984297 (D.D.C. April 27, 2020) (“Confederated
Tribes”). In that decision, the court found that
Plaintiffs would be irreparably harmed absent
emergency relief, and that they had established a
substantial likelihood of success on the merits.
The matter is before the court on cross-motions for
summary judgment. Although the court initially
determined that Plaintiffs were likely to succeed on
the merits of their claim, after reviewing the parties’
arguments on summary judgment, the court now
holds that ANCs are “Indian Tribes,” and that their
boards of directors are “Tribal governments,” for
purposes of the CARES Act. Accordingly, ANCs are
eligible to receive Title V funds. As a result, the court
dissolves the preliminary injunction and enters
judgment in favor of Defendants.

App-36
I.
A. Background
The court begins with a brief overview of the
relevant statutes and the history of this case. 1
1.

Statutory Background

Congress enacted the Coronavirus Aid, Relief, and
Economic Security Act (“CARES Act”), Pub. L. No.
116-136, 134 Stat. 281 (2020), to respond to the
devastating impacts of the COVID-19 pandemic. Title
V of the CARES Act, the title relevant here,
appropriates $150 billion for fiscal year 2020 for
“payments to States, Tribal governments, and units of
local government.” 42 U.S.C. § 801(a)(1). Of that sum,
$8 billion is “reserve[d] . . . for making payments to
Tribal governments.” Id. § 801(a)(2)(B). Congress
directed the Secretary of the Treasury (“Secretary”) to
disburse those monies to “Tribal governments” within
30 day of the law’s enactment, or by April 26, 2020.
§ 801(b)(1).
The CARES Act defines “Tribal government” as
“the recognized governing body of an Indian tribe.” Id.
§ 801(g)(5). The Act further provides that “[t]he term
‘Indian Tribe’ has the meaning given that term” in
section 4(e) of the Indian Self-Determination and
Education Assistance Act, 25 U.S.C. § 5304(e)). Id.
§ 801(g)(1). The Indian Self-Determination and
Education Assistance Act, or ISDEAA, defines “Indian
tribe” as “any Indian tribe, band, nation, or other
1 For a more detailed factual and procedural background, the
court directs the reader to its Memorandum Opinion granting
preliminary injunctive relief. See Confederated Tribes, 2020 WL
1984297.

App-37
organized group or community, including any Alaska
Native village or regional or village corporation as
defined in or established pursuant to the Alaska
Native Claims Settlement Act (85 Stat. 688) [43
U.S.C. § 1601 et seq. (“ANCSA”)], which is recognized
as eligible for the special programs and services
provided by the United States to Indians because of
their status as Indians.” 25 U.S.C. § 5304(e). The court
refers to “Alaska Native . . . regional or village
corporation[s]” in this opinion as ANCs.
Congress enacted ISDEAA in 1975 “to help Indian
tribes assume responsibility for aid programs that
benefit their members.” Menominee Indian Tribes of
Wis. v. United States, 136 S. Ct. 750, 753 (2016). Under
ISDEAA, federally recognized Indian tribes, tribal
organizations, and tribal consortiums can choose to
have the Bureau of Indian Affairs (BIA) provide direct
services, or they can operate the programs themselves
by entering into “self-determination contracts” with
these federal agencies to provide services that
otherwise would have been provided by the federal
government, such as education, law enforcement, and
health care. 25 U.S.C. § 5321(a)(1); see also
Menominee Indian Tribes of Wis., 136 S. Ct. at 753. A
contracting tribal organization is eligible to receive
the amount of money that the federal government
would have otherwise spent on the program, see 25
U.S.C. § 5325(a)(1), as well as reimbursement for
reasonable “contract support costs,” which include
administrative and overhead costs associated with
carrying out the contracted programs, id. § 5325(a)(2),
(3)(A). ISDEAA was amended in 1988, 1994, and 2000,
and now includes health care programs administered
by the Indian Health Service. See Pub. L. 100-472

App-38
(Oct. 5, 1988); Pub. L. 103-413 (Oct. 25, 1994); Pub. L.
106-260 (Aug. 18, 2000).
2.

Factual and Procedural Background

Congress instructed the Secretary to distribute
Title V funding quickly—within 30 days of the law’s
enactment. So, on April 13, 2020, shortly after the
CARES Act became law, the Secretary published on
the Treasury Department’s website a form titled
“Certification for Requested Tribal Data,” which
sought certain data to effectuate disbursement of
CARES Act funds. See Confederated Tribes of the
Chehalis Pls.’ Mot. for TRO & Prelim. Inj., ECF No. 3,
Decl. of Riyaz Kanji, Ex. 2, ECF No. 3-8 [hereinafter
Certification], at 15-16. The Certification identified
metrics specific to ANCs. ANCs are not federally
recognized Indian tribes but are for-profit
corporations established by Congress under the
Alaska Native Claims Settlement Act. See 43 U.S.C.
§§ 1606, 1607. The metrics specific to ANCs identified
by the Secretary included “shareholders” as of
January 1, 2020, and total land base, which expressly
included lands “selected pursuant to the Alaska
Native Claims Settlement Act.” Certification.
The Certification’s posting prompted three groups
of Tribes to bring suit against the Secretary under the
Administrative Procedure Act (“APA”), challenging
the Secretary’s anticipated treatment of ANCs as
eligible for Title V funding. Id. On April 17, 2020, the
Confederated Tribes of the Chehalis Reservation, the
Tulalip Tribes, the Houlton Band of Maliseet Indians,
the Akiak Native Community, the Asa’carsarmiut
Tribe, and the Aleut Community of St. Paul Island
(collectively, “Confederated Tribes Plaintiffs”) filed an

App-39
action against the Secretary. Confederated Tribes
Compl., ECF No. 1. 2 Shortly afterward, Plaintiffs
Cheyenne River Sioux Tribe, Oglala Sioux Tribe, and
Rosebud Sioux Tribe filed their suit, see Cheyenne
River Sioux Compl., ECF No. 1, and Plaintiff Ute
Indian Tribe of the Uintah and Ouray Reservation
filed a third lawsuit the next day, see Ute Compl., ECF
No. 1. The court consolidated all three cases. See
Docket 20-cv-1070, Minute Order, April 24, 2020;
Docket 20-cv-1059, Minute Order, April 23, 2020.
On April 23, 2020, the Treasury Department
formally announced its position that it intended to
distribute Title V funds to ANCs: “After consultation
with the Department of the Interior, Treasury has
concluded that Alaska Native regional and village
corporations as defined in or established pursuant to
the Alaska Native Claims Settlement Act are eligible
to receive payments from the Fund in the amounts to
be determined by the Secretary of the Treasury.” U.S.
TREASURY DEP’T, Coronavirus Relief Fund Payments
to Tribal Governments (April 23, 2020) (footnote
omitted). 3
The Confederated Tribes Plaintiffs filed an amended
complaint, which added the Navajo Nation; Quinault Indian
Tribe; Pueblo of Picuris; Elk Valley Rancheria, California; and
San Carlos Apache Tribe as plaintiffs. See Am. Confederated
Tribes Compl., ECF No. 7. Plaintiffs again brought the same
single count for violations of the APA. Id. ¶¶ 117-23.
2

3
Available at https://home.treasury.gov/system/files/136/
Coronavirus-Relief-Fund-Payments-to-Tribal-Governments.pdf.
The Confederated Tribes and the Cheyenne River Sioux
Plaintiffs both amended their complaints a second time following
summary judgment briefing to include an additional allegation
regarding the Secretary’s April 23, 2020 statement, which was

App-40
All Plaintiffs moved for preliminary injunctive
relief, which this court granted on April 27, 2020. See
Confederated Tribes, 2020 WL 1984297. In granting
that relief, the court rejected the Secretary’s threshold
contention that the Treasury Department’s legal
determination that ANCs are eligible for Title V funds
is a presumptively unreviewable discretionary action
under the APA. See id. at *5-6. The court concluded
that, “while the Secretary’s decisions as to how much
to disburse might not be reviewable, his decisions to
whom to disburse those funds most certainly is.” Id. at
*5 (footnote omitted). As for the injunction factors, the
court evaluated them on a sliding scale and found that
they weighed in favor of granting relief. See id. at *715. In particular, on the merits of the APA claim, the
court preliminarily agreed with Plaintiffs that no ANC
satisfied the CARES Act’s definition of “Tribal
government” and therefore no ANC was eligible for
Title V funds. Id. at *10. The court declined, however,
to grant the full relief that Plaintiffs sought. Instead
of compelling the Secretary to distribute all $8 billion
in Title V funds only to federally recognized Indian
tribes, the court entered a “more limited remedy,” id.
at *16, which enjoined the Secretary from disbursing
Title V funds to any ANC pending entry of a final
judgment in the case, see Order, ECF No. 37.
On May 5, 2020, the Treasury Department began
distributing 60 percent, or $4.8 billion, of the $8 billion
in Title V funds designated for Tribal governments.
not issued until after the date of the Confederated Tribes
Plaintiffs’ first amended complaint. See Confederated Tribes
Second Am. Compl., ECF No. 93; Cheyenne River Sioux Second
Am. Compl., ECF No. 96.

App-41
The Secretary allocated that sum based not on any
information collected through the Certification, but
rather on pre-existing tribal population data
maintained by the U.S. Department of Housing and
Urban Development (“HUD”). See U.S. DEP’T OF
TREASURY, Coronavirus Relief Fund Allocations to
Tribal Governments (May 5, 2020), at 2. 4 Based on the
HUD data, the Secretary determined that ANCs
would receive $162.3 million in Title V funds but
withheld that amount to comply with the preliminary
injunction. See Agua Caliente Band of Cahuilla
Indians v. Mnuchin, No. 20-cv-01136 (APM)
[hereinafter Agua Caliente Band], 5/8/2020 Hr’g Tr.,
ECF No. 30, at 18.
The Secretary began disbursing the balance of the
Title V funds on June 17, 2020. See Notice, Agua
Caliente Band, ECF No. 43 [hereinafter Notice]. This
second tranche of emergency relief was distributed
based on employment and expenditure data submitted
by Tribal governments, including ANCs. See Def.’s
Status Report, Agua Caliente Band, ECF No. 39. The
Secretary once again allocated Title V funds to ANCs
but withheld making payments per the court’s order,
see Notice, and he has not publicly announced the
exact amount withheld for ANCs in this second
tranche of funding.
Meanwhile, a number of ANCs and ANC
associations filed motions to intervene as defendants
in this case, 5 which the court granted. See Minute
4
Available at https://home.treasury.gov/system/files/136/
Coronavirus-Relief-Fund-Tribal-Allocation-Methodology.pdf.
5 See Mot. of Ahtna, Inc. to Intervene as Defendant &
Incorporated Mem. of Law, ECF No. 43; Mot. of Alaska Native

App-42
Order, May 13, 2020; Order, ECF No. 70. Summary
judgment briefing concluded on June 9, 2020, and the
court heard argument on the parties’ cross-motions on
June 12, 2020. See Minute Entry, June 12, 2020.
II.
Under Federal Rule of Civil Procedure 56,
summary judgment is appropriate when the moving
party demonstrates that “there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
However, in cases such as this one involving review of
a final agency action, the standard set forth in Rule 56
does not apply. See AFL-CIO v. Chao, 496 F. Supp. 2d
76, 81 (D.D.C. 2007). The court’s role in an APA action
“is to determine whether or not as a matter of law the
evidence in the administrative record permitted the
agency to make the decision it did.” Charter Operators
of Ala. v. Blank, 844 F. Supp. 2d 122, 127 (D.D.C.
2012) (quoting Occidental Eng’g Co. v. INS, 753 F.2d
766, 769-70 (9th Cir. 1985)). Summary judgment
“serves as a mechanism for deciding, as a matter of
law, whether the agency action is supported by the
administrative record and is otherwise consistent with
the APA standard of review.” Id.
III.
The Secretary renews the jurisdictional argument
that the court rejected at the preliminary injunction
stage, which is that “Congress did not intend for
Village Corp. Ass’n, Inc. & Ass’n of ANCSA Regional Corp.
Presidents/CEO’s, Inc. to Intervene and Mem. of P. & A., ECF
No. 45; Mot. to Intervene as Defendants & Supp. Mem. of Law,
ECF No. 46.

App-43
emergency relief payments to be subject to judicial
review.” Def.’s Mot for Summ. J., ECF No. 79, Def.’s
Mem of Law in Supp. of its Mot. for Summ. J., ECF
No. 79-1 [hereinafter Def.’s Mot.], at 11. The Secretary
points to two features of the CARES Act that he
contends evince such congressional intent. First, he
points to the short statutory, 30-day timeline to
distribute funds. Id. at 11-12. Second, he argues that
the statutory scheme, which does not require Treasury
to publish to “whom it will be paying, its methodology
or the payment amounts” prior to disbursing the
funds, makes clear Congress’s intent that the
Secretary’s decisions be insulated from review. Id. at
12. These arguments are refinements of the
Secretary’s prior assertion of judicial nonreviewability, but they fare no better.
There is a “strong presumption that Congress
intends judicial review of administrative action.”
Council for Urological Interests v. Sebelius, 668 F.3d
704, 708 (D.C. Cir. 2011) (quoting Bowen v. Mich.
Acad. of Family Physicians, 476 U.S. 667, 670 (1986)).
That presumption can be overcome if “congressional
intent to preclude judicial review is fairly discernible
from the statutory scheme.” Block v. Cmty. Nutrition
Inst., 467 U.S. 340, 390 (1984). But such a showing
entails a “heavy burden,” which must be carried by
“clear and convincing evidence.” Dunlop v. Bachowski,
421 U.S. 560, 567 (1975) (citation omitted), overruled
on other grounds by Furniture & Piano Moving,
Furniture Store Drivers, Helpers, Warehousemen &
Packers v. Crowley, 467 U.S. 526 (1984).
A tight statutory deadline by itself is not sufficient
to overcome the strong presumption in favor of judicial

App-44
review. See id. at 562 n.2 & 567 (holding that a
decision by the Secretary of Labor subject to a 60-day
deadline is reviewable); In re FTC Corp. Patterns
Report Litig., 432 F. Supp. 274, 289-90 (D.D.C. 1977)
(rejecting argument that 45-day timeline for agency
action evinced Congress’[s] intent to preclude judicial
review, and reasoning that “[a]t best, a court could
indirectly imply from Congress’s obvious desire to
prevent undue delays an intent to protect the
[Secretary’s] actions from judicial scrutiny. This
tenuous link, however, does not constitute clear and
convincing evidence of Congressional intent to
preclude judicial review.”). The cases Defendant cites
to the contrary are easily distinguishable. In Morris v.
Gressette, 432 U.S. 491 (1977), for example, the Court
pointed to numerous features of the statute, including
“the potential severity of the . . . remedy, the statutory
language, and the legislative history,” from which
“nonreviewability [could] fairly be inferred.” Id. at
501, 504 (citation omitted). No such additional indicia
are present here. Dalton v. Specter also is inapposite.
There, four concurring Justices found that a series of
“tight and rigid deadlines” prescribed in a statutory
scheme for military base closings was an indication
that Congress did not intend for judicial review of an
individual closing determination. 511 U.S. 462, 479
(1994) (Souter, J., concurring, joined by Blackmun,
Stevens, Ginsburg, JJ.). But there was also more at
play in Dalton: the Justices observed that “the Act’s
text and intricate structure . . . plainly express
congressional intent that action on a base-closing
package be quick and final, or no action be taken at
all.” Id. That included not only a series of “unbending”
time deadlines, but also the speed with which the base

App-45
closures were to occur if approved and the disbanding
of the base-closing Commission at the end of each
decision round, and its eventual automatic
termination. See id. at 480-81. Here, in sharp contrast,
Congress did not tie the 30-day distribution period to
any other deadline for congressional or agency action;
and there is no impending automatic expiration of
authority to distribute the funds. 6 Nor can it be said
that the deadline is “unbending,” as the Secretary—
independent of any litigation—did not begin
distributing the second tranche of funds until June 12,
2020, 47 days past the 30-day deadline, see Def.’s
Status Report, Agua Caliente Band, ECF No. 39; 42
U.S.C. §801(b)(1). A stand-alone deadline, even one of
a mere 30 days, cannot without more overcome the
strong presumption in favor of agency review.
Nor does the fact that Congress did not require
the Secretary to identify aid recipients before making
payments indicate an intent to foreclose judicial
review. The Secretary points to no evidence that
Congress even considered such a pre-publication
requirement, let alone consciously elected not to adopt
one. The court cannot draw any inference of nonreviewability from Congress’s failure to enact a
provision that it did not even consider. The
presumption of reviewability therefore applies, and
the Secretary has failed to defeat it.

6 At most, Title V mandates payment of funds for “fiscal year
2020,” which expires September 30, 2020. 42 U.S.C. § 801(b).
That leaves sufficient time to litigate this matter to its
conclusion, including possible expedited appellate review.

App-46
IV.
The court turns now to the merits. Recall, the
CARES Act grants $8 billion in emergency aid to
“Tribal governments,” which the Act defines as “the
recognized governing body of an Indian Tribe.” 42
U.S.C. § 801(g)(5). “Indian Tribe,” in turn, “has the
meaning given that term” under ISDEAA. Id.
§ 801(g)(1). ISDEAA defines “Indian tribe” as:
[A]ny Indian tribe, band, nation, or other
organized group or community, including any
Alaska Native village or regional or village
corporation as defined in or established
pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688), which is
recognized as eligible for the special programs
and services provided by the United States to
Indians because of their status as Indians.
25 U.S.C. § 5304(e). Plaintiffs argue that ANCs do not
qualify for Title V funds for two reasons: (1) ANCs do
not meet ISDEAA’s definition of “Indian Tribe,” and
(2) ANCs are not a “recognized governing body” of an
Indian tribe, nor do they have such a body. Though
these arguments seem straightforward at first blush,
the parties have staked out varied approaches in
addressing them.
Whether ANCs are “Indian Tribes” under
ISDEAA turns on how one reads the dependent clause
that appears at the end of the ISDEAA definition—
“which is recognized as eligible for the special
programs and services provided by the United States
to Indians because of their status as Indians.” The
court refers to this as the “eligibility clause.”
According to the Confederated Tribes Plaintiffs, the

App-47
eligibility clause applies to each listed entity that
comes before it, including most critically “Alaska
Native . . . regional or village corporations”—ANCs.
See Confederated Tribes Mot. for Summ. J. and Mem.
of P. & A., ECF No. 77 [hereinafter Confederated
Tribes Mot.], at 13 (citing 25 U.S.C. § 5304(e)).
Because no ANC presently satisfies the eligibility
clause, those Plaintiffs say, none qualifies for CARES
Act funds. Id. at 13-14.
The Confederated Tribes Plaintiffs, however, are
the only Plaintiffs that press this interpretation. The
Cheyenne River Sioux and Ute Plaintiffs (collectively,
“Cheyenne River Sioux Plaintiffs”) acknowledge that
“ANCs can be treated as ‘Indian tribe[s]’ for limited
purposes” under ISDEAA. See Pls. Cheyenne River
Sioux Tribe’s, Rosebud Sioux Tribe’s, Oglala Sioux
Tribe’s, Nondalton Tribal Council’s Arctic Village
Council’s Native Village of Venetie Tribal
Government’s, Navajo Nation’s, & Ute Indian of the
Uintah & Ouray Indian Reservation’s Mem. in Supp.
of Jt. Mot. for Summ. J., ECF No. 76-2 [hereinafter
Cheyenne River Sioux Mot.], at 4. Thus, there is a split
among Plaintiffs as to whether ANCs qualify as
“Indian Tribes” for purposes of the CARES Act.
Ironically, the Secretary agrees with the
Confederated Tribe Plaintiffs that ANCs do not
satisfy, and never have satisfied, the eligibility clause;
and yet he contends that ANCs qualify for CARES Act
funding as “Indian Tribes” under ISDEAA. Def.’s Mot.
at 1. The Secretary asserts that the ISDEAA definition
must be read to, in effect, exempt ANCs from
satisfying the eligibility clause. That interpretation,
the Secretary claims, is faithful to congressional

App-48
design, because the Confederated Tribes’ alternative
reading, if accepted, would render the listing of ANCs
in the ISDEAA definition surplusage and defeat
Congress’s intent to make ANCs eligible for ISDEAA
self-determination contracts. The ANC-Intervenors,
by contrast, take a “heads-I-win, tails-I-win” approach
to reading the ISDEAA definition. They say that
ANCs do satisfy the ordinary meaning of the eligibility
clause, because they are “eligible for the special
programs and services provided by the United States
to Indians because of their status as Indians.” Mem. of
P. & A. in Supp. of Intervenor-Defs.’ Mot. for Summ.
J., ECF No. 78-1 [hereinafter Intervenors’ Mot.], at 47;
Intervenor-Defs.’ Resp. in Opp’n to Pls.’ Cross-Mots.
for Summ. J., ECF No. 86 [hereinafter Intervenors’
Opp’n], at 5. The Secretary expressly rejects this
reading, contending that the eligibility clause conveys
the principle of federal recognition of Indian tribes,
which ANCs as corporations cannot satisfy (the
Confederated Tribe Plaintiffs agree). See Def.’s
Combined Opp’n & Reply in Supp. of Mot. for Summ.
J., ECF No. 88 [hereinafter Def.’s Opp’n], at 4 n.3;
Confederated Tribes Mot. at 14; Confederated Tribes
Pls.’ Reply in Supp. of its Mot. for Summ. J. & Resp.
in Opp’n to Defs.’ Mots. for Summ. J., ECF No. 87
[hereinafter Confederated Tribes Opp’n], at 7-8. No
matter, say the ANC-Intervenors. If their primary
reading is incorrect, they then embrace the Secretary’s
reading, which exempts ANCs from the eligibility
clause. See 6/12/2020 Hr’g Tr., ECF No. 94, at 88-89.
Either way, according to the ANC-Intervenors, they
qualify as “Indian Tribes” under ISDEAA and
therefore are eligible for Title V funds. Id.

App-49
There is greater alignment among the parties on
the second question: whether an ANC qualifies as a
“Tribal government” for the purposes of the CARES
Act. The Cheyenne River Sioux Plaintiffs urge the
court not to get bogged down in the morass of whether
ANCs qualify as “Indian Tribes” because, in their
view, “ANCs are not Tribal governments under any
measure.” Cheyenne River Sioux Mot. at 2. The
Confederated Tribes Plaintiffs agree, though this is
their secondary position. Confederated Tribes Mot. at
12-13. The Secretary and the ANC-Intervenors see
eye-to-eye on this question, too. They agree that an
ANC’s board of directors qualifies as a “recognized
governing body of an Indian tribe” for purposes of the
CARES Act. Def.’s Mot. at 34; Intervenors’ Mot. at 3839. Their argument, as will be seen below, relies on a
similar definitional phrase contained in ISDEAA,
“tribal organization,” that appears nearly verbatim as
the CARES Act’s definition of “Tribal government,”
compare 25 U.S.C. § 5304(l) (defining “tribal
organization” to mean in part “the recognized
governing body of any Indian tribe”) with 42 U.S.C.
§ 801(g)(5) (defining “Tribal government” to mean “the
recognized governing body of an Indian Tribe”), which
they assert encompasses an ANC’s board of directors
for ISDEAA contracting purposes. Def.’s Mot. at 30-31,
33; Intervenors’ Mot. at 38-39.
As the above summation shows, this case does not
present easy, straightforward questions of statutory
interpretation. The court has wrestled with them.
Each side has marshaled an impressive array of
textual, historical, and practical evidence, all of which
must be viewed against the unique treatment of
Native Alaskans by Congress and Executive Branch

App-50
agencies. Though the court ruled at the preliminary
injunction stage that ANCs likely did not qualify for
CARES Act funds, as explained below, the court now
concludes otherwise: ANCs qualify as “Indian Tribes,”
and their boards of directors are “recognized
governing bod[ies],” for purposes of the CARES Act.
Accordingly, the court holds that ANCs are eligible for
Title V funding.
A. “Indian Tribe” under ISDEAA
The parties agree that, as a matter of pure
grammar, the eligibility clause contained in the
definition of “Indian Tribe” in ISDEAA and the
CARES Act applies to ANCs. See Hr’g Tr. at 54-55;
Intervenors’ Opp’n at 4-5; Confederated Tribes Mot. at
13-14. The eligibility clause plainly modifies each of
the nouns that precedes it, including ANCs. The
parties diverge, however, on whether that
grammatical structure both begins and ends the
statutory interpretation debate.
Each side comes armed with its own preferred
canon of statutory construction. The Confederated
Tribes Plaintiffs contend that the series-qualifier
canon of statutory interpretation settles this case. See
Confederated Tribes Mot. at 13-14. Under that canon,
“‘[w]hen there is a straightforward, parallel
construction that involves all nouns or verbs in a
series,’ a modifier at the end of the list ‘normally
applies to the entire series,’” Lockhart v. United
States, 136 S. Ct. 958, 970 (2016) (Kagan, J.,
dissenting) (quoting ANTONIN SCALIA & BRYAN A.
GARNER, READING LAW: THE INTERPRETATION OF
LEGAL TEXTS 147 (2012) (SCALIA & GARNER)).
Relatedly, under the last antecedent rule, “a limiting

App-51
clause or phrase . . . should ordinarily be read as
modifying only the noun or phrase that it immediately
follows.” Barnhart v. Thomas, 540 U.S. 20, 26 (2003).
Applying either of these canons dictates that “any
Alaska Native village or regional or village
corporation” qualifies as an “Indian tribe” only if it is
“recognized as eligible for the special programs and
services provided by the United States to Indians
because of their status as Indians,” 25 U.S.C.
§ 5304(e); see also Confederated Tribes Mot. at 13 n.8.
Because no ANC is so recognized as eligible for the
special programs and services provided by the United
States, the argument goes, no ANC is an “Indian tribe”
under ISDEAA.
The Secretary, on the other hand, urges the court
to look beyond the statute’s grammatical structure. He
argues that a blind application of the series-qualifier
canon would violate the “‘cardinal principle’ of
statutory interpretation”—that is, “to adopt a reading
that gives effect to every term in the statute.” Def.’s
Opp’n at 7 (quoting Parker Drilling Mgmt. Servs., Ltd.
v. Newton, 139 S. Ct. 1881, 1890 (2019)). Here,
according to the Secretary, Congress expressly
inserted ANCs into the statutory text, despite
knowing that ANCs could not satisfy the eligibility
clause because of their status as for-profit
corporations. Subjecting ANCs to the eligibility clause
therefore would negate their addition, rendering the
inclusion of “Alaska Native [ ] regional or village
corporation” surplusage.
Although a close question, the court is now
convinced that, in 2020 when Congress passed the
CARES Act, it could not have intended the eligibility

App-52
clause to apply ANCs. Several considerations lead the
court to this result. First, while the Confederated
Tribes Plaintiffs emphasize the importance of the
series-qualifier canon, the court’s proper role is not to
apply a single canon of statutory construction—
“canons of construction are no more than rules of
thumb that help courts determine the meaning of
legislation,” Conn. Nat’l Bank v. Germain, 503 U.S.
249, 253 (1992). The court must interpret the statute
as whole to give effect to congressional intent. Parker
Drilling, 139 S. Ct. at 1890. Consequently, the court
cannot simply disregard the inclusion of ANCs in the
definition that Congress chose for purposes of the
CARES Act. Second, the court’s interpretation is
consistent with ISDEAA’s legislative history, which
reveals that Congress took pains to include ANCs in
the ISDEAA definition. Third, to the extent the
competing canons of construction give rise to
ambiguity, Skidmore deference to the BIA’s
interpretation of ISDEAA is warranted, given the
reasonableness of the agency’s approach and its
longstanding adherence to it. The court discusses each
of these reasons below. Because the court reads the
eligibility clause as inapplicable to ANCs, the court
does not address the ANC’s alternative argument that
they satisfy the ordinary meaning of the eligibility
clause.
1.
Applying the series-qualifier canon in this case
does not resolve the statutory interpretation debate.
“[A]s with any canon of statutory interpretation,” the
series-qualifier canon “‘is not an absolute and can
assuredly be overcome by other indicia of meaning.’”

App-53
Lockhart, 136 S. Ct. at 963, 965 (quoting Barnhart,
540 U.S. at 26). Indeed, as the Tenth Circuit has
observed, the series-qualifier canon, “perhaps more
than most canons, is subject to defeasance by other
canons—that is, it is perhaps more prone than most to
have its effect nullified by other canons.” Jordan v.
Maxim Healthcare Servs., Inc., 950 F.3d 724, 745
(10th Cir. 2020) (cleaned up); see also SCALIA &
GARNER at 150 (“Perhaps more than most of the other
canons, [the series-qualifier canon] is highly sensitive
to context.”).
Such is the case here, where the series-qualifier
canon runs headlong into another canon of
interpretation: the rule against superfluity. It is “the
‘cardinal principle’ of interpretation that courts ‘must
give effect, if possible, to every clause and word of a
statute.’” Parker Drilling, 139 S. Ct. at 1890 (quoting
Loughrin v. United States, 573 U.S. 351, 358 (2014)).
As a result, courts are “reluctant to treat statutory
terms as surplusage in any setting.” Duncan v.
Walker, 533 U.S. 167, 174 (2001) (cleaned up). Such
reluctance is particularly apt here, where adopting
Plaintiffs’ construction would render Congress’s
purposeful inclusion of ANCs in the ISDEAA
definition “wholly superfluous.” Id. at 174. ANCs
would become “wholly superfluous” under the
Confederated Tribes’ preferred reading, because all
agree (except the ANCs themselves) that ANCs never
have, and almost certainly never will, satisfy the
eligibility clause. ANCs cannot be recognized “as
eligible for the special programs and services provided
by the United States to Indians because of their status
as Indians.” 25 U.S.C. § 5304(e) (emphasis added).
ANCs, after all, are for-profit corporations established

App-54
by Congress and recognized under Alaska law, and
thus do not enjoy “status as Indians.” Indeed, under
the Alaska Native Claims Settlement Act, the statute
that established ANCs by extinguishing all aboriginal
claims to Alaska land, the transfer of land to the new,
state-chartered private business corporations “was
without any restraints on alienation or significant use
restrictions” precisely because Congress intended to
avoid “‘any permanent racially defined institutions,
rights, privileges, or obligations.’” Alaska v. Native
Vill. of Venetie Tribal Gov’t, 522 U.S. 520, 532-33
(1998) (quoting 43 U.S.C. § 1601(b)). Thus, while the
first ANC shareholders were required to be Alaska
Natives, the corporations could immediately convey
former reservation lands and ANC stock to nonNatives. Id. at 533; 43 U.S.C. § 1606(h). It cannot be
said, then, that ANCs enjoy “status as Indians.”
Moreover, both the Secretary and the
Confederated Tribes read the eligibility clause as
conveying the principle of federal recognition, which
confers upon tribes a distinct political and legal status
in relation to the United States. See 6/12/2020 Hr’g Tr.
at 60; Confederated Tribes Mot. at 14-15. The
Confederated Tribes contend that ISDEAA’s eligibility
clause must be read in pari materia with the nearly
identical language in the Federally Recognized Indian
Tribe List Act of 1994, Pub. L. No. 103-454, 108 Stat.
4791, or List Act, which directs the Secretary of
Interior to publish a “list of all Indian tribes that the
Secretary recognizes to be eligible for the special
programs and services provided by the United States
to Indians because of their status as Indians” (quoting
25 U.S.C. § 5131(a))). No ANC has ever been federally
recognized by the United States as an Indian tribe

App-55
under the List Act because no ANC is “recognize[d] to
be eligible for the special programs and services
provided by the United States to Indians because of
[its] status as Indians.” The court agrees that the
nearly identically worded eligibility clauses in both
statutes are terms of art that convey the principle of
federal recognition, and thus reading the eligibility
clause to apply to ANCs would render as surplusage
their listing in the ISDEAA definition of “Indian
tribe.”
The Confederated Tribes Plaintiffs attempt to
sidestep this superfluity problem by asserting there is
no such problem to begin with. They contend that the
disjunctive nature of the clause in which ANCs
appear—which they refer to as the “Alaska clause”—
“means that the clause has effect as long as ‘any
Alaska Native village or regional or village
corporation’ satisfies the terms of the eligibility clause,
and according to the Secretary of the Interior’s own
listing there are 229 Native villages[7] that do.”
Confederated Tribes Opp’n at 8. The court expressed
a similar logic in its preliminary injunction opinion,
writing that “[t]he possibility that ANCs might not
qualify under the eligibility clause is hardly fatal to
carrying
out
Congress’s
purpose
under
ISDEAA . . . [because] [Alaska Native villages] are
also in the statute [and] [t]hey can and do satisfy the
Alaska Native villages are not corporations. They are
sovereign, political entities exercising governmental authority,
much like “‘Indian tribes,’ as that term is commonly used to refer
to Indian entities in the contiguous 48 states.” See Indian Entities
Recognized and Eligible to Receive Services from the United
States Bureau of Indian Affairs, 58 Fed. Reg. 54,364, 54,365 1993
WL 420646 (October 21, 1993).
7

App-56
eligibility clause.” Confederated Tribes, 2020 WL
1984297 at *11. The court is no longer convinced of
this rationale. ISDEAA says that “‘Indian tribe’ means
any . . . organized group or community, including any
Alaska Native [1] village or [2] regional [corporation]
or [3] village corporation as defined in or established
pursuant to [ANCSA].” 25 U.S.C. § 5304(e) (emphasis
added). Congress thus intended for any of the nouns
in the Alaska clause to satisfy the definition, and
subjecting any of those nouns to a requirement that it
cannot meet—as Plaintiffs seek to do—would still turn
that noun into surplusage. The series-qualifier canon
therefore must give way in this case to the rule against
superfluity. 8
Plaintiffs’ cited authorities are not to the
contrary. Plaintiffs rely on Chickasaw Nation v.
United States, 534 U.S. 84 (2001), and King v. Burwell,
135 S. Ct. 2480 (2015), for the proposition that “the
canon against surplusage should [not] be elevated to
Holy Grail status and operate to subvert the plain
meaning of the statutory text.” Confederated Tribes
Opp’n at 10. But these cases are readily
distinguishable. Chickasaw Nation concerned a
provision of the Indian Gaming Regulatory Act that,
like ISDEAA, featured an “including” clause (akin to
the Alaska clause) followed by a limiting clause (akin
to the eligibility clause). 534 U.S. at 86-87. The Court
8 The Confederated Tribes Plaintiffs also suggest that applying
the eligibility clause to ANCs does not render them superfluous
under ISDEAA, because in 1975, when Congress passed the
statute, it was an open question whether ANCs could satisfy the
eligibility clause. Confederated Tribes Mot. at 31. The court
addresses this argument in the following section.

App-57
there rejected the plaintiffs’ reliance on the canon
against surplusage and instead found that the
limiting clause applied to the words before it—to find
otherwise would “seriously rewrit[e] the language of
the rest of the statute.” Id. at 89. But critical to that
conclusion was the Court’s reasoning that the
troublesome language in the statute—a crossreference to another chapter of the Internal Revenue
Code—was “simply a drafting mistake, a failure to
delete an inappropriate cross-reference in the bill that
Congress later enacted into law.” Id. at 91.
The Court struck a similar chord in King v.
Burwell. That case involved the Affordable Care Act,
which the Court observed “contains more than a few
examples of inartful drafting” and, by virtue of how
the legislation was enacted, “does not reflect the type
of care and deliberation that one might expect of such
significant legislation.” 135 S. Ct. at 2492. In light of
these shortcomings, the Court found “specifically with
respect to this Act, rigorous application of the
[surplusage] canon does not seem a particularly useful
guide to a fair construction of the statute.” Id.
The reasons for discounting the surplusage canon
that were present in Chicksaw Nation and King v.
Burwell simply are not present here. There is nothing
to suggest that Congress’s inclusion of ANCs in the
ISDEAA definition of “Indian tribe” was a drafting
error; nor is there any reason to question the
Legislative Branch’s diligence in drafting the
definition. To the contrary, as discussed4 further
below, the definition’s legislative history reflects a
conscious decision on the part of Congress to make
ANCs eligible to contract with the United States to

App-58
deliver public services to Alaska Native populations.
Thus, while the “preference for avoiding surplusage
constructions is not absolute,” Lamie v. United States
Trustee, 540 U.S. 526, 536 (2004), there is no good
reason to abandon it here.
Admittedly, reading the ISDEAA definition as the
Secretary posits gives rise to an odd grammatical
result. No one disputes that an “Alaska Native
village”—the first entity listed in the Alaska clause—
must satisfy the eligibility clause to qualify as an
“Indian tribe” under ISDEAA. See Confederated
Tribes, 2020 WL 1984297 at *11. An Alaska Native
village that is not “recognized as eligible for the special
programs and services provided by the United States
to Indians because of their status as Indians” cannot
contract with a federal agency under ISDEAA. That
reading, however, creates the strange result that the
eligibility clause modifies the first in the series of
three nouns that comprises the Alaska clause, but not
the last two. That is an unnatural reading, to be sure.
The court’s primary goal, however, is to discern the
“intent embodied in the statute Congress wrote.”
Chicksaw Nation, 534 U.S. at 94. Treating ANCs as
not subject to the eligibility clause achieves that
purpose. Congress expressly included ANCs in the
definition of “Indian tribe” under ISDEAA to make
them eligible to enter into self-determination
contracts with federal agencies. By incorporating
wholesale ISDEAA’s definition of “Indian Tribes” into
the CARES Act, Congress declared ANCs to be eligible
for Title V emergency relief funds.

App-59
2.
ISDEAA’s drafting history lends support to this
conclusion. Neither the Senate’s nor the House of
Representative’s initial versions of the ISDEAA
definition of “Indian tribe” included ANCs, though
each included the eligibility clause. See H.R. 6372,
§ 450b(b), 93rd Cong., 1st Sess. (1973); S. 1017, 93d
Cong., 2d Sess. (1974), 120 Cong. Rec. 2813-19; see also
Cook Inlet Native Ass’n v. Bowen, 810 F.2d 1471, 147475 (9th Cir. 1987) (discussing ISDEAA’s legislative
history). The House Committee on Interior and
Insular Affairs, to whom the Senate bill was referred,
“amended the definition of ‘Indian tribe’ to include
regional and village corporations established by the
Alaska Native Claims Settlement Act.” H.R. Rep. 931600; 120 Cong. Rec. 40252 (Dec. 16, 1974). The
amended definition that became law, and remains the
same today, thus reads, “including any Alaska Native
village or regional or village corporation as defined in
or established pursuant to the Alaska Native Claims
Settlement Act.” See Pub. L. 93-638 § 4(b), 88 Stat.
2203, 2204 (1975) (codified at 25 U.S.C. § 5304(e)).
Importantly, not only did the amended definition
expressly include ANCs, the latter portion of the
clause—“established pursuant to [ANCSA]”—applies
only to ANCs. As the Secretary points out, while
“native villages” are defined in ANCSA, only Alaska
regional and village corporations are “established” by
it. See Def.’s Opp’n at 5 & n.5 (citing H.R. Rep. 931600; 120 Cong. Rec. 40252 (Dec. 16, 1974)). That
Congress went out of its way to add ANCs to the
statutory definition of “Indian tribe” is compelling
evidence that Congress intended ANCs to meet that
definition. It would be an odd result indeed for

App-60
Congress to include ANCs in one breath only to negate
their inclusion in the very next breath through the
eligibility clause.
The Confederated Tribes Plaintiffs endeavor to
explain this ostensible statutory contradiction by
positing that Congress “left the door open” for ANCs
to satisfy the eligibility clause in ISDEAA, and only
“over time” has the Secretary of the Interior declared
that ANCs are not eligible for the special programs
and services provided by the United States to Indians
because of their status as Indians. Confederated
Tribes Mot. at 31. In support, Plaintiffs point to two
comments submitted in 1977—two years after
Congress passed ISDEAA—to proposed BIA
regulations regarding the development of uniform
procedures for the recognition of Indian tribes.
Confederated Tribes Opp’n at 20-21. These comments,
submitted by two Alaska Native corporations, suggest
some uncertainty as to whether ANCs could satisfy
the eligibility clause. See id. But these isolated
comments, from private enterprises, have little to no
probative value in determining whether Congress in
fact “left the door open” for ANCs to satisfy the
eligibility clause when it passed ISDEAA. There is
simply no legislative history before the court to
support the notion that Congress in 1975 believed
ANCs could ever meet the eligibility clause.
Moreover, whether ANC eligibility remained an
unsettled question in 1975 is ultimately a distraction.
The issue before the court is whether Congress meant
for ANCs to be eligible for CARES Act relief in 2020.
The Confederated Tribes Plaintiffs concede that by
1978, when the BIA proposed revised regulations

App-61
regarding the recognition of Indian tribes that
expressly excluded ANCs, “the door was closed on [the]
possibility” that ANCs could meet the eligibility
clause. Confederated Tribes Opp’n at 21-22; 6/12/2020
Hr’g Tr. at 21. And certainly by 2020, Congress
understood that no ANC could satisfy the eligibility
clause, as none had done so since ISDEAA’s inception.
6/12/20202 Hr’g Tr. at 59-60. Thus, by incorporating
the ISDEAA definition into the CARES Act, Congress
must have known that it had selected a definition of
“Indian Tribe” that expressly encompasses ANCs,
notwithstanding their falling outside the definition’s
eligibility clause. 9 Congress therefore intended to
make Title V funds available to ANCs.
The parties tussle over what inference can be drawn, if any,
from Congress’s selection of the ISDEAA definition of “Indian
tribe,” as opposed to some other statutory definition of “Indian
tribe” appearing in the U.S. Code. See Intervenors’ Mot. at 28;
Confederated Tribes’ Opp’n 12. The answer is none. As the
parties point out, the U.S. Code contains multiple different
definitions of “Indian tribe.” Some of those definitions expressly
include ANCs. See, e.g., 20 U.S.C. § 1401(13) (defining “Indian
tribe” as “any Federal or State Indian tribe, band, rancheria,
pueblo, colony, or community, including any Alaska Native
village or regional village corporation (as defined in or
established under the Alaska Native Claims Settlement
Act . . . .)”). Some do not. See, e.g., 25 U.S.C. § 5130(2) (“The term
‘Indian Tribe’ means any Indian or Alaska Native tribe, band,
nation, pueblo, village or community that the Secretary of the
Interior acknowledges to exist as an Indian Tribe.”). Some
expressly exclude ANCs. See, e.g., 25 U.S.C. § 3501(4)(B) (“For the
purpose of paragraph (12) and sections 3503(b)(1)(C) and 3504 of
this title, the term ‘Indian Tribe’ does not include any Native
Corporation.”). Some expressly include them. Of those definitions
that expressly include ANCs, some incorporate a similarly
worded eligibility clause. See, e.g., 25 U.S.C. § 4103(13)(B)
9

App-62
3.
The court also concludes that, to the extent there
is ambiguity in the definition of “Indian tribe,” the
Secretary’s position is entitled to Skidmore deference.
Under Skidmore v. Swift & Co., the weight a court
affords to an agency interpretation “will depend upon
the thoroughness evident in its consideration, the
validity of its reasoning, its consistency with earlier
(defining “federally recognized tribe” as “any Indian tribe, band,
nation, or other organized group or community of Indians,
including any Alaska Native village or regional or village
corporation as defined in or established pursuant to the Alaska
Native Claims Settlement Act, that is recognized as eligible for
the special programs and services provided by the United States
to Indians because of their status as Indians pursuant to the
Indian Self-Determination and Education Assistance Act”).
Others do not. See, e.g., 16 U.S.C. § 470bb(5) (defining “Indian
tribe” as “any Indian tribe, band, nation, or other organized group
or community, including any Alaska Native village or regional or
village corporation as defined in, or established pursuant to, the
Alaska Native Claims Settlement Act (85 Stat. 688) [43 U.S.C.
§§ 1601-1629h]”).
All this proves is that Congress, when it passed the CARES
Act, had other statutory definitions available to it that could have
provided greater clarity about the eligibility of ANCs.
Unfortunately, this availability sheds no useful light on the
dispute at hand. The Alaska Federation of Natives amicus
suggest a neat dichotomy among the various statutory
definitions: Congress includes ANCs within the definition of
“Indian tribe” when the statute concerns economic legislation,
but not when it concerns tribal self-governance, and the CARES
Act falls into the former category. Amicus Br. of the Alaska
Federation of Natives, ECF No. 81, at 13-14. The court need not
pass on the merits of these proposed groupings, as the ordinary
tools of statutory construction suffice to reach an answer.

App-63
and later pronouncements, and all those factors which
give it power to persuade, if lacking power to control.”
323 U.S. 134, 140 (1944). Ultimately, a court upholds
an agency determination under Skidmore to the
extent is has “power to persuade.” Christensen v.
Harris Cty., 529 U.S. 576, 587 (2000) (internal
quotation marks and citation omitted); see also Davis
v. United States, 495 U.S. 472, 484 (1990) (“[W]e give
an agency’s interpretations . . . considerable weight
where they involve the contemporaneous construction
of a statute and where they have been in long use.”).
The position that the Secretary advances in this
case is neither new nor cut from whole cloth. The
Department of Interior, which administers the federal
government’s affairs with Indian tribes, has long
taken the position that ANCs qualify as “Indian
Tribes” for purposes of ISDEAA and therefore are
permitted to contract with federal agencies. In 1976,
the year after ISDEAA was enacted, the Assistant
Solicitor for Indian Affairs, Charles M. Soller, issued
a memorandum to the Commissioner of Indian Affairs
that evaluated whether ANCs meet the ISDEAA
definition of “Indian tribe.” J.A., ECF No. 90-1, at 61013 [hereinafter Soller Mem.] at 611. The
Commissioner had asked Soller to address “whether
[Alaska Native] village and regional corporations are
within the scope of” ISDEAA. Id. at 610. The question
arose due to the “qualifying language” in the statute’s
definition of “Indian tribe,” i.e., the eligibility clause.
Id. at 611. Soller concluded that, “[s]ince both regional
and village corporations find express mention in the
definition, customary rules of statutory construction
would indicate that they should be regarded as Indian
tribes for purposes of application of this Act.” Id. at

App-64
610. Soller acknowledged that the eligibility clause
added “qualifying language,” and he observed that
“profit-making regional and village corporations have
not heretofore been recognized as eligible for [Bureau
of Indian Affairs] programs and services which are not
provided for by the terms of the Settlement Act.” Id. at
611. But, Soller concluded,
if the quoted language operates to disqualify
[ANCs] from the benefits of [ISDEAA], then
their very mention in section 4(b) is
superfluous. Therefore, we think the better
view is that Congress intended the qualifying
language not to apply to regional and village
corporations but to pertain only to that part
of the paragraph which comes before the word
“including.” Accordingly, regional and village
corporations are within the scope of the Act.
Id. 10
Thus, the argument against surplusage that the
Secretary advances in this litigation has a long
historical antecedent. It has been the position of the
agency in charge of Indian affairs for nearly 45 years.
Although the analysis is brief, Soller recognized the
interpretive challenge presented by Congress’s
drafting of the ISDEAA definition, identified the
competing canons of statutory construction, and
Soller appears to have misspoken in one respect. To apply the
eligibility clause only to those words that appear “before the word
‘including’” would mean that the eligibility clause does not apply
to “Alaska Native village[s].” But no one then, or now, takes the
position that an Alaska Native village can contract under
ISDEAA unless it satisfies the eligibility clause. See
Confederated Tribes, 2020 WL 1984297 at *11.
10

App-65
evaluated those canons in light of contemporaneous
understandings of the statutory terms used and
Congress’s intent. The Soller Memorandum therefore
has the “power to persuade.” Christensen, 529 U.S. at
587 (citation omitted).
The Confederated Tribes Plaintiffs seek to
undermine the force of the Soller Memorandum by
faulting its failure to consider the disjunctive nature
of the Alaska clause. See Confederated Tribes Opp’n
at 18. But, as explained, the use of the disjunctive does
nothing to save the clause from superfluity. Soller’s
ultimate reading of the statute is reasonable. This was
the conclusion of the only appellate court to have
considered whether ANCs qualify as “Indian Tribes”
for purposes of ISDEAA. See Bowen, 810 F.2d at 1471.
Although a single appellate decision cannot amount to
a judicial consensus that the court can presume
Congress knew of and endorsed when it incorporated
the ISDEAA definition into the CARES Act, see
Confederated Tribes, 2020 WL 1984297, at *12, Bowen
lends additional persuasive force to the agency’s
longstanding view that ANCs are “Indian tribes”
under ISDEAA. Thus, to the extent that the ISDEAA
definition of “Indian tribe” contains any ambiguity,
Skidmore counsels affording deference to the agency’s
interpretation.
The Confederated Tribes Plaintiffs go to great
lengths to cast the Department of Interior’s position
on ANCs under ISDEAA as inconsistent and lacking
clarity. See Confederated Tribes Opp’n at 19-25. The
court need not take on this complex history. For
present purposes, it suffices to say that the
Confederated Tribes have identified no point in time

App-66
in last four decades in which the Department of
Interior has not treated ANCs as “Indian Tribes” for
purposes of ISDEAA. 11
The most interesting evidence of different agency treatment
of ANCs is that, for a short period of time, from 1988 to 1994, the
Department of Interior actually identified ANCs alongside
federally recognized tribes on its list of “Indian Entities
Recognized and Eligible to Receive Services from [BIA].”
Confederated Tribes Mot. at 39 (citing 53 Fed. Reg. 52,829-02,
52,832-33 (Dec. 29, 1988)). The BIA removed ANCs from the 1994
version of the list but in so doing reaffirmed ANCs’ status as
“Indian tribes” for purposes of ISDEAA. The BIA observed that
“a number of non-tribal Native entities in Alaska that currently
contract with or receive services from the Bureau of Indian
Affairs pursuant to specific statutory authority, including
ANCSA village and regional corporations and various tribal
organizations,” were no longer on the list, but that their noninclusion on the list “does not affect the continued eligibility of
the entities for contracts and services.” Indian Entities
Recognized and Eligible to Receive Services from the United
States Bureau of Indian Affairs, 58 FR 54,364, 54,366, 1993 WL
420646 (October 21, 1993) (emphasis added). ANC’s on-and-offagain status on the BIA’s list, then, only indicates that the BIA
struggled with how to properly characterize Alaska entities, but
has always acknowledged their continued eligibility for certain
contracts, including under ISDEAA.
11

This understanding comports with the 1977 Report submitted
to Congress by the American Indian Policy Review Commission.
The 1977 Report made clear that while Alaska Native village and
regional corporations are not “repositories of tribal sovereignty,”
they should not “be excluded from the benefits of existing and
future legislation and programs designed to promote the
development of Native peoples.” Def.’s Mot., Ex. 1, ECF No. 79-2,
at 495. While the Confederated Tribes Plaintiffs discount the
1977 Report as simply one report submitted to Congress, with “no
indication that Congress ever agreed with these cursory and
erroneous conclusions or has taken any action in reliance on
them,” Confederated Tribes Opp’n at 20, the court notes that the

App-67
As noted at the outset of this discussion, the
Cheyenne River Sioux Plaintiffs do not dispute that
ANCs qualify as “Indian tribes” under ISDEAA. But
they do seek to diminish their role and status,
explaining that ANCs have “limited tribal status”
under certain narrow circumstances. See Cheyenne
River Sioux Mot. at 14-17. Relying on agency
contracting priority policies, they contend that “ANCs
may qualify under ISDEAA’s definition of ‘Indian
tribe’ only as a stop-gap to ensure critical services are
provided to Alaska Natives in regions where there are
no actual federally recognized Tribal governments, or
where Tribal governments choose to compact with
ANCs to provide services under ISDEAA.” Id. at 14.
The court has no reason to doubt the accuracy of that
Report’s author, the American Indian Policy Review Commission,
was established through Congressional resolution and was
composed of three senators, three members of the House of
Representatives, and five Indian leaders. American Indian Policy
Review Commission, Final Report (May 17, 1977) (Appendix A
(“How the Commission Did Its Work”) at 3, available at
https://catalog.hathitrust.org/Record/011340209. Further, the
investigations that contributed to the Report were conducted by
eleven task forces “each composed of three members selected
from among the leading authorities in their respective fields of
expertise in Indian affairs.” Id. The Commission’s Report, “a
product of Indian participation, represent[s] ‘a compendium of
information on a scale heretofore unavailable to the Federal
Government’” and “represent[s] the most comprehensive review
of Indian policies and programs ever conducted.” Id. at 4. See also
Cheyenne River Sioux Mot. at 16 n.14 (explaining that the
Department of the Interior “still relies [on] this [1977] Report”).
Thus, the court has no reason to doubt the accuracy of the 1977
Report generally and considers the Report as providing some
evidence that, close to the time of IDEAA’s enactment, Congress
understood ISDEAA to treat ANCs as “eligible” Indian tribes.

App-68
characterization. But ANCs’ status as a contracting
partner of “last resort” only underscores that ANCs
are nevertheless eligible for ISDEAA contracts. For
definitional purposes, ANCs are not considered
“Indian tribes” only as a last resort under ISDEAA;
they are always “Indian tribes.” The same thus holds
true under the CARES Act.
4.

Before moving on, the court must address some of
the reasons it set forth in its preliminary injunction
opinion when ruling that Plaintiffs were likely to
succeed on the merits. Of course, the “findings of fact
and conclusions of law made by a court granting a
preliminary injunction are not binding at trial on the
merits,” see Univ. of Texas v. Camenisch, 451 U.S. 390,
395 (1981), and the additional briefing in this case has
convinced the court to change its mind.
First, the court described the Secretary’s reading
of ISDEAA as “counter-textual.” Confederated Tribes,
2020 WL 1984297, at *11. The court no longer ascribes
to that view for the reasons already discussed. Second,
the court deemed inconsistent and unexplained the
government’s position taken in other cases, but not
here, that “the definition of ‘Indian tribe’ in various
federal statutes must be read in conjunction with the
List Act. In other words, unless the entity or group
appears on the Interior Secretary’s List, it does not
qualify as an ‘Indian tribe.’” Id. at *12-13 (citing
Wyandot Nation of Kan. v. United States, 858 F.3d
1392, 1396, 1397-98 (Fed. Cir. 2017); Slockish v. U.S.
Fed. Highway Admin., 682 F. Supp. 2d 1178, 1202 (D.
Or. 2010)). As the Secretary now points out, Wyandot
and Slockish were cases that did not involve ANCs but

App-69
entities claiming tribal status even though not
federally recognized. Def.’s Mot. at 19-20. It was
therefore appropriate in those cases for the
government to insist on identification on the Interior
Department’s List, whereas the same insistence is not
necessary here, because ANCs are already treated as
“Indian tribes” for purposes of ISDEAA. Finally, the
court reasoned that “Congress’s adoption of the
ISDEAA definition cannot be divorced from actual
agency practice under ISDEAA, which seemingly is to
contract with ANCs only, if at all, with tribal consent
or as a last resort.” Id. at *13. The flaw in that logic is
now apparent. Even if actual agency practice is to
rarely contract with ANCs to deliver services under
ISDEAA, the fact remains that ANCs are “Indian
tribes” for purposes of ISDEAA contracting eligibility.
By importing ISDEAA’s definition into the CARES
Act, Congress carried forward that same treatment. 12
***
Accordingly, the court holds that Alaska Native
village and regional corporations meet ISDEAA’s
definition of “Indian tribe,” and therefore ANCs
qualify as “Indian tribes” for the purposes of CARES
Act funding.
The decision whether to award ANCs Title V funds in
proportion to their status as a service provider of “last resort” is
an allocation determination that rests squarely within the broad
discretion that Congress vested in the Secretary. See generally
Prairie Band Potawatomi Nation v. Mnuchin, No. 20-cv-1491
(APM), 2020 WL 3402298, at *1-2 (D.D.C. June 11, 2020) (holding
that the Secretary’s selected allocation method under Title V of
the CARES Act is an unreviewable discretionary agency action
under the APA).
12

App-70
B. “Recognized Governing Bodies” under
ISDEAA
Having concluded that ANCs qualify as “Indian
tribes” under ISDEAA, the court now turns to the
second question: Are ANCs “recognized governing
bod[ies],” or do they have such bodies? Remember,
Title V provides that the Secretary shall make
payments only to “the recognized governing bod[ies]”
of Indian Tribes. See 42 U.S.C. § 801(g)(5). The parties
dispute whether “recognized” is a legal term of art
meaning “federally recognized”—in which case, only
federally recognized tribes, and not ANCs, meet the
definition—or whether it carries an ordinary meaning.
Confederated Tribes Mot. at 19; Cheyenne River Sioux
Opp’n at 7-8; Def.’s Opp’n at 31-32; Intervenors’ Opp’n.
at 16-17. They also dispute whether “governing body”
refers to “government status or attributes of
sovereignty,” see Cheyenne River Sioux Mot. at 4, or
whether it “simply references the entity or individuals
authorized to govern the organization in its charter or
other organizing documents,” Intervenors’ Opp’n at
15.
In evaluating the parties’ arguments, ISDEAA
once more serves as the starting point. ISDEAA
authorizes the federal government to contract not with
an Indian tribe, but with a tribal organization, to
deliver public services. 25 U.S.C. § 5321. ISDEAA
defines “tribal organization” in two ways: (1) “the
recognized governing body of any Indian tribe”; and
(2) any legally established organization of
Indians which is controlled, sanctioned, or
chartered by such governing body or which is
democratically elected by the adult members

App-71
of the Indian community to be served by such
organization and which includes the
maximum participation of Indians in all
phases of its activities: Provided, That in any
case where a contract is let or grant made to
an organization to perform services
benefiting more than one Indian tribe, the
approval of each such Indian tribe shall be a
prerequisite to the letting or making of such
contract or grant.
25 U.S.C. § 5304(l). The first definition of “tribal
organization” should ring familiar as Congress used
almost the same exact words to define “Tribal
government” for purposes of the CARES Act. Compare
id. with 42 U.S.C. § 801(g)(5) (“The term ‘Tribal
government’ means the recognized governing body of
an Indian Tribe.”). The ISDEAA definition of “tribal
organization”
is
therefore
instructive
in
understanding the term “Tribal government” under
the CARES Act. See Branch v. Smith, 538 U.S. 254,
281 (2003) (explaining that “courts do not interpret
statutes in isolation, but in the context of the corpus
juris of which they are a part”).
All parties, even the Confederated Tribe
Plaintiffs, concede that ANCs may enter into ISDEAA
contracts. See Confederated Tribes Mot. at 36
(describing ANC contracting under ISDEAA as
occurring in “exceptional” or “narrow” circumstances).
Thus, to enjoy such status, ANCs, or some constituent
part of them, necessarily must meet at least one of
ISDEAA’s two definitions of “Tribal organization,”
because only a “tribal organization” may enter into an
ISDEAA contract, see 25 U.S.C. § 5321(a)(1). The

App-72
Plaintiffs part ways on which of the two definitions
apply. The Cheyenne River Sioux Plaintiffs say that
ANCs satisfy the first definition of “tribal
organization”—“the recognized governing body of any
Indian tribe”; yet they resist the logical next step that
ANCs also are, or have, a “recognized governing body”
for purposes of the CARES Act, even though the two
statutes use the exact same terms. The Confederated
Tribes Plaintiffs attempt to dodge this trap. They
argue that ANCs fall into the second, longer definition
of “tribal organization,” which Congress did not
incorporate into the CARES Act. See id. at 35. In their
view, ANCs qualify as “tribal organization[s]” only
because they are a “legally established organizations
of Indians . . . sanctioned by” the governing body of an
Indian tribe, in this case, “a Native village.” 6/12/2020
Hr’g Tr. at 14. This reading, in their view, harmonizes
how ANCs are not, or do not have, a “recognized
governing body,” but still can enter into ISDEAA
contracts as a “tribal organization.” Id. The court
takes Plaintiffs’ arguments in reverse order.
The Confederated Tribes’ reading cannot be squared
with ISDEAA’s text. ANCs are not “controlled,
sanctioned, or chartered” by the governing body of an
Indian Tribe. 13 ANCs are corporate entities
established by Congress and chartered under Alaska
state law. See generally 43 U.S.C. § 1601 et seq.
Though the ISDEAA definition of “tribal organization”
uses the word “sanctioned,” it does not use that term
13 Nor do they satisfy the second half of the second “tribal
organization” definition: ANCs are not “democratically elected by
the adult members of the Indian community to be served by such
organization.” 25 U.S.C. § 5304(l).

App-73
in the sense of tribal approval of ISDEAA contracts.
The term “sanction” in the definition of “tribal
organization” is entirely disconnected from contract
approval. It is true, as the Confederated Tribes
Plaintiffs point out, that ANCs ordinarily obtain the
approval of governing bodies of Native Villages as a
condition of ISDEAA contracts. But that requirement
stems not from the word “sanctioned,” but rather from
the “Provided” clause found later in the definition: “in
any case where a contract is let or grant made to an
organization to perform services benefiting more than
one Indian tribe, the approval of each such Indian tribe
shall be a prerequisite to the letting or making of such
contract or grant.” 25 U.S.C. § 5304(l) (emphasis
added). Thus, if an ANC seeks to enter into a contract
that benefits a Native Village, it must logically obtain
the approval of that Native Village’s governing body
as a condition of doing so. 14
This interpretation of ISDEAA is consistent with
the longstanding view of the Department of Interior.
As the Soller Memorandum explains, ANCs as “Indian
tribes” under ISDEAA can seek self-determination
Plaintiffs make the point that, absent specific approval from
a Tribal government, an ANC can receive an ISDEAA contract
“[o]nly if a Tribal government does not exist for a specific area.”
Cheyenne River Sioux Mot. at 17; 6/12/2020 Hr’g Tr. at 40; see
also Confederated Tribes Mot. at 36. This fact only underscores
that ANCs must fit under the first category of “tribal
organization,” because in these circumstances—limited though
they may be—there is no Tribe to “sanction” the ISDEAA
contract. That such ISDEAA contracts arise only as a “last resort”
or in “exceptional circumstances” is of no moment. Nothing in the
text of the statute limits ANCs’ functioning as, or having,
“recognized governing bodies” only to these “last resort”
circumstances.
14

App-74
contracts on their own behalf, and their boards of
directors qualify as the “governing body” for such
purposes. See Soller Mem. at 611 (stating that
“regional and village corporations may request to
contract for the provision of BIA services under section
102 of the Act”). The Memorandum further recognizes
that, as a practical matter, ANCs almost always must
obtain tribal consent because such self-determination
contracts are likely in some way to be for the benefit
of one or more Native Villages, rather than the
corporation itself. Id. at 612 (“[T]he language of the
Act is unambiguous. If a contract or grant benefits
more than one village or village corporation, the
approval of each must be obtained.”); id. (“Indeed, it is
not clear to us what it means for a contract to ‘benefit’
a village corporation, as opposed to the Native
village. . . . However, it does seem clear that if a
contract is let to a regional tribal organization for the
purpose of providing services in a given village, some
governing body in that village must approve that
contract.”). 15 Thus, under a straightforward reading of
The sole case that the Confederated Tribes Plaintiffs cite,
Ukpeagvik Inupiat Corp. (“UIC”) v. U.S. Dep’t of Health and
Human Svcs, No. 3:13-cv-00073-TMB, 2013 WL 12119576 (D.
Alaska May 20, 2013), at *2-3), does not help them. There, an
ANC obtained a contract to provide services at a hospital. Of the
approvals it obtained, two were from other ANCs and one was
from the contracting ANC itself. 2013 WL 12119576 at *1 & n.5
(listing, in addition to UIC (the contracting ANC), Atqasuk
Village Corporation and Kuukpik Village Corporation). This case
thus supports the understanding that ANCs are “Indian Tribes.”
Otherwise, the ANCs’ “approvals” would not have been required
under the proviso in ISDEAA’s definition of “tribal organization.”
See 25 U.S.C. § 5304(l) (“[I]n any case where a contract is let or
grant made to an organization to perform services benefitting
15

App-75
“tribal organization,” ANCs must be eligible for
contracting under the first definition of “tribal
organization”—“the recognized governing body of any
Indian tribe.” 25 U.S.C. § 5304(l). 16 And by the terms
of that definition, they must have a “recognized
governing body” for purposes of ISDEAA. If ANCs
have a “recognized governing body” for purposes of
ISDEAA, it stands to reason that Congress brought
that same meaning forward in the CARES Act, as the
first definition of “tribal organization” in ISDEAA and
the definition of “Tribal government” in the CARES
Act are essentially identical. See Branch, 538 U.S. at
281.
Plaintiffs resist this logic. They contend that
Congress’s use of the word “recognized” was intended
as a term of art, meant to convey the unique political
and legal status afforded to federally recognized
tribes. See Confederated Tribes Mot. at 21-23;
Cheyenne River Sioux Opp’n at 6-8. The Confederated
Tribes Plaintiffs, for example, point to a federal
regulation that defines “[r]ecognized governing body”
as “the tribe’s governing body recognized by the
Bureau [of Indian Affairs] for the purposes of
more than one Indian tribe, the approval of each such Indian tribe
shall be a prerequisite.”) (emphasis added).
ANCs plainly fall under the first definition for another
reason. If, as the Confederated Tribes Plaintiffs contend, they fall
under the second definition of “Tribal organization,” there would
have been no need to expressly include them in the definition of
“Indian Tribe,” see 25 U.S.C. § 5304(e), because ANCs could
simply contract under the second definition, see id. § 5304(l).
Accepting the Confederated Tribes Plaintiffs’ position would thus
render ANCs’ inclusion in the “Indian Tribe” definition
surplusage twice over.
16

App-76
government-to-government relations.” Confederated
Tribes Mot. at 21 (quoting 25 C.F.R. § 81.4). But that
regulation by its own terms “applies only to federally
recognized tribes,” id. § 81.2, because the regulation
concerns election procedures to “adopt, amend, or
revoke tribal governing documents” and charters, id.
§ 81.1. It is unsurprising, then, that ANCs would not
be included in such a regulation. Likewise, the
Cheyenne River Sioux Plaintiffs point to a slew of
cases holding that ANCs are not “governing bodies” or
“tribal governments.” See Cheyenne River Sioux Mot.
at 11-12 (collecting cases); Cheyenne River Sioux
Opp’n at 6-8; see also Confederated Tribes Mot. at 2223 (same). Not only are these cases from non-ISDEAA
contexts, they concern a proposition that is simply not
at issue here; no one disputes that ANCs are not
Tribal governments in the traditional sense. This case
concerns the entirely separate question whether
ANCs have “recognized governing bodies” for purposes
of the CARES Act. See Mohamad v. Palestinian Auth.,
566 U.S. 449, 455 (2012) (“Congress remains free, as
always, to give [a] word a broader or different
meaning” than the one suggested by the word’s plain
meaning.).
On this question, while the court agreed with
Plaintiffs’ argument at the preliminary injunction
stage, see Confederated Tribes, 2020 WL 1984297, at
*10, upon further reflection the court now concludes
the opposite—“recognized” standing alone, as it is
used in the CARES Act’s definition of “Tribal
government,” does not convey federal recognition of an
Indian tribe. The best evidence of this reading is that
Congress used nearly the exact same words,
“recognized governing body of any Indian tribe,” found

App-77
in the first definition of “tribal organization” in
ISDEAA, 25 U.S.C. § 5304(l). While the Cheyenne
River Sioux Plaintiffs point out that the CARES Act
incorporated only ISDEAA’s definition of “Indian
Tribe” and did not import ISDEAA “whole cloth,”
6/12/2020 Hr’g Tr. at 120, ISDEAA nevertheless
demonstrates that when Congress uses the word
“recognized,” or even “recognized governing body,” it
does not a fortiori mean “federally recognized.”
“Recognition” is not used as a term of art in the IDEAA
definition of “tribal organization”; 17 it follows that the
same is true under the CARES Act.
Another interpretive clue leads to this conclusion.
The Cheyenne River Sioux’s reading, if accepted,
would produce the result that Congress expressly
granted eligibility in one definition under the CARES
Act—by incorporating the ISDEAA definition of
“Indian tribe”—but silently took it away in another—
by excluding ANCs from the definition of “Tribal
government.” It would be passing strange to exclude
ANCs so obliquely, and the court cannot presume that
Congress intended such a result.
Finally, and contrary to what the court previously
concluded, see Confederated Tribes, 2020 WL 1984297,
at *10, Plaintiffs’ appeal to statutory context is
Relevant agencies have long understood this. Under the 1981
guidelines promulgated by Interior and HHS, for example, ANCs
can be “recognize[d] as the village governing body” for “the
purposes of contracting under Pub. L. 93-628 [ISDEAA].” 46 Fed.
Reg. 27,178-02, 27,179 (May 18, 1981). And the 1988 list of Tribes
published by Interior described ANCs as “Alaska entities which
are recognized and eligible to receive funding and services from
the Bureau of Indian Affairs.” 53 Fed. Reg. at 52,832 (emphasis
added).
17

App-78
ultimately not convincing. Specifically, they contend
that the statute’s “definition of ‘Tribal government’
must be read in th[e] context” of Title V of the CARES
Act, which they argue is “directed to sovereign
governments and their political subdivisions.”
Confederated Tribes Mot. at 24; see also Cheyenne
River Sioux Mot. at 2 (emphasizing that the CARES
Act uses the term “Tribal governments” “15 times in
just over three pages”). But there is nothing
inconsistent with treating ANCs alongside tribal
governments for these limited purposes. ISDEAA is
aimed at providing government services—including
health care—to Indians by partnering with Tribal
organizations, including, at times, ANCs. It stands to
reason that Congress, in its effort to distribute
emergency funds quickly to Indians under the CARES
Act, intended to get those dollars in the hands of the
same entities that deliver public services to Indians.
In the lower 48 states, those entities are largely Tribal
governments in the traditional sense, but in Alaska,
those entities include Alaska Native village and
regional corporations. See Intervenors’ Mot. at 14-18.
ANCs’ inclusion in Title V alongside other types of
traditional governments is therefore not incongruous
with Congress’s purpose of appropriating emergency
funds for “governments” to deliver public services to
address and manage a national health emergency. In
the end, the question before the court is whether ANCs
are “Tribal governments” for the limited purpose of
delivering public services to combat the COVID-19
pandemic. For all the foregoing reasons, they are.

App-79
***
Before concluding, the court addresses Plaintiffs’
concern that deeming ANCs eligible for Title V
funding will enact a sea-change in Tribal law. See, e.g.,
6/12/2020 Hr’g Tr. at 42-43. Not so. The court does no
more than opine on the status of ANCs under ISDEAA
and the CARES Act, and it reaches a holding that is
consistent with longstanding treatment of ANCs
under ISDEAA by the federal government. The court’s
ruling in no way elevates ANCs to “super-tribal
status” as the Confederated Tribes Plaintiffs
maintain, Confederated Tribes Opp’n at 10; nor does
it allow ANCs to “compete” with federally recognized
tribes in any other context as the Cheyenne River
Sioux Plaintiffs fear, Cheyenne River Sioux Mot. at 12.
The court’s decision simply recognizes that ANCs are
eligible for CARES Act funds, as Congress intended—
no more, no less.
IV.
For the foregoing reasons, the court grants the
Secretary’s and Defendant-Intervenors’ Motions for
Summary Judgment, ECF Nos. 78 and 79, and denies
Plaintiffs’ Motions for Summary Judgment, ECF Nos.
76 and 77. A final, appealable Order accompanies this
Memorandum Opinion.
[handwritten: signature]
Dated: June 26, 2020

Amit P. Mehta
United States District
Court Judge

App-80
Appendix E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
________________
No. 20-cv-01002
________________
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, et al.,
Plaintiffs,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________
No. 20-cv-01059
________________
CHEYENNE RIVER SIOUX TRIBE, et al.,
Plaintiffs,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________

App-81
________________
No. 20-cv-01070
________________
UTE TRIBE OF THE UINTAH AND OURAY RESERVATION,
Plaintiff,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________
Filed: July 7, 2020
________________
MEMORANDUM OPINION AND ORDER
________________
I.
On June 26, 2020, the court ruled that Alaska
Native regional and village corporations (“ANCs”) are
eligible to receive emergency relief funds appropriated
by Congress under Title V of the Coronavirus Aid,
Relief, and Economic Security Act, or CARES Act. See
Confederated Tribes of Chehalis Reservation v.
Mnuchin, No. 20-cv-01002 (APM), 2020 WL 3489479
(D.D.C. June 26, 2020). The court accordingly entered
judgment in favor of Defendant Secretary of the U.S.
Department of the Treasury and the ANC DefendantIntervenors, and dissolved the preliminary injunction
that, until then, had prevented the Secretary from
disbursing Title V funds to ANCs. See Order, ECF No.
98. The Confederated Tribes of the Chehalis
Reservation Plaintiffs now ask the court to stay its

App-82
judgment pending appeal. Pls.’ Mot. for Injunction
Pending Appeal and Mem. of P. & A., ECF No. 99
[hereinafter Pls.’ Mot.]. 1 Specifically, they seek an
injunction that prohibits the Secretary from
“disbursing or otherwise paying Title V funds to any
[ANC], until further order of this Court or by order of
the Court of Appeals for the District of Columbia
Circuit.” Proposed Order, ECF No. 99-1, at 2. For the
reasons that follow, the requested injunctive relief is
granted, subject to the condition that Plaintiffs file a
notice of appeal and a motion for expedited review by
July 14, 2020.
II.
This court set forth the standard governing a
motion for injunction pending appeal in Cigar
Association of America v. FDA, 317 F. Supp. 3d 555,
560-61 (D.D.C. 2018). The court need not repeat that
discussion here but incorporates it by reference, and
proceeds directly to the four injunction factors it must
consider on a sliding scale.
First, Plaintiffs have presented “serious legal
questions going to the merits, so serious, substantial,
difficult as to make them a fair ground of litigation
and thus for more deliberative investigation.”
Population Inst. v. McPherson, 797 F.2d 1062, 1078
(D.C. Cir. 1986) (quoting Wash. Metro. Area Transit
Comm’n v. Holiday Tours, Inc., 559 F.2d 841, 844
(D.C. Cir. 1977)). Although the court ultimately ruled
1 Plaintiff Ute Indian Tribe of the Uintah and Ouray
Reservation join in the Confederated Tribes Plaintiffs’ motion.
See Ute Indian Tribe’s Joinder in “Mot. for Leave to File
Injunction Pending Appeal,” ECF No. 100.

App-83
in Defendants’ favor, it observed that “this case does
not present easy, straightforward questions of
statutory interpretation,” and it “wrestled” with the
decision it made. Confederated Tribes, 2020 WL
3489479, at *6. The proper application of the
competing canons of interpretation to Title V’s
relevant statutory terms alone warrants additional
scrutiny, and the “impressive array of textual,
historical, and practical evidence” amassed by the
parties, “all of which must be viewed against the
unique treatment of Native Alaskans by Congress and
Executive Branch agencies,” only counsels in favor of
further review. Id. Because the question of statutory
interpretation presented in this case is as complicated
as it is consequential, it deserves an audience before a
higher court while maintaining the status quo. 2
Second, Plaintiffs would suffer irreparable harm
if the court denied injunctive relief and the Secretary
then distributed the withheld Title V funds to ANCs.
Such payments could result in this case becoming
moot before receiving a full hearing before the D.C.
Circuit. See City of Houston. v. Dep’t of Hous. & Urban
Dev., 24 F.3d 1421, 1424 (D.C. Cir. 1994) (“It is a wellsettled matter of constitutional law that when an
appropriation has lapsed or has been fully obligated,
federal courts cannot order the expenditure of funds
that were covered by that appropriation.”); Ambach v.
To varying degrees, the parties have sought to revisit the
merits of the court’s decision. See, e.g., Pls.’ Mot. at 6-12; Def,’s
Opp’n to Pls.’ Mot. for Inj. Pending Appeal, ECF No. 103, at 5-13.
Wading into those thorny issues once more is neither desirable
nor necessary. It suffices to say that the questions Plaintiffs have
raised are sufficiently “substantial” to warrant an injunction
pending appeal.
2

App-84
Bell, 686 F.2d 974, 986 (D.C. Cir. 1982) (holding that
“interim relief” was proper where plaintiff States
challenged the agency’s formula for distributing
education funding, because, “[o]nce the . . . funds are
distributed to the States and obligated, they cannot be
recouped”). Given the complexity and significance of
the questions presented, this court should not have
the last say on this matter. Defendants respond that
the harm Plaintiffs faced at the preliminary injunction
stage is now greatly diminished because they have
received approximately 90% of the CARES Act
funding to which they are entitled. Opp’n to Pls.’ Mot.
for Inj. Pending Appeal of Intervenor-Defendants
Alaska Native Village Corp. Assoc., Inc., and Assoc. of
ANCSA Regional Corp. Presidents/CEO’s, Inc., ECF
No. 104, at 8. Yet, there remains hundreds of millions
of dollars in dispute. And, although not all of those
funds would go to these Plaintiffs if they were to
prevail, the lesser amount at stake would not make
the lost chance at appellate review sting any less.
Third, the final two factors taken together—the
balance of equities and the public interest—cannot
overcome the reasons favoring injunctive relief. See
Nken v. Holder, 556 U.S. 418, 434 (2009) (“The first
two factors of the traditional standard are the most
critical.”); id. at 435 (observing that the third and
fourth factors “merge” when the government is the
opposing party). To be sure, the ANCs and, more
importantly, the constituencies they serve will suffer
some injury from additional delay in receiving Title V
funds. However, the public interest also rests in
carrying out Congress’s will, and that interest is not
served if ANCs receive and spend tens of millions of
dollars of emergency relief to which they are not

App-85
entitled. See League of Women Voters of United States
v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016) (stating that
“there is a substantial public interest in having
governmental agencies abide by the federal laws that
govern their existence and operations” (internal
quotation marks and citation omitted)). Although this
court has concluded that ANCs are eligible for those
funds, the public interest rests with the D.C. Circuit
deciding whether this court got it right.
In summary, the injunction factors, applied on a
sliding scale, favor granting Plaintiffs’ request for an
injunction pending appeal.
III.
The Calista ANC-Intervenor Defendants urge the
court, in effect, to punt Plaintiffs’ request for
injunctive relief to the D.C. Circuit. See Opp’n to Pls.’
Mot. to Stay Judgment Pending Appeal, ECF No. 102
[hereinafter Calista Mot.] at 2 (“In all events, this
Court is the wrong court to grant the relief that
plaintiffs seek.”). The court declines to do so. This
court has an independent obligation to consider
Plaintiffs’ motion, see Fed. R. Civ. P. 62(d); Fed. R.
App. P. 8(a)(1), and it must discharge that
responsibility. That said, the Calista ANC-Intervenor
Defendants are right to be concerned that a delayed
appeal would defeat the very purposes for which
Congress appropriated CARES Act funds on an
emergency basis. See Calista Mot. at 2-3. The
Confederated Tribes Plaintiffs have not suggested
that they intend to delay prosecuting an appeal; to the
contrary, they have said they will pursue expedited
review. See Pls.’ Mot. at 2 n.1. Nevertheless, to ensure
prompt appellate consideration, the court will

App-86
condition the requested stay on Plaintiffs’ filing both a
notice of appeal and a motion for expedited review
before the D.C. Circuit by no later than July 14, 2020.
See Ctr. for Int’l Envtl. Law v. Office of the U.S. Trade
Representative, 240 F. Supp. 2d 21, 23 & n.1 (D.D.C.
2003) (granting injunction pending appeal conditioned
on seeking expedited review); accord Charles v. Office
of the Armed Forces Medical Examiner, Civil Action
No. 1:09-cv-0199 (KBJ), 2013 WL 12332949, at *2
(D.D.C. May 9, 2013). If Plaintiffs fail to move on an
expedited basis, the stay will expire.
IV.
For the foregoing reasons, the Confederated
Tribes Plaintiffs’ Motion for Injunction Pending
Appeal, ECF No. 99, is hereby granted, subject to one
condition.
The court’s Order of June 26, 2020, ECF No. 98, is
hereby stayed until the earlier of September 15, 2020,
or resolution of this matter by a three-judge panel of
the D.C. Circuit, so long as Plaintiffs file a notice of
appeal and seek expedited review by July 14, 2020. If
Plaintiffs do not timely satisfy this condition, the
injunction pending appeal shall expire on July 15,
2020. If the D.C. Circuit has not resolved this case by
September 15, 2020, this order may be extended upon
motion by a party or by the D.C. Circuit. Any motion
filed before this court shall address whether Title V

App-87
funds will expire if the D.C. Circuit does not issue a
decision by September 30, 2020.
[handwritten: signature]
Dated: July 7, 2020

Amit P. Mehta
United States District
Court Judge

App-88
Appendix F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
________________
No. 20-cv-01002
________________
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, et al.,
Plaintiffs,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________
No. 20-cv-01059
________________
CHEYENNE RIVER SIOUX TRIBE, et al.,
Plaintiffs,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________

App-89
________________
No. 20-cv-01070
________________
UTE TRIBE OF THE UINTAH AND OURAY RESERVATION,
Plaintiff,
v.
STEVEN T. MNUCHIN, in his official capacity as
Secretary of U.S. Department of the Treasury,
Defendant.
________________
Filed: Apr. 27, 2020
________________
MEMORANDUM OPINION
________________
Under Title V of the Coronavirus Aid, Relief, and
Economic Security Act, or CARES Act, Congress set
aside $8 billion in emergency aid for “Tribal
governments” to combat the coronavirus pandemic.
This case concerns what it means to be a “Tribal
government” for the purpose of receiving Title V funds.
Plaintiffs are a group of federally recognized
tribes from the lower 48 states and Alaska. They
unquestionably qualify to receive some portion of the
emergency relief set aside under Title V of the CARES
Act. What Plaintiffs fear, however, is that the
Secretary of the Treasury, who Congress authorized to
disburse the monies, is about to give away a
significant percentage of the $8 billion to what are
known as Alaska Native regional and village
corporations, or ANCs. ANCs are for-profit

App-90
corporations recognized under Alaska law that were
established by Congress as part of the Alaska Native
Claims Settlement Act. The Secretary of Treasury has
announced that ANCs are eligible to receive Title V
funds, although he has yet to identify which ANCs will
receive funds or how much. The Secretary intends to
disburse the funds tomorrow—April 28, 2020.
Plaintiffs ask this court to enjoin the Secretary
from making Title V payments to ANCs. Their
position is straightforward. Title V grants $8 billion in
relief funds for “Tribal governments,” which the
CARES Act defines as “the recognized governing body
of an Indian Tribe.” In Plaintiffs’ view, ANCs do not
meet the statutory definition of either “Indian Tribe”
or “Tribal government.” ANCs therefore are not
eligible for Title V funds. Whether Plaintiffs’ or the
Secretary’s reading of Title V is the correct one is at
the heart of the parties’ dispute.
Before the court are Plaintiffs’ motions for a
temporary restraining order and preliminary
injunction. Because the court finds that Plaintiffs
have made a clear showing that they are likely to
suffer irreparable harm in the absence of preliminary
relief, that they are likely to succeed on the merits,
and the balance of the equities and the public interest
favor an injunction, the court grants Plaintiffs’
motions—but only in part. The court will preliminarily
enjoin the Secretary from disbursing Title V funds to
any ANC, but will not direct him at this time to
disburse the entire $8 billion in emergency relief to
Plaintiffs and other federally recognized tribes.

App-91
I.
A. Statutory Background
1.

The CARES Act

Congress enacted the Coronavirus Aid, Relief, and
Economic Security Act (“CARES Act”), Pub. L. No.
116-136, 134 Stat. 281 (2020), to respond to the
devastating impacts of the COVID-19 pandemic. Its
provisions direct tailored relief to specific sectors of
American society, including economic aid to small
businesses and employment retention programs for
workers (Title I); unemployment insurance and other
financial support systems for workers, businesses, and
families (Title II); pandemic response and healthcare
funding (Title III); support for economically struggling
businesses regardless of size (Title IV); relief funding
for State, Tribal, and local governments (Title V); and
supplemental appropriations for federal agencies and
programs (Title VI).
Title V, the title relevant here, amends the Social
Security Act (42 U.S.C. 301 et seq.), and appropriates
$150 billion for fiscal year 2020 for “payments to
States, Tribal governments, and units of local
government.” 42 U.S.C. § 801(a)(1). Of that sum, $8
billion is “reserve[d] . . . for making payments to
Tribal governments.” Id. § 801(a)(2)(B). The Act
requires the Secretary of the United States
Department of the Treasury (“Secretary”) to disburse
the Title V funds to Tribal governments “not later
than 30 days after” March 26, 2020, the date of
enactment of this section—that is, by April 26, 2020.
Id. § 801(b)(1). The Act further instructs that the
funds are intended:

App-92
to cover only those costs of the State, Tribal
government, or unit of local government
that—(1) are
necessary
expenditures
incurred due to the public health emergency
with respect to the Coronavirus Disease 2019
(COVID-19); (2) were not accounted for in the
budget most recently approved as of the date
of enactment of this section for the State or
government; and (3) were incurred during the
period that begins on March 1, 2020, and ends
on December 30, 2020.
Id. § 801(d).
For purposes of Title V funding, the CARES Act
defines “Tribal government” as “the recognized
governing body of an Indian tribe.” Id. § 801(g)(5). The
Act further provides that “[t]he term ‘Indian Tribe’ has
the meaning given that term in [section 5304(e) of the
Indian Self-Determination and Education Assistance
Act, 25 U.S.C. § 5304(e)].” Id. § 801(g)(1). The Indian
Self-Determination and Education Assistance Act in
turn defines “Indian tribe” as “any Indian tribe, band,
nation, or other organized group or community,
including any Alaska Native village or regional or
village corporation as defined in or established
pursuant to the Alaska Native Claims Settlement Act
(85 Stat. 688) [43 U.S.C. 1601 et seq.], which is
recognized as eligible for the special programs and
services provided by the United States to Indians
because of their status as Indians.” 25 U.S.C.
§ 5304(e).

App-93
2.

The
Alaska
Settlement Act

Native

Claims

The Alaska Native Claims Settlement Act,
enacted in 1971, Pub. L. No. 92-203, § 2(b), 85 Stat.
688, (“ANSCA”) is “a comprehensive statute designed
to settle all land claims by Alaska Natives,” Alaska v.
Native Vill. of Venetie Tribal Gov’t, 522 U.S. 520, 523
(1998). Among other things, ANSCA extinguished all
aboriginal claims to Alaska land, and “[i]n return,
Congress authorized the transfer of $962.5 million in
state and federal funds and approximately 44 million
acres of Alaska land to state-chartered private
business corporations that were to be formed pursuant
to the statute; all of the shareholders of these
corporations were required to be Alaska Natives.” Id.
at 524 (citing ANCSA, §§ 6, 8, 14 (codified at 43 U.S.C.
§§ 1605, 1607, 1613)). The transfer of reservation
lands to private, state-chartered Native corporations,
or ANCs, was “without any restraints on alienation or
significant use restrictions,” because Congress
intended to avoid “‘any permanent racially defined
institutions, rights, privileges, or obligations.’” Id. at
532-33 (citing ANCSA, §§ 2b, 8, 14). “By ANCSA’s very
design, Native corporations can immediately convey
former reservation lands to non-Natives, and such
corporations are not restricted to using those lands for
Indian purposes.” Id. at 533.
Today, ANCs continue to own approximately 44
million acres of land. RESOURCE DEVELOPMENT
COUNCIL,
Alaska
Native
Corporations,
https://www.akrdc.org/alaska-native-corporations
(last visited Apr. 25, 2020) [hereinafter Res. Dev.
Council]. The ANCs’ “landholdings are equivalent to

App-94
the total trust land base of all federally recognized
Tribal governments in the Lower-48 states combined.”
First Am. Compl. for Declaratory and Inj. Relief, No.
20-cv-1059, ECF No. 14 [hereinafter Cheyenne River
Am. Compl.], at 22. In fiscal year 2017, ANCs had a
combined revenue of $9.1 billion, and the twelve
regional ANCs have over 138,000 shareholders and
employ more than 43,000 people worldwide. See Res.
Dev. Council.
3.

ISDEAA and ANCs

Congress enacted the Indian Self-Determination
and Education Assistance Act, or ISDEAA, in 1975 “to
help Indian tribes assume responsibility for aid
programs that benefit their members.” Menominee
Indian Tribe of Wis. v. United States, 136 S. Ct. 750,
753 (2016). Under ISDEAA, tribes may enter into
“self-determination contracts,” or “638” agreements,
with federal agencies to provide services that
otherwise would have been provided by the federal
government, such as education, law enforcement, and
health care. 25 U.S.C. § 5321(a)(1); Menominee Indian
Tribe, 136 S. Ct. at 753; Seminole Tribe of Fla. v. Azar,
376 F. Supp. 3d 100, 103 (D.D.C. 2019).
Historically, federal agencies have treated ANCs
as “Indian tribes” under ISDEAA and therefore as
eligible to enter into 638 agreements. See Cook Inlet
Native Ass’n v. Bowen, 810 F.2d 1471, 1473-77 (9th
Cir. 1987) (setting forth history of agency treatment of
ANCs under ISDEAA). However, the extent of actual
638 contracting with ANCs under ISDEAA is unclear.
The Secretary’s counsel, for instance, was unable to
identify any present or past 638 agreement with an
ANC, see Hr’g Tr., 4/24/20, at 38—albeit, in fairness,

App-95
the Secretary had only a limited time to conduct due
diligence.
B. Factual and Procedural Background
On April 13, 2020, the Secretary published on the
Treasury Department’s website a form titled
“Certification
for
Requested
Tribal
Data”
(“Certification”), which requested certain data to
effectuate disbursement of CARES Act funds. See
Confederated Tribes of the Chehalis Pls.’ Mot. for TRO
and Prelim. Injunction, ECF No. 3 [hereinafter
Chehalis Mot.], Kanji Decl., Ex. 2, ECF No. 3-8 at 1516 [hereinafter Certification]. 1 The Certification
sought the following information:
(1) “Name of Indian Tribe”;
(2) “Population,” defined as “Total number of
Indian Tribe Citizens/Members/Shareholders, as of
January 1, 2020”;
(3) “Land Base,” defined as “Total number of
land acres held by the Indian Tribe and any triballyowned entity (to include entities in which the Indian
Tribe maintains at least 51% ownership) as of January
1, 2020” noting that such lands would “include lands
held in trust by the United States, owned in restricted
fee status, owned in fee, or selected pursuant to the
Alaska Native Claims Settlement Act”;
(4) “Employees,” defined as “Total number of
persons employed by the Indian Tribe and any
tribally-owned entity (to include entities in which the
1 Unless otherwise noted, all citations to the docket refer to the
Confederated Tribes of the Chehalis Reservation et al. v. Mnuchin
docket, Case No. 20-cv-1002 (APM).

App-96
Indian Tribe maintains at least 51% ownership) on
January 1, 2020”; and,
(5) “Total expenditures for the most recently
completed fiscal year.”
Id. The Certification is notable in that it identifies
metrics specific to ANCs. ANCs, and not traditional
Tribes, have “shareholders.” And the Certification
asked for land base information for lands “selected
pursuant to the Alaska Native Claims Settlement
Act.” Federally recognized tribes understood from the
terms of the Certification that the Secretary had
deemed ANCs eligible for Title V funds, and
immediately protested this apparent decision. See
Cheyenne River Sioux Tribe Pls.’ Mot. for TRO and
Prelim. Inj., Mem. of P. & A. in Support of Mot., ECF
No. 4 [hereinafter Cheyenne River Mot.], Ducheneaux
Decl., Exs. A-E, ECF No. 4-1 (letters from
representatives of various tribal governments to
Secretary Mnuchin, dated April 13, 2020, through
April 16, 2020, asking that the Secretary not allow
ANCs to be counted as Tribal governments under the
CARES Act). 2
Four days later, on April 17, 2020, the first of
three suits was filed challenging the Secretary’s
ostensible treatment of ANCs as eligible for funding
under Title V of the CARES Act. The Confederated
Tribes of the Chehalis Reservation, the Tulalip Tribes,
the Houlton Band of Maliseet Indians, the Akiak
Native Community, the Asa’carsarmiut Tribe, and the
2 Citations to the filings by the Cheyenne River Sioux Tribe
Plaintiffs are found on the docket in Cheyenne River Sioux Tribe
et al. v. Mnuchin, 20-cv-1059 (APM).

App-97
Aleut Community of St. Paul Island (collectively,
“Chehalis Plaintiffs”) filed an action against the
Secretary under the Administrative Procedure Act
(“APA”). Chehalis Compl., ECF No. 1. As amended,
the single-claim complaint alleges that the Secretary’s
designation of ANCs as eligible to receive Title V funds
was arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law. Chahalis Am.
Compl., ECF No. 7 [hereinafter Chahalis Am. Compl.],
¶ 119-22. Three days later, Plaintiffs moved for a
temporary restraining order and preliminary
injunctive relief. See Chehalis Mot. They ask the court
both to enjoin the Secretary from disbursing any Title
V funds to ANCs and to order the Secretary to
disburse all $8 billion to federally recognized tribes.
Chehalis Am. Compl. ¶ 123; Chehalis Mot., Proposed
Order, ECF No. 3-7. Plaintiffs then filed an amended
complaint, which added the Navajo Nation; Quinault
Indian Tribe; Pueblo of Picuris; Elk Valley Rancheria,
California; and San Carlos Apache Tribe as plaintiffs.
See Am. Chehalis Compl., ECF No. 7 [hereinafter Am.
Compl.]. Plaintiffs again brought the same single
count for violations of the APA. Id. ¶¶ 117-23.
Two other lawsuits followed. Plaintiffs Cheyenne
River Sioux Tribe, Oglala Sioux Tribe, and Rosebud
Sioux Tribe (collectively, “Cheyenne River Plaintiffs”)
filed their suit on April 22, 2020, see Cheyenne River
Compl., ECF No. 1, and moved for preliminary
injunctive relief the same day, see Cheyenne River
Mot. 3 Plaintiff Ute Indian Tribe of the Uintah and

3 On April 24, 2020, the Cheyenne River Plaintiffs filed an
Amended Complaint, which added Nondalton Tribal Council,

App-98
Ouray Reservation filed a third lawsuit and motion for
a temporary restraining order the next day. See Ute
Compl., ECF No. 1; Mot. for TRO and Prelim. Inj.,
ECF No. 5. 4 The court consolidated all three cases. See
Docket 20-cv-1070, Minute Order, April 24, 2020;
Docket 20-cv-1059, Minute Order, April 23, 2020.
A number of amici curiae submitted briefs in
support of and in opposition to Plaintiffs’ motions. The
Alaska Native Village Corporation Association
(“ANVCA”), a non-profit corporation that represents
177 Alaska Native village corporations, and the
Alaska Native Claims Settlement Act Regional
Association (“ARA”), a non-profit association whose
mission is to “promote and foster continued growth
and economic strength of the Alaska Native regional
corporations for the benefit of their Alaska Native
shareholders and communities,” filed a joint brief
supporting the ANCs’ eligibility for Title V funding.
See Br. of Amici Curiae, ECF No. 24 [hereinafter
ANVCA Br.], at 1-2. Ahtna, Inc., an Alaska Native
Regional Corporation created pursuant to ANCSA,
also filed an amicus brief supporting the Secretary. Br.
of Amicus Curiae Ahtna, Inc., ECF No. 23 [hereinafter
Ahtna Br.], at 1. Additionally, the National Congress
of American Indians along with a group of national
and regional organizations of federally recognized
Indian tribes, and the Native American Finance
Officers Association, the Gila River Indian
Arctic Village Council, and Native Village of Venetie Tribal
Government as plaintiffs. See Cheyenne River Am. Compl.
4 Citations to the filings by the Ute Tribe Plaintiffs are found
on the docket in Ute Tribe of the Uintah and Ouray Reservation
v. Mnuchin, 20-cv-1070 (APM).

App-99
Community, the Penobscot Nation, and the
Nottawaseppi Huron Band of the Potawatomi filed
their own amicus briefs supporting Plaintiffs’ position.
See generally Br. of Amici Curiae National Congress of
American Indians, et al., ECF No. 20; Amicus Curiae
Br. of the Native American Finance Officers
Association, the Gila River Indian Community, the
Penobscot Nation, and the Nottawaseppi Huron Band
of the Potawatomi, ECF No. 25.
On April 22, 2020, Defendant moved for an
extension to oppose the pending motions. See Def.’s
Mot. for Extension of Time, ECF No. 9. In its motion,
Defendant represented that the Secretary “has not yet
arrived at a final decision on the question whether
Alaska native corporations qualify as ‘Tribal
governments’ under Title V of the CARES Act.” Id. at
1. In a status hearing the following day, counsel for
Defendant reiterated that the Secretary still had
made no determination as to whether ANCs would be
eligible for Title V funding. Later that day, however,
the Secretary announced a firm position. In a posting
on the agency’s website, the Secretary stated that,
“[a]fter consultation with the Department of the
Interior, Treasury has concluded that Alaska Native
regional and village corporations as defined in or
established pursuant to the Alaska Native Claims
Settlement Act are eligible to receive payments from
the Fund in the amounts to be determined by the
Secretary of the Treasury.” U.S. TREASURY DEP’T,

App-100
CORONAVIRUS RELIEF FUND PAYMENTS TO TRIBAL
GOVERNMENTS (April 23, 2020) (footnote omitted). 5
The court heard argument on Plaintiffs’ motions
the next day, April 24, 2020. See Minute Entry, April
24, 2020. Plaintiffs contend that ANCs are not eligible
for Title V funding under the CARES Act, because no
ANC meets the statutory definition of “Tribal
government”—i.e., no ANC or ANC board of directors
is “the recognized governing body of an Indian tribe.”
42 U.S.C. § 801(g)(5). Plaintiffs’ argument is
essentially two-fold: ANCs are not “Indian Tribes”
under the ISDEAA definition incorporated into the
CARES Act, and no ANC board of directors qualifies
as a “recognized governing body.” Chehalis Mot. at 1621; Cheyenne Mot. at 20-27. Defendant, on the other
hand, argues that ANCs are treated as “Tribal
governments” under ISDEAA, relying primarily on a
Bureau of Indian Affairs interpretation of the ISDEAA
definition, upheld as reasonable by the Ninth Circuit
over thirty years ago. Def.’s Cons. Opp’n to Pls.’ Mot.
for TRO and Prelim. Inj., ECF No. 21 [hereinafter
Def.’s Opp’n] at 8-10 (citing Cook Inlet, 810 F.2d 1471).
Defendant also contends that Plaintiffs have failed to
demonstrate irreparable harm, id. at 19-22, and that,
in any case, the Secretary’s decision to disburse funds
is committed to his discretion and is therefore
unreviewable, id. at 7-8.
Following the hearing on Plaintiffs’ motions, the
Secretary confirmed that no Title V funds will be

5 https://home.treasury.gov/system/files/136/Coronavirus-Relief
-Fund-Payments-to-Tribal-Governments.pdf.

App-101
released to Tribal governments until April 28, 2020.
See Notice to Court, ECF No. 32.
III.
Before turning to the merits of Plaintiffs’
requested relief, the court addresses a threshold
contention made by Defendant. Defendant asserts
that the Secretary’s “ongoing decisions about how to
implement an emergency relief fund . . . is not
properly subject to judicial oversight.” Def.’s Opp’n at
7. The CARES Act commits to the Executive Branch
the decision how to allocate emergency relief
payments, id. (citing 42 U.S.C. § 801(c)(7) (“[T]he
Secretary shall determine” the amount of the
payments, which are to be made “in such manner as
the Secretary determines appropriate”)), and
therefore, Defendant contends, such a discretionary
determination is beyond the court’s authority to
review under the APA, see id. That argument fails.
The D.C. Circuit recently explained that there are
two categories of unreviewable discretionary agency
actions, those that are “presumed immune from
judicial review” and those that are presumptively
reviewable but involve “rare instances where statutes
are drawn in such broad terms that in a given case
there is no law to apply.” Physicians for Soc.
Responsibility v. Wheeler, No. 19-5104, 2020 WL
1921539, at *4 (D.C. Cir. Apr. 21, 2020) (citing Heckler
v. Chaney, 470 U.S. 821, 832 (1985), and Citizens to
Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402, 410
(1971)). Defendant’s argument falls into the former
category. In Lincoln v. Vigil, the Supreme Court
observed that “[t]he allocation of funds from a lumpsum appropriation is another administrative decision

App-102
traditionally regarded as committed to agency
discretion.” 508 U.S. 182, 192 (1993). Such decisions
are treated as presumptively unreviewable, because
“an agency’s allocation of funds from a lump-sum
appropriation requires ‘a complicated balancing of a
number of factors which are peculiarly within its
expertise.’” Id. at 193 (quoting Heckler, 470 U.S. at
831). The Court added, however, that “an agency is not
free simply to disregard statutory responsibilities:
Congress may always circumscribe agency discretion
to allocate resources by putting restrictions in the
operative statutes.” Id.
That is precisely what Congress did here. True,
Congress allocated a lump-sum amount for the
Secretary to allocate to “Tribal governments.” 42
U.S.C. § 801(a)(2)(B). But it also circumscribed the
agency’s discretion by supplying a concrete definition
of “Tribal government” against which to measure
eligibility for Title V funds and, correspondingly, for
the court to conduct judicial review. See id. § 801(g)(5).
Thus, while the Secretary’s decisions as to how much
to disburse might not be reviewable, 6 his decisions
concerning to whom to disburse those funds most
certainly is. Cf. Milk Train, Inc. v. Veneman, 310 F.3d
747, 752 (D.C. Cir. 2002) (holding that Congress’s
limitation on agency’s “authority to disburse funds”
provided a “statutory reference point” for judicial
review).

6 This observation should not be construed as a holding. The
court offers no opinion as to whether it would be foreclosed from
reviewing a decision on how much to award a particular Tribal
government in Title V funds.

App-103
Relatedly, Defendant argues that the Secretary’s
decision is insulated from review, because it is in the
nature of a “time-pressed determination . . . to
address a public health emergency.” Def.’s Opp’n at 7.
But Defendant cites no authority to support the
contention that his decision to make funds available to
a particular entity—even in contravention of a
statutory mandate—evades judicial review simply
because Congress appropriated the funds to address
an emergency. Curran v. Laird, relied on by
Defendant, Def.’s Opp’n at 7-8, is a different case. It
concerned “decisions relating to the conduct of
national defense” that lie outside the bounds of
judicial reviewability. Curran, 420 F.2d 122, 128-29
(D.C. Cir. 1969). The Secretary’s decision here, by
contrast, concerns appropriations for domestic
emergency spending that is cabined by specific
statutory terms. The mere emergency nature of the
funding does not render it unreviewable. Cf. Milk
Train, 310 F.3d at 752 (“By providing in the 2000
Appropriations Act that the moneys are for ‘economic
losses incurred during 1999,’ Congress limited the
Secretary’s authority to disburse funds.” (internal
citation omitted)).
Finally, Defendant asserts that, because Title V
contains a provision that authorizes the Treasury
Department’s Inspector General to recoup payments,
Congress somehow signaled that it “did not intend
judicial oversight of the manner in which the funds are
distributed.” Def.’s Mot. at 8 (citations omitted). There
is nothing in the text of the CARES Act relating to the
powers of the Inspector General, however, that would
overcome the “strong presumption of reviewability
under the [APA].” Physicians for Soc. Responsibility,

App-104
2020 WL 1921539 at *4 (quoting Steenholdt v. FAA,
314 F.3d 633, 638 (D.C. Cir. 2003)).
IV.
The court turns now to the heart of Plaintiffs’
motions. Injunctive relief is an “extraordinary and
drastic remedy” that is “never awarded as [a matter]
of right.” Munaf v. Geren, 553 U.S. 674, 689-90 (2008)
(citations and internal quotation marks omitted). A
court
may
only
grant
the
“extraordinary
remedy . . . upon a clear showing that the plaintiff is
entitled to such relief.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 22 (2008) (citing Mazurek v.
Armstrong, 520 U.S. 968, 972 (1997) (per curiam)).
Specifically, Plaintiffs must show that they are:
(1) “likely to succeed on the merits”; (2) “likely to
suffer irreparable harm in the absence of preliminary
relief”; (3) “the balance of equities tips in [their] favor”;
and (4) “an injunction is in the public interest.”
Winter, 555 U.S. at 20. Where, as here, the federal
government is the opposing party, the balance of
equities and public interest factors merge. See Nken v.
Holder, 556 U.S. 418, 434 (2009).
In this jurisdiction, courts evaluate the four
preliminary injunction factors on a “sliding scale”—if
a “movant makes an unusually strong showing on one
of the factors, then it does not necessarily have to
make as strong a showing on another factor.” Davis v.
Pension Benefit Guar. Corp, 571 F.3d 1288, 1291-92
(D.C. Cir. 2009). Winter v. Natural Resources Defense
Council, however, called that approach into question
and raised doubts over whether the “sliding scale”
framework continues to apply, or whether a movant
must make a positive showing on all four factors

App-105
without discounting the importance of one factor
simply because one or more other factors have been
convincingly established. See Davis, 571 F.3d at 1296
(Kavanaugh, J., concurring) (“[T]he old sliding-scale
approach to preliminary injunctions—under which a
very strong likelihood of success could make up for a
failure to show a likelihood of irreparable harm, or vice
versa—is ‘no longer controlling, or even viable.’”)
(quoting Am. Trucking Ass’ns v. City of Los Angeles,
559 F.3d 1046, 1052 (9th Cir. 2009)); but see
Archdiocese of Washington v. Washington Metro. Area
Transit Auth., 897 F.3d 314, 334 (D.C. Cir. 2018)
(explaining that the D.C. Circuit “has not yet decided
whether Winter . . . is properly read to suggest a
‘sliding scale’ approach to weighing the four factors be
abandoned”).
In the absence of a D.C. Circuit decision
overruling it, the sliding scale framework remains
binding precedent that this court must follow.
“[D]istrict judges, like panels of [the D.C. Circuit], are
obligated to follow controlling circuit precedent until
either [the D.C. Circuit], sitting en banc, or the
Supreme Court, overrule it.” United States v. Torres,
115 F.3d 1033, 1036 (D.C. Cir. 1997). Accordingly, at
a minimum, a plaintiff seeking preliminary injunctive
relief “must make a ‘clear showing that four factors,
taken together, warrant relief.’” League of Women
Voters of U.S. v. Newby, 838 F.3d 1, 6 (D.C. Cir. 2016)
(quoting Pursuing Am.’s Greatness v. FEC, 831 F.3d
500, 505 (D.C. Cir. 2016)). While the sliding scale does
not absolve Plaintiffs of their burden to make an
independent showing on each of the four factors, it
“allow[s] that a strong showing on one factor could
make up for a weaker showing on another.” Sherley v.

App-106
Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011). “It is in
this sense that all four factors ‘must be balanced
against each other.’” Davis, 571 F.3d at 1292 (quoting
Davenport v. Int’l Bhd. of Teamsters, 166 F.3d 356, 361
(D.C. Cir. 1999)). The weighing of the four factors is
within the district court’s discretion. See id. at 1291.
V.
A. Irreparable Harm
The court begins with irreparable harm. A
plaintiff seeking injunctive relief must “demonstrate
that irreparable injury is likely in the absence of an
injunction.” Winter, 555 U.S. at 22. To make such a
showing, a plaintiff must demonstrate an injury that
is “both certain and great, actual and not theoretical,
beyond remediation, and of such imminence that there
is a clear and present need for equitable relief to
prevent irreparable harm.” Mexichem Specialty
Resins, Inc. v. EPA, 787 F.3d 544, 555 (D.C. Cir. 2015)
(emphasis and internal quotation marks omitted).
Plaintiffs easily satisfy their burden to show that
they will suffer irreparable injury in the absence of
immediate injunctive relief. The $8 billion dollars
allocated by Congress for “Tribal governments” is a
fixed sum that Plaintiffs and other Tribal
governments are entitled to receive to cover costs of
combatting the COVID-19 pandemic in their
communities. See 42 U.S.C. § 801(d). Any dollars
improperly paid to ANCs will reduce the funds to
Plaintiffs. And, once disbursed, those funds will not be
recoverable by judicial decree. 7 See City of Houston,
7 During oral argument, Defendant suggested that funds
improperly allocated to ANCs could be recovered by the agency’s

App-107
Tex. v. Dep’t of Hous. & Urban Dev., 24 F.3d 1421,
1424 (D.C. Cir. 1994) (“It is a well-settled matter of
constitutional law that when an appropriation has
lapsed or has been fully obligated, federal courts
cannot order the expenditure of funds that were
covered by that appropriation.”); Ambach v. Bell, 686
F.2d 974, 986 (D.C. Cir. 1982) (holding that “interim
relief” was proper in a case in which plaintiff States
challenged the agency’s formula for distributing
educating funding, because, “[o]nce the . . . funds are
distributed to the States and obligated, they cannot be
recouped”). 8 Thus, “[i]t will be impossible in the
Inspector General under his statutory recoupment authority. See
Hr’g Tr. at 45. That seems unlikely. Title V empowers the
agency’s Inspector General to recoup funds if he “determines that
a State, Tribal government, or unit of local government has failed
to comply with subsection (d).” 42 U.S.C. § 801(f)(2). Subsection
(d) limits use of Title V dollars to “expenditures incurred [from
March 1, 2020, to December 30, 2020] due to the public health
emergency” that “were not accounted for in the budget most
recently approved.” Id. § 801(d). The statute, therefore, does not
appear to grant authority to the Inspector General to recoup
monies that, say, are improperly disbursed to ANCs. Moreover,
the statute directs that any recouped funds “shall be deposited in
the general fund of the Treasury.” Id. § 801(f)(2). Thus, even if
the Inspector General could recover funds, there is no guarantee
that those funds would be redistributed to qualifying Tribal
governments.
Defendant argues in a footnote that City of Houston and
Ambach cannot stand for the proposition that the “inability to
recover funds after they are obligated constitutes irreparable
harm ‘as a matter of law.’” Def.’s Opp’n at 19 n.14. The court
makes no such holding. The court’s finding of irreparable harm
is premised not solely on the inability to recover allocated funds,
but also the purpose for which Congress allocated those funds
and the serious effect diminishing those funds will have on
Plaintiffs.
8

App-108
absence of a preliminary injunction to award the
plaintiffs the relief they request if they should
eventually prevail on the merits.” Ambach, 686 F.2d
at 986.
Defendant nevertheless maintains that Plaintiffs
have failed to establish irreparable harm, asserting
that any injury arising from reduced CARES Act
funds would be “economic in nature.” Def.’s Mot. at 20;
see Safari Club Int’l v. Salazar, 852 F. Supp. 2d 102,
120 (D.D.C. 2012) (stating the rule in this Circuit that
“economic harm alone is generally not sufficient to
warrant . . . granting of a motion for a preliminary
injunction”). But to characterize Plaintiffs’ claimed
harm as merely “economic” is terribly misguided.
These are not funds appropriated to carry out
secondary or residual government functions. These
are monies that Congress appropriated on an
emergency basis to assist Tribal governments in
providing core public services to battle a pandemic
that is ravaging the nation, including in Indian
country. As Plaintiffs’ declarants establish, COVID-19
and the public health measures necessary to combat
the novel coronavirus have caused their regular
streams of revenue to run dry, creating a crisis in
funding needed to deliver health care, procure medical
equipment and supplies, and provide meals and
expand food banks—just to name a few ways in which
the CARES Act funds would be put to use. See
Chehalis Mot. at 30-33; Cheyenne River Mot. at 32-34.
The diminishment of these funds, which cannot be
recovered once disbursed, makes “a very strong
showing of irreparable harm.” Davis, 571 F.3d at 1292.

App-109
Defendant asserts that Plaintiffs cannot show
irreparable injury for another reason. Defendant
argues that Plaintiffs have not established that “the
delta between the payment amounts they stand to
receive under Defendant’s determination, and the
amounts they would receive if ANCs were excluded,
would make the difference between irreparable harm
or not.” Def.’s Mot. at 20. But demanding such a
“delta” from Plaintiffs imposes an impossible burden.
After all, Defendant has not publicly confirmed how he
will divide up the $8 billion that Congress allocated for
“Tribal governments.” Absent some indication of the
actual formula that Defendant is using to make
allocation decisions, Plaintiffs are in no position to
identify the loss “delta” they will suffer if ANCs are
awarded Title V dollars.
From what is publicly known, however, the
potential “delta” could be significant. On April 13,
2020, Defendant published a “Certification for
Requested Tribal Data” form on the Agency’s website,
which sought certain information from Tribal
government applicants for Title V funds. Chahalis
Am. Compl. ¶ 101. Submission of the requested
information is a condition of funding. Id. Defendant
requested “Population” data from applicants, which
included the number of “Shareholders.” Id. ¶ 102. It
also asked for information about “Land Base,” which
included “lands . . . selected pursuant to the Alaska
Native Claims Settlement Act.” Id. ¶ 103;
Certification. An internal agency document leaked to
the media three days later shows that, if Defendant
were to disburse Title V funds based on “Population,”
“Land Base,” and other data, ANCs could receive a
substantial share of Title V funds. See Cheyenne River

App-110
Mot. at 18. The leaked document shows that ANCs
comprised 32.6% of the total population listed for all
Tribal governments; 45.2% of the total land base;
16.6% of total employees; and 11% of total
expenditures for the most recent completed year. See
id; Sealed Mot. for Leave to File Document Under
Seal, Ex. 2, ECF No. 5-2. If the agency were to base its
allocation decisions on such data, using it as a proxy
for need, ANCs stand to reap a considerable
percentage of Title V funds. The “delta” suffered by
Plaintiffs therefore could be substantial. 9
To be fair, since the start of this case, Defendant
has maintained that its allocation formula remains a
work in progress and that the data sought in the
Certification should not be understood as proxies for
Curiously, there is no indication on the present record that
the agency has considered data that matches the actual statutory
criteria for disbursement of Title V funds to Tribal governments.
The CARES Act provides that:
9

the amount paid . . . to a Tribal government shall be
the amount the Secretary shall determine, in
consultation with the Secretary of the Interior and
Indian Tribes, that is based on increased expenditures
of each such Tribal government (or a tribally-owned
entity of such Tribal government) relative to aggregate
expenditures in fiscal year 2019 by the Tribal
government (or tribally-owned entity) and determined
in such manner as the Secretary determines
appropriate to ensure that all amounts available under
subsection (a)(2)(B) for fiscal year 2020 are distributed
to Tribal governments.
42 U.S.C. § 801(c)(7) (emphasis added). Nothing on the present
record suggests that the agency is making allocation decisions
based, at least in part, on “increased expenditures” during the
present fiscal year.

App-111
how much funding a Tribal government will receive.
Yet, it is this very uncertainty that amplifies the
likelihood of harm. The agency has said that it will
disclose how it made funding decisions; however, it
has not committed to making that information public
before disbursing the funds. But once those dollars are
committed, Plaintiffs will have no path to recover
them. See supra at 15-16 & n.7. Their injury therefore
will be irreparable absent injunctive relief.
B. Likelihood of Success
Having found a strong case of irreparable harm,
the court turns to the other key factor—likelihood of
success on the merits. See Nken, 556 U.S. at 434 (“The
first two factors of the traditional standard are the
most critical.”). Recall that under the “sliding scale”
approach, “if the movant makes a very strong showing
of irreparable harm and there is no substantial harm
to the non-movant, then a correspondingly lower
standard can be applied for likelihood of success.”
Davis, 571 F.3d at 1292. That is not to say that a
movant for whom the other three factors “clearly
favor[]” injunctive relief can succeed by making only a
modest showing of likelihood of success. Id. (quoting
Washington Metro. Area Transit Comm’n v. Holiday
Tours, Inc., 559 F.2d 841, 843 (D.C. Cir. 1977)).
Rather, likelihood of success remains a “foundational
requirement” for injunctive relief. Guedes v. Bureau of
Alcohol, Tobacco, Firearms & Explosives, 920 F.3d 1,
10 (D.C. Cir. 2019). As the court considers Plaintiffs’
likelihood of success it bears in mind that the other
factors of irreparable harm—as discussed above—and
the balancing of the equities—as will be seen below—

App-112
“clearly favor[]” injunctive relief. Davis, 571 F.2d at
1292.
1. In determining whether Congress intended
for ANCs to be eligible for CARES Act funds, the court
begins, as required, with the statutory text. See Desert
Palace, Inc. v. Costa, 539 U.S. 90, 98 (2003) (stating
that the “starting point” for statutory analysis “is the
statutory text”). Title V of the CARES Act allocates $8
billion “for making payments to Tribal governments.”
42 U.S.C. § 801(a)(2)(B). The Act defines the term
“Tribal government” to mean “the recognized
governing body of an Indian Tribe.” Id. § 801(g)(5).
The Act also defines “Indian Tribe,” giving it the same
meaning as “that term in section 5304(e) of title 25”—
a cross-reference to the definition of “Indian Tribe”
under ISDEAA. Id. § 801(g)(1). ISDEAA, in turn,
defines “Indian tribe” as follows:
[A]ny Indian tribe, band, nation, or other
organized group or community, including any
Alaska Native village or regional or village
corporation as defined in or established
pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688), which is
recognized as eligible for the special programs
and services provided by the United States to
Indians because of their status as Indians.
25 U.S.C. § 5304(e). Thus, taken together, Congress
allocated $8 billion in the CARES Act “for making
payments to” “the recognized governing body of” “any
Indian tribe, band, nation, or other organized group or
community, including any Alaska Native village or
regional village corporation . . . , which is recognized
as eligible for the special programs and services

App-113
provided by the United States to Indians because of
their status as Indians.” See 42 U.S.C. § 801(a)(2)(B),
(g)(1), (g)(5); 25 U.S.C. § 5304(e).
According to Plaintiffs, ANCs are not “Tribal
governments,” and thus are ineligible for funds under
Title V of the CARES Act, for two reasons. First, they
contend, ANCs are not “Indian Tribes” under the
ISDEAA definition incorporated into the CARES Act,
because no known ANC satisfies the limiting clause at
the end of ISDEAA definition’s —“which is recognized
as eligible for the special programs and services
provided by the United States to Indians because of
their status as Indians.” See Chehalis Mot. at 16-21.
The court refers to this text as the “eligibility clause.”
Second, Plaintiffs contend, no ANC board of directors
qualifies as a “recognized governing body.” Id. at 2124; Cheyenne Mot. at 20-27. Both arguments rest, in
part, on the contention that “recognition” is a term of
art that is well understood in Indian law, and that no
ANC has been “recognized” as “eligible for special
programs and services provided by the United States
to Indians because of their status as Indians” and,
correspondingly, no ANC board of directors has been
“recognized” as the “governing body of an Indian
tribe.” Chehalis Mot. at 19; Cheyenne Mot. at 24-26.
For purposes of this preliminary injunction, the
court is persuaded that, presently, no ANC satisfies
the definition of “Tribal government” under the
CARES Act and therefore no ANC is eligible for any
share of the $8 billion allocated by Congress for Tribal
governments. For starters, neither Defendant nor any
ANC amici has identified an ANC that satisfies the
eligibility clause under ISDEAA’s definition of Indian

App-114
Tribe; that is, no ANC “is [presently] recognized as
eligible for the special programs and services provided
by the United States to Indians because of their status
as Indians.” See 25 U.S.C. § 5304(e). As the Chehalis
Plaintiffs point out, under the interpretative rule
known as the series-qualifier canon, “[w]hen there is a
straightforward, parallel construction that involves
all nouns or verbs in a series,” a modifier at the end of
the list “normally applies to the entire series.” See
Chehalis Pls.’ Reply in Supp. of Mot. for TRO &
Prelim. Inj., ECF No. 30, at 5 (quoting Lockhart v.
United States, 136 S. Ct. 958, 970 (2016) (Kagan, J.,
dissenting) (citing A. Scalia & B. Garner, READING
LAW: THE INTERPRETATION OF LEGAL TEXTS 147
(2012)); United States v. Laraneta, 700 F.3d 983, 989
(7th
Cir.
2020)
(“[T]he
‘series-qualifier’
canon . . . provides that a modifier at the beginning or
end of a series of terms modifies all the terms.”)).
Applying that canon here, the eligibility clause applies
equally to all entities and groups listed in the statute,
including “any Alaska Native village or regional or
village corporation.” As no known ANC satisfies
ISDEAA’s eligibility clause, no ANC can partake in
the $8 billion funding set aside for Tribal
governments.
The court also agrees that the term “recognition”
as used in Indian law statutes is a legal term of art,
and that no ANC board of directors qualifies as a
“recognized governing body” of an Indian Tribe. Cf.
Mackinac Tribe v. Jewell, 87 F. Supp. 3d 127, 131
(D.D.C. 2015) (“Federal ‘recognition’ of an Indian tribe
is a term of art that conveys a tribe’s legal status visà-vis the United State[s]. . . .”), aff’d, 829 F.3d 754
(D.C. Cir. 2016); see also Frank’s Landing Indian

App-115
Cmty. v. Nat’l Indian Gaming Comm’n, 918 F.3d 610,
613 (9th Cir. 2019) (“‘Federal recognition’ of an Indian
tribe is a legal term of art meaning that the federal
government acknowledges as a matter of law that a
particular Indian group has tribal status.”). “[I]t is a
‘cardinal rule of statutory construction’ that, when
Congress employs a term of art, ‘it presumably knows
and adopts the cluster of ideas that were attached to
each borrowed word in the body of learning from which
it was taken.’” FAA v. Cooper, 566 U.S. 284, 292 (2012)
(quoting Molzof v. United States, 502 U.S. 301, 307
(1992)). That rule of interpretation is particularly apt
for statutes concerning Indians. Federal recognition is
“a formal political act confirming the tribe’s existence
as a distinct political society, and institutionalizing
the government-to-government relationship between
the tribe and the federal government.” Cal. Valley
Miwok Tribe v. United States, 515 F.3d 1262, 1263
(D.C. Cir. 2008) (quoting COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW § 3.02[3], at 138 (2005 ed.)); see
also Chehalis Mot. at 19 (quoting H.R. Rep. No. 103781, at 2-3 (1994) (stating that recognition means a
“formal political act, [which] permanently establishes
a government-to-government relationship between
the United States and the recognized tribe as a
‘domestic dependent nation’”). “The definition of
‘recognition’ has evolved over time but historically the
United States recognized tribes through treaties,
executive orders, and acts of Congress.” Mackinac
Tribe, 829 F.3d at 755. Today, uniform procedures
exist through the Bureau of Indian Affairs for a group
to seek formal recognition. See id. at 756. As a legal
term of art then, Congress’s decision to qualify only
“recognized governing bod[ies]” of Indian Tribes for

App-116
CARES Act funds must be viewed through this
historical lens. And no ANC board of directors satisfies
that criteria. Cf. Seldovia Native Ass’n v. Lujan, 904
F.2d 1335, 1350 (9th Cir. 1990) (holding that a village
corporation “is not a governmental unit with a local
governing board organized under the Indian
Reorganization Act . . . [and thus] does not meet one of
the basic criteria of an Indian tribe” (citation
omitted)).
2. Context also supports Plaintiffs’ reading of
the CARES Act. See Robinson v. Shell Oil Co., 519
U.S. 337, 341 (1997) (“The plainness or ambiguity of
statutory language is determined by reference to the
language itself, the specific context in which that
language is used, and the broader context of the
statute as a whole.”). Congress placed monies for
“Tribal governments” in the same title of the CARES
Act as funding for other types of “governments.” 42
U.S.C. § 801(a)(1). Title V appropriates money “for
making payments to States, Tribal governments, and
units of local government.” Id. “State” is defined as
“the 50 States, the District of Columbia, the
Commonwealth of Puerto Rico, the United States
Virgin Islands, Guam, the Commonwealth of the
Northern Mariana Islands, and American Samoa.” Id.
§ 801(g)(4). The term “unit of local government” is also
defined, and it means “a county, municipality, town,
township, village, parish, borough, or other unit of
general government below the State level with a
population that exceeds 500,000.” Id. § 801(g)(2). The
term “Tribal government” must be read in this
context. See Lagos v. United States, 138 S. Ct. 1684,
1688-89 (2018) (referencing “noscitur a sociis, the wellworn Latin phrase that tells us that statutory words

App-117
are often known by the company they keep”). A
“government” is commonly understood to refer to
“[t]he sovereign power in a country or state” or
“organization through which a body of people exercises
political authority; the machinery by which sovereign
power is expressed.” Government, BLACK’S LAW
DICTIONARY (11th ed. 2019); see also Government,
MERRIAM-WEBSTER DICTIONARY (“[T]he body of
persons that constitutes the governing authority of a
political unit or organization,” or “the organization,
machinery, or agency through which a political unit
exercises authority and performs functions and which
is usually classified according to the distribution of
power within it”). 10 Reading the CARES Act to allow
the Secretary to disburse Title V dollars to for-profit
corporations does not jibe with the Title’s general
purpose of funding the emergency needs of
“governments.” See Richards v. United States, 369
U.S. 1, 9 (1962) (explaining that a court must “start
with the assumption that the legislative purpose is
expressed by the ordinary meaning of the words used”
by Congress.”).
3. Defendant and the ANC Amici advance their
own textual analysis of the ISDEAA definition of
“Indian tribe.” Echoing the rationale of the Ninth
Circuit’s decision in Cook Inlet, 810 F.2d at 1474,
Defendants and ANC Amici argue that to apply the
eligibility clause to ANCs would read the words
“regional or village corporation” out of the statute
because ANCs cannot satisfy the eligibility clause.
Def.’s Mot. at 10-11; Ahtna Br. at 20-21. ANCs cannot
satisfy that clause because, as corporations organized
10

https://www.merriam-webster.com/dictionary/government.

App-118
under state law, they cannot be “recognized” as
“eligible for special programs and services provided by
the United States to Indians because of their status as
Indians.” So, Defendant and the ANC Amici maintain,
the court must not apply the eligibility clause to those
entities so as to give meaning to their placement in the
statute. Id.
The court is unpersuaded. To be sure, courts must
“interpret a statute to give meaning to every clause
and word.” Donnelly v. FAA, 411 F.3d 267, 271 (D.C.
Cir. 2005). But the court cannot ignore the clear
grammatical construct of the ISDEAA definition,
which applies the eligibility clause to every entity and
group listed in the statute. The possibility that ANCs
might not qualify under the eligibility clause is hardly
fatal to carrying out Congress’s purpose under
ISDEAA. “Alaska Native village[s]” are also in the
statute. They can and do satisfy the eligibility clause—
in fact, there are 229 federally recognized Alaska
Native villages, see Chehalis Mot. at 18. Alaska Native
villages are therefore able to fulfill ISDEAA’s purpose
of allowing Indian tribes to assume responsibility for
federal aid programs that benefit its members;
Congress expressed no preference for ANCs to fulfill
the statute’s objectives. Accordingly, the ISDEAA
definition of “Indian tribe” does not compel reading the
eligibility clause to not apply to ANCs, as Defendant
and the ANC Amici posit.
4. Defendant and the ANCs rely heavily on
agency guidance and case law to advance their
position. See Def.’s Opp’n at 9-10; Ahtna Br. at 18-19.
Those sources, Defendants assert, support reading the
eligibility clause under ISDEAA as not applying to

App-119
ANCs, contrary to the statute’s plain text. Defendant,
for instance, points out that “immediately after this
definition was passed in 1975 as part of ISDEAA, the
Bureau of Indian Affairs (“BIA”) interpreted the
[eligibility] clause not to apply to ANCs—i.e., that they
need not satisfy the recognition clause.” Def.’s Opp’n
at 9. Evidently, BIA adheres to that interpretation
today. 11 Additionally, Defendant and the ANC amici
cite Cook Inlet, in which the Ninth Circuit confirmed
BIA’s reading of ISDEAA as “reasonable” and held
that ANCs can be considered “Indian Tribes” for
purposes of ISDEAA. 810 F.2d at 1476. These citations
to long-standing agency interpretation and a decadesold Ninth Circuit decision, the court is told, bear on
Congress’s present-day intent to include ANCs for
funding under Title V. The unstated assumption of
this argument is that Congress is presumed to have
known about these interpretations of ISDEAA and, by
incorporating its definition of “Indian tribe” into the
CARES Act, Congress meant to make ANCs eligible
for Title V funding. Though not without some appeal,
this argument is flawed for at least three reasons.
First, it is counter-textual. As discussed, a
straightforward reading of the eligibility clause of the
ISDEAA definition cannot be reasonably construed to
exclude ANCs. Agency interpretations to the contrary,
even if well-settled, cannot override congressional
intent conveyed through a statute’s plain text. See
11 Defendant does not cite to any contemporary guidance from
BIA regarding the ISDEAA definition that could confirm that the
agency continues to adhere to its original interpretation.
However, all parties appear to agree that BIA has not deviated
from its original interpretation.

App-120
SEC v. Sloan, 436 U.S. 103, 118 (1978) (“[C]ourts are
the final authorities on issues of statutory
construction, and are not obliged to stand aside and
rubber-stamp their affirmance of administrative
decisions that they deem inconsistent with a statutory
mandate or that frustrate the congressional policy
underlying a statute.” (internal quotation marks and
citation omitted)); Carlson v. Postal Regulatory
Comm’n, 938 F.3d 337, 349 (D.C. Cir. 2019) (“Even an
agency’s consistent and longstanding interpretation, if
contrary to statute, can be overruled.”). Nor can a
judicial decision supplant the clear text of a statute,
no matter how longstanding. See Milner v. Dep’t of
Navy, 562 U.S. 562, 576 (2011) (rejecting argument
that lower court decision should stand because it had
been followed and relied upon for 30 years, “because
we have no warrant to ignore clear statutory language
on the ground that other courts have done so”).
ISDEAA’s plain meaning therefore surmounts any
contrary agency or judicial interpretation.
Second, the administrative and judicial
interpretations put forward by Defendant and the
ANC amici are not as definitive as they appear at first
blush. It is true that “[w]hen administrative and
judicial interpretations have settled the meaning of an
existing statutory provision, repetition of the same
language in a new statute indicates, as a general
matter, the intent to incorporate its administrative
and judicial interpretations as well.” See Bragdon v.
Abbott, 524 U.S. 624, 645 (1998). But that
presumption
turns
on
whether
existing
interpretations have “settled the meaning” of a
statutory provision. That simply is not the case here.
For one, Cook Inlet is but one judicial decision, and “a

App-121
lone appellate case hardly counts” as establishing a
“‘judicial consensus so broad and unquestioned that [a
court] must presume Congress knew of and endorsed
it.’” United States v. Garcia Sota, 948 F.3d 356, 360
(D.C. Cir. 2020) (quoting Jama v. ICE, 543 U.S. 335,
349 (2005)). 12
More significantly, post-ISDEAA legislation and
judicial decisions raise the possibility that Congress
did not mean to signal, by adopting the ISDEAA
definition, that ANCs are eligible for Title V funds. In
1994, some two decades after enacting ISDEAA,
Congress passed the Federally Recognized Indian
Tribe List Act of 1994 (“List Act”), Pub. L. No. 103-454,
§ 103, 108 Stat. 4791. The List Act directed the
Secretary of the Interior to “publish in the Federal
Register a list of all Indian tribes which the Secretary
recognizes to be eligible for the special programs and
services provided by the United States to Indians
because of their status as Indians.” 25 U.S.C.
§ 5131(a). The Act’s purpose was to “maintain[ ] an
accurate, up-to-date list of federally recognized
tribes.” Koi Nation of N. Cal. v. Dep’t of Interior, 361
F. Supp. 3d 14, 59 (D.D.C. 2019). No ANC appears on
the Secretary’s last-published list, as of January 30,
2020. See Indian Entities Recognized by and Eligible
Defendant maintains that the continuing validity of Cook
Inlet is confirmed by a more recent decision from the Ninth
Circuit, Cook Inlet Treaty Tribes v. Shalala, 166 F.3d 986, 988
(9th Cir. 1999). See Def.’s Opp’n at 9. But that more recent
decision simply cites to Cook Inlet as part of its factual recitation,
see Cook Inlet Treaty Tribes, 166 F.3d at 988, and, in any event,
a subsequent decision from the same circuit does nothing to
create a “broad and unquestioned” judicial consensus, Jama, 543
U.S. at 349.
12

App-122
to Receive Services from the United States Bureau of
Indian Affairs, 85 Fed. Reg. 5,462 (Jan. 30, 2020). 13
Critically, since the List Act’s passage, the
government has taken the position, and courts have
agreed, that the definition of “Indian tribe” in various
federal statutes must be read in conjunction with the
List Act. In other words, unless the entity or group
appears on the Secretary’s List, it does not qualify as
an “Indian tribe.” For instance, in Wyandot Nation of
Kan. v. United States, the Federal Circuit held that
the plaintiff was not a qualified “Indian tribe”
permitted to demand an accounting under the
American Indian Trust Fund Management Reform
Act (“Reform Act”), Pub. L. No. 103-412, 108 Stat. 4239
(1994), because the plaintiff “is not on the list
maintained by the Secretary of the Interior.” 858 F.3d
1392, 1396, 1397-98 (Fed. Cir. 2017). The Reform Act’s
definition of “Indian tribe” is identical to the ISDEAA
definition of that term. Compare 25 U.S.C. § 4001(2)
with 25 U.S.C. § 5304(e). Interpreting the very same
statutory language at issue here, the government in
Wyandot argued that “a tribe cannot be a recognized
Indian tribe within the meaning of the Reform Act
unless it is recognized as such by the Secretary of the
Interior under the List Act,” 858 F.3d at 1398, and
even asserted that the eligibility clause found in the
Reform Act’s definition of “Indian Tribe”—that is, the
exact same clause contained in the ISDEAA definition
13 The most recent list contains 574 federally recognized Indian
tribes, including 229 Alaska Native villages—including Plaintiffs
Akiak Native Community, Asa’carsarmiut Tribe, and Aleut
Community of St. Paul Island. See Chehalis Mot. at 18; 85 Fed.
Reg. at 5,466, 5,467.

App-123
of “Indian Tribe”—“is a phrase of art defined in the
List Act, 25 U.S.C. § [5131(a)],” Br. of United States as
Appellee, Wyandot Nation of Kansas v. United States,
No. 2016-1654 (Doc. 18), 2016 WL 4442763, *24, *35
(Fed. Cir. Aug. 11, 2016). The Federal Circuit “was
persuaded that the List Act regulatory scheme
exclusively governs federal recognition of Indian
tribes.” 858 F.3d at 1398.
The decision in Slockish v. U.S. Fed. Highway
Admin., 682 F. Supp. 2d 1178 (D. Or. 2010), supplies
another example. There, the statute at issue was the
National Historic Preservation Act, which defines
“Indian tribe” in the same exact way as under
ISDEAA. Compare 54 U.S.C. § 300309 with 25 U.S.C.
§ 5304(e). The government argued there, as it did in
Wyandot, that the plaintiffs could not state a claim
under the relevant statute, because they were “not
federally recognized tribes.” 682 F. Supp. 2d at 1202
(citing the Secretary’s List as of December 19, 1988).
The court agreed and dismissed the plaintiffs’ claims.
See id.
Defendant does not satisfactorily explain why, in
post-List Act cases like Wyandot and Slockish, the
government has insisted that courts read the same
definition of “Indian tribe” at issue here with the List
Act, but not in this case. But no matter. The point is
that when Congress incorporated the ISDEAA
definition into the CARES Act, it is entirely plausible
for it to have understood, based on cases like Wyandot
and Slockish, that CARES Act eligibility under Title V
would be limited only to federally recognized tribes.
Those cases, along with the government’s post-List
Act litigation positions, defeats the notion that the

App-124
Ninth Circuit’s decision in Cook Inlet is such settled
law that Congress used that case’s understanding of
the ISDEAA definition of “Indian tribe” in the CARES
Act. 14
Third, Congress’s adoption of the ISDEAA
definition cannot be divorced from actual agency
practice under ISDEAA, which seemingly is to
contract with ANCs only, if at all, with tribal consent
or as a last resort. Although BIA has long viewed
ANCs as qualifying as “Indian tribes” under ISDEAA,
see Cook Inlet, 810 F.2d 1474, there is scant evidence
on the present record—in fact, none—that BIA or any
other federal agency has actually entered into a “selfdetermination contract,” or 638 agreement, with an
ANC. Defendant’s counsel’s inability to identify any
such current or past agreement between a federal
agency and an ANC is telling see Hr’g Tr. at 38, and
suggests that such contracts are at least rare.
Moreover, at least one agency, the Indian Health
Amici ANVCA and ARA make the additional point that in
American Federation of Government Employees, AFL-CIO v.
United States (“AFGE”), 330 F.3d 513, 516 (D.C. Cir. 2003), the
D.C. Circuit noted that certain Alaska Native Regional and
village corporations qualify as “Indian Tribes” under ISDEAA.
See Not. and Request to Correct Procedural Defect, Not. of
Controlling Authority, ECF No. 34. But amici overread AFGE.
While they are correct that the court in AFGE referred to the
ANCs at issue as “Indian Tribes” and cited to ISDEAA, the case
sheds no light on the issues relevant here. AFGE concerned an
equal protection challenge to an appropriations act that gave
preference to firms with 51 percent Native American ownership
in defense contracting. 330 F.3d at 516-17. The court had no
occasion to consider ANCs’ status as it pertains to the ISDEAA
definition, and the court’s statement that the ANCs “are federally
recognized Indian tribes” is better viewed as dicta. See id.
14

App-125
Service, has adopted guidelines that create a
contracting hierarchy that prefers agreements for
health services with Alaskan villages councils over
ANCs. See Alaska Area Guidelines for Tribal
Clearances for Indian Self-Determination Contracts,
46 Fed. Reg. 27,178-02 (May 18, 1981). Based on those
guidelines, one court has held that an ANC cannot
maintain a self-determination contract absent tribal
villages’ consent. See Ukpeagvik Inupiat Corp. v. Dep’t
of Health and Human Servs., Case No. 3:13-cv-00073TMB, 2013 WL 12119576, at *2-3 (D. Alaska May 20,
2013).
This real-world treatment of ANCs by federal
agencies under ISDEAA is informative. It tells the
court, even if an ANC can be potentially treated as an
“Indian tribe” under ISDEAA, they rarely are. And
that infrequent treatment prevents the court from
concluding at this stage that, by using ISDEAA’s
definition of “Indian tribe” in the CARES Act,
Congress necessarily signaled its intent to treat ANCs
and federally recognized tribes as equals for purposes
of Title V funding eligibility.
5. Defendant and the ANC amici make another
argument concerning Congress’s selection of the
ISDEAA definition of “Indian tribe” for the CARES
Act. They point out that the List Act’s definition of
“Indian tribe” clearly excludes ANCs. See Def.’s Opp’n
at 11; Ahtna Br. at 18-19. The List Act defines “Indian
tribe” to mean “any Indian or Alaska Native tribe,
band, nation, pueblo, village or community that the
Secretary of the Interior acknowledges to exist as an
Indian tribe.” 25 U.S.C. § 5130(2). That clearly defined
exclusion of ANCs begs the question: If Congress

App-126
wanted to exclude ANCs from receiving CARES Act
funds, why not incorporate the definition of “Indian
tribe” from the List Act, or refer expressly to the
published list itself? As amicus Ahtna puts it, “if
Congress wanted to exclude [ANCs] it could have done
so and in a much less convoluted way.” Ahtna Br. at
19. That is a fair point, but it loses its luster when
viewed against the backdrop of the post-List Act case
law and government litigation positions described
above. Congress could have intended that the ISDEAA
definition of “Indian Tribe” exclude ANCs under the
CARES Act in the same way that the identical
ISDEAA definitions exclude non-federally recognized
tribes under the Reform Act and the National Historic
Preservation Act. The court therefore can glean no
definitive congressional intent as to the inclusion or
exclusion of ANCs under the CARES Act by Congress’s
selection of the ISDEAA definition over the List Act
definition.
6. Defendant also resists reading the word
“recognized” used in the CARES Act’s definition of
“Tribal government” as a legal term of art. See Def.’s
Opp’n at 18. The Secretary points out that
“recognized” as used in the CARES Act does not
necessarily mean federal recognition, as understood in
other statutes. Statutes that do expressly concern
federal recognition, according to Defendant, use
different words to signify that term of art. The List
Act, for example, uses the phrase “recognized tribes
published by the Secretary,” 25 U.S.C. § 5130(3), and
the Indian Gaming Regulatory Act refers to tribes or
groups that are “recognized as eligible by the
Secretary,” 25 U.S.C. § 2703(5)(A).

App-127
The court, however, does not view those modest
statutory textual differences as bearing the weight
that Defendant gives them. As already discussed, in
other statutes where the word “recognized” appears
alone in the statutory text, such as the Reform Act and
the National Historic Preservation Act, see 25 U.S.C.
§ 4001(2); 54 U.S.C. § 300309, the government has
equated the term with federal recognition, see
Wyandot, 858 F.3d at 1398; Slockish, 682 F. Supp. 2d
at 1202. It is not clear why the government takes a
different view here. Moreover, given the history and
significance of the term “recognition” in Indian law,
the court doubts that Congress would have used the
term if it did not mean to equate it with federal
recognition. The word “recognize” as it appears in the
CARES Act is thus best understood as a legal term of
art that no ANC presently satisfies.
7. Finally, Defendant refutes that statutory
context supports Plaintiffs’ position. Citing the fact
that tribal governments generate revenues from forprofit business operations, like casinos, Defendant
contend that “Plaintiffs’ argument assumes
incorrectly that there is a clean dividing line between
government and business operations . . . . [such that]
Title V eligibility cannot turn on whether the recipient
is engaged in profitable businesses.” Def.’s Mot. at 1112. But Plaintiffs’ position, with which the court
agrees, does not depend on a “clean dividing line.”
Rather, the question is whether treating an ANC’s
board of directors as a “Tribal government” makes
sense when the other identified recipients of Title V
funds include “States” and “units of local government.”
See 42 U.S.C. § 801(a)(1). It does not.

App-128
***
In summary, the court finds that Plaintiffs have
met their burden of showing a likelihood of success on
the merits of their claim.
C. Balance of the Equities and the Public
Interest
The court turns finally to the remaining two
injunctive relief factors: the balance of the equities
and the public interest. Where the federal government
is the opposing party, these two factors merge. See
Nken, 556 U.S. at 435. Thus, in this case, the balance
of the equities requires the court to “weigh[] the harm
to [Plaintiffs] if there is no injunction against the harm
to [the Treasury Department] if there is.” Pursuing
Am.’s Greatness, 831 F.3d at 511. The agency’s harm
and “the public interest are one and the same, because
the government’s interest is the public interest.” Id.
For the reasons already discussed, the harm to
Plaintiffs absent an injunction will be great. The court
need not recite the challenges that Plaintiffs are
presently facing and will continue to face with reduced
funding, though it notes that other Indian tribal
governments who are not involved in this action also
would benefit from an injunction. On the other side of
the balance, the tangible harm claimed by the agency
from an injunction is not substantiated. Defendant
contends that halting disbursement of funds to ANCs
would harm the native Alaskan communities that
they serve. See Def.’s Opp’n at 23. But neither
Defendant nor the ANC Amici present actual evidence
demonstrating that ANCs are currently providing
public services comparable to Plaintiffs to combat the
coronavirus pandemic. See id. at 23 (citing no evidence

App-129
and simply cross-referencing ANVCA Br. at 15-16,
which identifies no coronavirus-related public
services); Ahtna Br. at 2-3 (stating that Ahtna
provides a “litany of social, educational, and healthrelated services,” but not specifying what those are
services are with respect to the coronavirus pandemic
or specifying how Title V funds would be used);
ANVCA Br. at 16 (asserting, without detail or factual
support, that “[s]ervices ANCs currently provide pale
in comparison to what will be demanded of them in the
future”). Moreover, it appears that ANCs may be
eligible for funding made available in other parts of
the CARES Act, see Def.’s Br. at 11 (stating that
Congress could have “reasonably provided two
avenues of relief for an entity in the CARES Act”), so
whatever coronavirus-related services they do provide
arguably could come from a different pot of
appropriated funds. The claimed harm to ANCs from
an injunction is simply not supported by the record.
Both sides also assert that the public interest is
served by carrying out Congress’s intent; in Plaintiffs’
view, that means denying ANCs Title V funds, and in
Defendant’s view, that means not interfering with the
discretionary allocation of funds to ANCs. See
Chehalis Mot. at 36-37; Cheyenne River Mot. at 34-35;
Def.’s Opp’n at 23. Because, as already discussed, the
court finds that Plaintiffs have established a
likelihood of success of showing that ANCs do not
qualify for Title V funds, the public interest factor
favors preliminarily enjoining the Secretary from
disbursing Title V funds to ANCs. See League of
Women Voters of United States v. Newby, 838 F.3d 1,
12 (D.C. Cir. 2016) (stating that “there is a substantial
public interest ‘in having governmental agencies abide

App-130
by the federal laws that govern their existence and
operations’”) (quoting Washington v. Reno, 35 F.3d
1093, 1103 (6th Cir. 1994)).
VI.
Although the court has determined that an
injunction is warranted, it does not grant relief to the
full extent requested by Plaintiffs. The D.C. Circuit
has “long held that ‘[a]n injunction must be narrowly
tailored to remedy the specific harm shown.’” Neb.
Dep’t of Health & Human Servs. v. Dep’t of Health &
Human Servs., 435 F.3d 326, 330 (D.C. Cir. 2006)
(quoting Aviation Consumer Action Project v.
Washburn, 535 F.2d 101, 108 (D.C. Cir. 1976)). Here,
preliminarily enjoining the Secretary from disbursing
funds to ANCs remedies the immediate harm that
Plaintiffs face—the payment of Title V funds to ANCs
that will be unrecoverable once made. The added relief
that Plaintiffs seek—an order directing the Secretary
to distribute the full $8 billion only to federally
recognized tribes—is greater than necessary to protect
them against that injury. To be sure, the more limited
remedy could mean that Plaintiffs will receive a lesser
share of Title V funds in the short term, if the
Secretary decides to award some money to ANCs and
withholds those payments to comply with the court’s
order. But at least such funds will remain available for
later disbursement to federally recognized tribes for
coronavirus-related public services, if the court
ultimately enters a final judgment in Plaintiffs’ favor.
VII.
For the foregoing reasons, the court grants in part
the Chehalis Plaintiffs’, Cheyenne River Plaintiffs’,
and Ute Plaintiff’s Motions for a Temporary

App-131
Restraining Order and Preliminary Injunction, ECF
No. 3; No. 20-cv-1059, ECF No 4; No. 20-cv-1070, ECF
No. 5. An Order entering the preliminary injunction
accompanies this Memorandum Opinion.
[handwritten: signature]
Dated: April 27, 2020

Amit P. Mehta
United States District
Court Judge

App-132
Appendix G
RELEVANT STATUTORY PROVISIONS
25 U.S.C. § 5304. Definitions
For purposes of this chapter, the term-(a) “construction programs” means programs for the
planning, design, construction, repair, improvement,
and expansion of buildings or facilities, including, but
not limited to, housing, law enforcement and
detention facilities, sanitation and water systems,
roads, schools, administration and health facilities,
irrigation and agricultural work, and water
conservation, flood control, or port facilities;
(b) “contract funding base” means the base level from
which contract funding needs are determined,
including all contract costs;
(c) “direct program costs” means costs that can be
identified specifically with a particular contract
objective;
(d) “Indian” means a person who is a member of an
Indian tribe;
(e) “Indian tribe” means any Indian tribe, band,
nation, or other organized group or community,
including any Alaska Native village or regional or
village corporation as defined in or established
pursuant to the Alaska Native Claims Settlement Act
(85 Stat. 688), which is recognized as eligible for the
special programs and services provided by the United
States to Indians because of their status as Indians;
(f) “indirect costs” means costs incurred for a
common or joint purpose benefiting more than one
contract objective, or which are not readily assignable

App-133
to the contract objectives specifically benefited
without effort disproportionate to the results
achieved;
(g) “indirect cost rate” means the rate arrived at
through negotiation between an Indian tribe or tribal
organization and the appropriate Federal agency;
(h) “mature contract” means a self-determination
contract that has been continuously operated by a
tribal organization for three or more years, and for
which there are no significant and material audit
exceptions in the annual financial audit of the tribal
organization: Provided, That upon the request of a
tribal organization or the tribal organization's Indian
tribe for purposes of section 5321(a) of this title, a
contract of the tribal organization which meets this
definition shall be considered to be a mature contract;
(i) “Secretary”, unless otherwise designated, means
either the Secretary of Health and Human Services or
the Secretary of the Interior or both;
(j) “self-determination contract” means a contract (or
grant or cooperative agreement utilized under section
5308 of this title) entered into under subchapter I of
this chapter between a tribal organization and the
appropriate Secretary for the planning, conduct and
administration of programs or services which are
otherwise provided to Indian tribes and their
members pursuant to Federal law: Provided, That
except as provided 1 the last proviso in section 5324(a)
of this title, no contract (or grant or cooperative
agreement utilized under section 5308 of this title)

1

So in original. Probably should be “provided in”.

App-134
entered into under subchapter I of this chapter shall
be construed to be a procurement contract;
(k) “State education agency” means the State board
of education or other agency or officer primarily
responsible for supervision by the State of public
elementary and secondary schools, or, if there is no
such officer or agency, an officer or agency designated
by the Governor or by State law;
(l) “tribal organization” means the recognized
governing body of any Indian tribe; any legally
established organization of Indians which is
controlled, sanctioned, or chartered by such governing
body or which is democratically elected by the adult
members of the Indian community to be served by
such organization and which includes the maximum
participation of Indians in all phases of its activities:
Provided, That in any case where a contract is let or
grant made to an organization to perform services
benefiting more than one Indian tribe, the approval of
each such Indian tribe shall be a prerequisite to the
letting or making of such contract or grant; and
(m) “construction contract” means a fixed-price or
cost-reimbursement self-determination contract for a
construction project, except that such term does not
include any contract—
(1) that is limited to providing planning services
and construction management services (or a
combination of such services);
(2) for the Housing Improvement Program or
roads maintenance program of the Bureau of
Indian Affairs administered by the Secretary of
the Interior; or

App-135
(3) for the health facility maintenance and
improvement program administered by the
Secretary of Health and Human Services.
42 U.S.C. § 801. Coronavirus relief fund
(a) Appropriation
(1) In general
Out of any money in the Treasury of the United
States not otherwise appropriated, there are
appropriated for making payments to States,
Tribal governments, and units of local
government under this section, $150,000,000,000
for fiscal year 2020.
(2) Reservation of funds
Of the amount appropriated under paragraph (1),
the Secretary shall reserve—
(A) $3,000,000,000 of such amount for
making payments to the District of Columbia,
the Commonwealth of Puerto Rico, the
United States Virgin Islands, Guam, the
Commonwealth of the Northern Mariana
Islands, and American Samoa; and
(B) $8,000,000,000 of such amount for
making payments to Tribal governments.
(b) Authority to make payments
(1) In general
Subject to paragraph (2), not later than 30 days
after March 27, 2020, the Secretary shall pay each
State and Tribal government, and each unit of
local government that meets the condition
described in paragraph (2), the amount
determined for the State, Tribal government, or

App-136
unit of local government, for fiscal year 2020
under subsection (c).
(2) Direct payments
government

to

units

of

local

If a unit of local government of a State submits
the certification required by subsection (e) for
purposes of receiving a direct payment from the
Secretary under the authority of this paragraph,
the Secretary shall reduce the amount
determined for that State by the relative unit of
local government population proportion amount
described in subsection (c)(5) and pay such
amount directly to such unit of local government.
(c) Payment amounts
(1) In general
Subject to paragraph (2), the amount paid under
this section for fiscal year 2020 to a State that is
1 of the 50 States shall be the amount equal to the
relative
population
proportion
amount
determined for the State under paragraph (3) for
such fiscal year.
(2) Minimum payment
(A) In general
No State that is 1 of the 50 States shall
receive a payment under this section for fiscal
year 2020 that is less than $1,250,000,000.
(B) Pro rata adjustments
The Secretary shall adjust on a pro rata basis
the amount of the payments for each of the 50
States determined under this subsection
without regard to this subparagraph to the

App-137
extent necessary to comply with
requirements of subparagraph (A).

the

(3) Relative population proportion amount
For purposes of paragraph (1), the relative
population proportion amount determined under
this paragraph for a State for fiscal year 2020 is
the product of—
(A) the
amount
appropriated
under
paragraph (1) of subsection (a) for fiscal year
2020 that remains after the application of
paragraph (2) of that subsection; and
(B) the relative State population proportion
(as defined in paragraph (4)).
(4) Relative State population proportion
defined
For purposes of paragraph (3)(B), the term
“relative State population proportion” means,
with respect to a State, the quotient of—
(A) the population of the State; and
(B) the total population of all States
(excluding the District of Columbia and
territories specified in subsection (a)(2)(A)).
(5) Relative unit of local government
population proportion amount
For purposes of subsection (b)(2), the term
“relative unit of local government population
proportion amount” means, with respect to a unit
of local government and a State, the amount equal
to the product of—
(A) 45 percent of the amount of the payment
determined for the State under this

App-138
subsection
(without
paragraph); and

regard

to

this

(B) the amount equal to the quotient of-(i) the population of the unit of local
government; and
(ii) the total population of the State in
which the unit of local government is
located.
(6) District of Columbia and territories
The amount paid under this section for fiscal year
2020 to a State that is the District of Columbia or
a territory specified in subsection (a)(2)(A) shall
be the amount equal to the product of—
(A) the amount set aside under subsection
(a)(2)(A) for such fiscal year; and
(B) each such District's and territory's share
of the combined total population of the
District of Columbia and all such territories,
as determined by the Secretary.
(7) Tribal governments
From the amount set aside under subsection
(a)(2)(B) for fiscal year 2020, the amount paid
under this section for fiscal year 2020 to a Tribal
government shall be the amount the Secretary
shall determine, in consultation with the
Secretary of the Interior and Indian Tribes, that
is based on increased expenditures of each such
Tribal government (or a tribally-owned entity of
such Tribal government) relative to aggregate
expenditures in fiscal year 2019 by the Tribal
government (or tribally-owned entity) and

App-139
determined in such manner as the Secretary
determines appropriate to ensure that all
amounts available under subsection (a)(2)(B) for
fiscal year 2020 are distributed to Tribal
governments.
(8) Data
For purposes of this subsection, the population of
States and units of local governments shall be
determined based on the most recent year for
which data are available from the Bureau of the
Census.
(d) Use of funds
A State, Tribal government, and unit of local
government shall use the funds provided under a
payment made under this section to cover only those
costs of the State, Tribal government, or unit of local
government that—
(1) are necessary expenditures incurred due to
the public health emergency with respect to the
Coronavirus Disease 2019 (COVID-19);
(2) were not accounted for in the budget most
recently approved as of March 27, 2020, for the
State or government; and
(3) were incurred during the period that begins
on March 1, 2020, and ends on December 30, 2020.
(e) Certification
In order to receive a payment under this section, a unit
of local government shall provide the Secretary with a
certification signed by the Chief Executive for the unit
of local government that the local government's

App-140
proposed uses of the funds are consistent with
subsection (d).
(f) Inspector General oversight; recoupment
(1) Oversight authority
The Inspector General of the Department of the
Treasury shall conduct monitoring and oversight
of the receipt, disbursement, and use of funds
made available under this section.
(2) Recoupment
If the Inspector General of the Department of the
Treasury determines that a State, Tribal
government, or unit of local government has failed
to comply with subsection (d), the amount equal
to the amount of funds used in violation of such
subsection shall be booked as a debt of such entity
owed to the Federal Government. Amounts
recovered under this subsection shall be deposited
into the general fund of the Treasury.
(3) Appropriation
Out of any money in the Treasury of the United
States not otherwise appropriated, there are
appropriated to the Office of the Inspector
General of the Department of the Treasury,
$35,000,000 to carry out oversight and
recoupment
activities
under
this
subsection. Amounts appropriated under the
preceding sentence shall remain available until
expended.
(4) Authority of Inspector General
Nothing in this subsection shall be construed to
diminish the authority of any Inspector General,

App-141
including such authority as provided in the
Inspector General Act of 1978 (5 U.S.C. App.).
(g) Definitions
In this section:
(1) Indian Tribe
The term “Indian Tribe” has the meaning given
that term in section 5304(e) of Title 25.
(2) Local government
The term “unit of local government” means a
county, municipality, town, township, village,
parish, borough, or other unit of general
government below the State level with a
population that exceeds 500,000.
(3) Secretary
The term “Secretary” means the Secretary of the
Treasury.
(4) State
The term “State” means the 50 States, the District
of Columbia, the Commonwealth of Puerto Rico,
the United States Virgin Islands, Guam, the
Commonwealth of the Northern Mariana Islands,
and American Samoa.
(5) Tribal government
The term “Tribal government” means the
recognized governing body of an Indian Tribe.

App-142
43 U.S.C. § 1601. Congressional findings and
declaration of policy
Congress finds and declares that-(a) there is an immediate need for a fair and just
settlement of all claims by Natives and Native
groups of Alaska, based on aboriginal land claims;
(b) the settlement should be accomplished
rapidly, with certainty, in conformity with the
real economic and social needs of Natives, without
litigation, with maximum participation by
Natives in decisions affecting their rights and
property, without establishing any permanent
racially defined institutions, rights, privileges, or
obligations, without creating a reservation system
or lengthy wardship or trusteeship, and without
adding to the categories of property and
institutions enjoying special tax privileges or to
the legislation establishing special relationships
between the United States Government and the
State of Alaska;
(c) no provision of this chapter shall replace or
diminish any right, privilege, or obligation of
Natives as citizens of the United States or of
Alaska, or relieve, replace, or diminish any
obligation of the United States or of the State or 1
Alaska to protect and promote the rights or
welfare of Natives as citizens of the United States
or of Alaska; the Secretary is authorized and
directed, together with other appropriate agencies
of the United States Government, to make a study
of all Federal programs primarily designed to
1

So in original. Probably should be “of”.

App-143
benefit Native people and to report back to the
Congress with his recommendations for the future
management and operation of these programs
within three years of December 18, 1971;
(d) no provision of this chapter shall constitute a
precedent for reopening, renegotiating, or
legislating upon any past settlement involving
land claims or other matters with any Native
organizations, or any tribe, band, or identifiable
group of American Indians;
(e) no provision of this chapter shall effect a
change or changes in the petroleum reserve policy
reflected in sections 8721 through 8738 of Title 10
except as specifically provided in this chapter;
(f) no provision of this chapter shall be construed
to constitute a jurisdictional act, to confer
jurisdiction to sue, nor to grant implied consent to
Natives to sue the United States or any of its
officers with respect to the claims extinguished by
the operation of this chapter; and
(g) no provision of this chapter shall be construed
to terminate or otherwise curtail the activities of
the Economic Development Administration or
other Federal agencies conducting loan or loan
and grant programs in Alaska. For this purpose
only, the terms “Indian reservation” and “trust or
restricted Indian-owned land areas” in Public
Law 89-136, the Public Works and Economic
Development Act of 1965, as amended, shall be
interpreted to include lands granted to Natives
under this chapter as long as such lands remain
in the ownership of the Native villages or the
Regional Corporations.

App-144
43 U.S.C. § 1606. Regional Corporations
(a) Division of Alaska into twelve geographic
regions; common heritage and common interest
of region; area of region commensurate with
operations of Native association; boundary
disputes, arbitration
For purposes of this chapter, the State of Alaska shall
be divided by the Secretary within one year after
December 18, 1971, into twelve geographic regions,
with each region composed as far as practicable of
Natives having a common heritage and sharing
common interests. In the absence of good cause shown
to the contrary, such regions shall approximate the
areas covered by the operations of the following
existing Native associations:
(1) Arctic Slope Native Association (Barrow,
Point Hope);
(2) Bering
Straits
Association
(Seward
Peninsula, Unalakleet, Saint Lawrence Island);
(3) Northwest
(Kotzebue);

Alaska

Native

Association

(4) Association of Village Council Presidents
(southwest coast, all villages in the Bethel area,
including all villages on the Lower Yukon River
and the Lower Kuskokwim River);
(5) Tanana Chiefs' Conference (Koyukuk, Middle
and Upper Yukon Rivers, Upper Kuskokwim,
Tanana River);
(6) Cook Inlet Association
Eklutna, Iliamna);

(Kenai,

Tyonek,

App-145
(7) Bristol Bay Native Association (Dillingham,
Upper Alaska Peninsula);
(8) Aleut League (Aleutian Islands, Pribilof
Islands and that part of the Alaska Peninsula
which is in the Aleut League);
(9) Chugach Native Association (Cordova,
Tatitlek, Port Graham, English Bay, Valdez, and
Seward);
(10) Tlingit-Haida Central Council (southeastern
Alaska, including Metlakatla);
(11) Kodiak Area Native Association (all villages
on and around Kodiak Island); and
(12) Copper River Native Association (Copper
Center, Glennallen, Chitina, Mentasta).
Any dispute over the boundaries of a region or regions
shall be resolved by a board of arbitrators consisting
of one person selected by each of the Native
associations involved, and an additional one or two
persons, whichever is needed to make an odd number
of arbitrators, such additional person or persons to be
selected by the arbitrators selected by the Native
associations involved.
(b) Region mergers; limitation
The Secretary may, on request made within one year
of December 18, 1971, by representative and
responsible leaders of the Native associations listed in
subsection (a) of this section, merge two or more of the
twelve regions: Provided, That the twelve regions may
not be reduced to less than seven, and there may be no
fewer than seven Regional Corporations.

App-146
(c) Establishment of thirteenth region for
nonresident Natives; majority vote; Regional
Corporation for thirteenth region
If a majority of all eligible Natives eighteen years of
age or older who are not permanent residents of
Alaska elect, pursuant to section 1604(c) of this title,
to be enrolled in a thirteenth region for Natives who
are non-residents of Alaska, the Secretary shall
establish such a region for the benefit of the Natives
who elected to be enrolled therein, and they may
establish a Regional Corporation pursuant to this
chapter.
(d) Incorporation; business for profit; eligibility
for benefits; provisions in articles for carrying
out chapter
Five incorporators within each region, named by the
Native association in the region, shall incorporate
under the laws of Alaska a Regional Corporation to
conduct business for profit, which shall be eligible for
the benefits of this chapter so long as it is organized
and functions in accordance with this chapter. The
articles of incorporation shall include provisions
necessary to carry out the terms of this chapter.
(e) Original articles and bylaws: approval by
Secretary prior to filing, submission for
approval; amendments to articles: approval by
Secretary; withholding approval in event of
creation of inequities among Native individuals
or groups
The original articles of incorporation and bylaws shall
be approved by the Secretary before they are filed, and
they shall be submitted for approval within eighteen
months after December 18, 1971. The articles of

App-147
incorporation may not be amended during the
Regional Corporation's first five years without the
approval of the Secretary. The Secretary may
withhold approval under this section if in his
judgment inequities among Native individuals or
groups of Native individuals would be created.
(f) Board
of
directors;
management;
stockholders; provisions in articles or bylaws
for number, term, and method of election
The management of the Regional Corporation shall be
vested in a board of directors, all of whom, with the
exception of the initial board, shall be stockholders
over the age of eighteen. The number, terms, and
method of election of members of the board of directors
shall be fixed in the articles of incorporation or bylaws
of the Regional Corporation.
(g) Issuance of stock
(1) Settlement Common Stock
(A) The Regional Corporation shall be
authorized to issue such number of shares of
Settlement Common Stock (divided into such
classes as may be specified in the articles of
incorporation to reflect the provisions of this
chapter) as may be needed to issue one
hundred shares of stock to each Native
enrolled in the region pursuant to section
1604 of this title.
(B)(i) A Regional Corporation may amend
its articles of incorporation to authorize
the issuance of additional shares of
Settlement Common Stock to--

App-148
(I) Natives born after December 18,
1971, and, at the further option of
the Corporation, descendants of
Natives born after December 18,
1971,
(II) Natives who were eligible for
enrollment
pursuant
to section
1604 of this title but were not so
enrolled, or
(III) Natives who have attained the
age of 65, for no consideration or for
such consideration and upon such
terms and conditions as may be
specified in such amendment or in a
resolution approved by the board of
directors pursuant to authority
expressly vested in the board by the
amendment. The amendment to the
articles of incorporation may specify
which class of Settlement Common
Stock shall be issued to the various
groups of Natives.
(ii) Not more than one hundred shares of
Settlement Common Stock shall be
issued to any one individual pursuant to
clause (i).
(iii) Conditions on certain stock
(I) In general
An amendment under clause (i) may
provide that Settlement Common
Stock issued to a Native pursuant to
the amendment (or stock issued in

App-149
exchange for that Settlement
Common
Stock
pursuant
to
subsection
(h)(3)
or
section
1626(c)(3)(D) of this title) shall be
subject to 1 or more of the conditions
described in subclause (II).
(II) Conditions
A condition referred to in subclause
(I) is a condition that—
(aa) the stock described in that
subclause shall be deemed to be
canceled on the death of the
Native to whom the stock is
issued, and no compensation for
the cancellation shall be paid to
the estate of the deceased Native
or any person holding the stock;
(bb) the stock shall carry limited
or no voting rights; and
(cc) the stock shall not be
transferred
by
gift
under
subsection (h)(1)(C)(iii).
(iv) Settlement Common Stock issued
pursuant to clause (i) shall not carry
rights to share in distributions made to
shareholders pursuant to subsections (j)
and (m) of this section unless, prior to the
issuance of such stock, a majority of the
class of existing holders of Settlement
Common Stock carrying such rights
separately approve the granting of such
rights. The articles of incorporation of the

App-150
Regional Corporation shall be deemed to
be amended to authorize such class vote.
(C)(i) A Regional Corporation may amend
its articles of incorporation to authorize
the issuance of additional shares of
Settlement Common Stock as a dividend
or other distribution (without regard to
surplus of the corporation under the laws
of the State) upon each outstanding
share of Settlement Common Stock
issued pursuant to subparagraphs (A)
and (B).
(ii) The amendment authorized by
clause (i) may provide that shares of
Settlement Common Stock issued as a
dividend or other distribution shall
constitute a separate class of stock with
greater per share voting power than
Settlement Common Stock issued
pursuant to subparagraphs (A) and (B).
(2) Other forms of stock
(A) A Regional Corporation may amend its
articles of incorporation to authorize the
issuance of shares of stock other than
Settlement Common Stock in accordance
with the provisions of this paragraph. Such
amendment may provide that-(i) preemptive rights of shareholders
under the laws of the State shall not
apply to the issuance of such shares, or

App-151
(ii) issuance of such shares shall
permanently preclude the corporation
from-(I) conveying assets to a Settlement
Trust, or
(II) issuing shares of stock without
adequate consideration as required
under the laws of the State.
(B) The
amendment
authorized
by
subparagraph (A) may provide that the stock
to be issued shall be one or more of the
following-(i) divided into classes and series within
classes, with preferences, limitations,
and relative rights, including, without
limitation-(I) dividend rights,
(II) voting rights, and
(III) liquidation preferences;
(ii) made subject to one or more of-(I) the restrictions on alienation
described in clauses (i), (ii), and (iv)
of subsection (h)(1)(B) of this section,
and
(II) the restriction described
paragraph (1)(B)(iii); and

in

(iii) restricted in issuance to-(I) Natives who have attained the
age of sixty-five;

App-152
(II) other identifiable groups of
Natives or identifiable groups of
descendants of Natives defined in
terms of general applicability and
not in any way by reference to place
of residence or family;
(III) Settlement Trusts; or
(IV) entities established for the sole
benefit of Natives or descendants of
Natives, in which the classes of
beneficiaries are defined in terms of
general applicability and not in any
way by reference to place of residence,
family, or position as an officer,
director, or employee of a Native
Corporation.
(C) The
amendment
authorized
by
subparagraph (A) shall provide that the
additional shares of stock shall be issued-(i) as a dividend or other distribution
(without regard to surplus of the
corporation under the laws of the State)
upon all outstanding shares of stock of
any class or series, or
(ii) for such consideration as may be
permitted by law (except that this
requirement may be waived with respect
to issuance of stock to the individuals or
entities described in subparagraph
(B)(iii)).
(D) During any period in which alienability
restrictions are in effect, no stock whose

App-153
issuance is authorized by subparagraph (A)
shall be-(i) issued to, or for the benefit of, a
group of individuals composed only or
principally of employees, officers, and
directors of the corporation; or
(ii) issued more than thirteen months
after the date on which the vote of the
shareholders
on
the
amendment
authorizing the issuance of such stock
occurred if, as a result of the issuance,
the outstanding shares of Settlement
Common Stock will represent less than a
majority of the total voting power of the
corporation for the purpose of electing
directors.
(3) Disclosure requirements
(A) An amendment to the articles of
incorporation of a Regional Corporation
authorized by paragraph (2) shall specify-(i) the maximum number of shares of
any class or series of stock that may be
issued, and
(ii) the maximum number of votes that
may be held by such shares.
(B)(i) If the board of directors of a Regional
Corporation intends to propose an
amendment pursuant to paragraph (2)
which would authorize the issuance of
classes or series of stock that, singly or in
combination, could cause the outstanding
shares of Settlement Common Stock to

App-154
represent less than a majority of the total
voting power of the corporation for the
purposes of electing directors, the
shareholders of such corporation shall be
expressly so informed.
(ii) Such
information
shall
be
transmitted to the shareholders in a
separate disclosure statement or in
another informational document in
writing or in recorded sound form both in
English and any Native language used by
a shareholder of such corporation. Such
statement or informational document
shall be transmitted to the shareholders
at least sixty days prior to the date on
which such proposal is to be submitted
for a vote.
(iii) If not later than thirty days after
issuance of such disclosure statement or
informational document the board of
directors receives a prepared concise
statement setting forth arguments in
opposition to the proposed amendment
together with a request for distribution
thereof signed by the holders of at least
10 per centum of the outstanding shares
of Settlement Common Stock, the board
shall either distribute such statement to
the shareholders or provide to the
requesting shareholders a list of all
shareholder's names and addresses so
that the requesting shareholders may
distribute such statement.

App-155
(4) Savings
(A)(i) No shares of stock issued pursuant to
paragraphs (1)(C) and (2) shall carry
rights to share in distributions made to
shareholders pursuant to subsections (j)
and (m) of this section. No shares of stock
issued pursuant to paragraph (1)(B) shall
carry such rights unless authorized
pursuant to paragraph (1)(B)(iv).
(ii) Notwithstanding the issuance of
additional shares of stock pursuant to
paragraphs 1 (1)(B), (1)(C), or (2), a
Regional Corporation shall apply the
ratio last computed pursuant to
subsection (m) of this section prior to
February 3, 1988, for purposes of
distributing
funds
pursuant
to
subsections (j) and (m) of this section.
(B) The issuance of additional shares of stock
pursuant to paragraphs1 (1)(B), (1)(C), or (2)
shall not affect the division and distribution
of revenues pursuant to subsection (i) of this
section.
(C) No provision of this chapter shall limit
the right of a Regional Corporation to take an
action authorized by the laws of the State
unless such action is inconsistent with the
provisions of this chapter.

1

So in original. Probably should be “paragraph”.

App-156
(h) Settlement Common Stock
(1) Rights and restrictions
(A) Except as otherwise expressly provided
in this chapter, Settlement Common Stock of
a Regional Corporation shall-(i) carry a right to vote in elections for
the board of directors and on such other
questions as properly may be presented
to shareholders;
(ii) permit the holder to receive
dividends or other distributions from the
corporation; and
(iii) vest in the holder all rights of a
shareholder in a business corporation
organized under the laws of the State.
(B) Except as otherwise provided in this
subsection, Settlement Common Stock,
inchoate rights thereto, and rights to
dividends or distributions declared with
respect thereto shall not be-(i) sold;
(ii) pledged;
(iii) subjected to a lien or judgment
execution;
(iv) assigned in present or future;
(v) treated as an asset under-(I) Title 11 or any successor statute,
(II) any
other
insolvency
moratorium law, or

or

App-157
(III) other laws generally affecting
creditors' rights; or
(vi) otherwise alienated.
(C) Notwithstanding the restrictions set
forth in subparagraph (B), Settlement
Common Stock may be transferred to a
Native or a descendant of a Native-(i) pursuant to a court decree
separation, divorce, or child support;

of

(ii) by a holder who is a member of a
professional organization, association, or
board that limits his or her ability to
practice his or her profession because he
or she holds Settlement Common Stock;
or
(iii) as an inter vivos gift from a holder to
his or her child, grandchild, greatgrandchild, niece, nephew, or (if the
holder has reached the age of majority as
defined by the laws of the State of
Alaska)
brother
or
sister,
notwithstanding
an
adoption,
relinquishment, or termination of
parental rights that may have altered or
severed the legal relationship between
the gift donor and recipient.
(2) Inheritance
Stock

of

Settlement

Common

(A) Upon the death of a holder of Settlement
Common Stock, ownership of such stock
(unless canceled in accordance with
subsection (g)(1)(B)(iii) of this section) shall

App-158
be transferred in accordance with the lawful
will of such holder or pursuant to applicable
laws of intestate succession. If the holder fails
to dispose of his or her stock by will and has
no heirs under applicable laws of intestate
succession, the stock shall escheat to the
issuing Regional Corporation and be
canceled.
(B) The issuing Regional Corporation shall
have the right to purchase at fair value
Settlement Common Stock transferred
pursuant to applicable laws of intestate
succession to a person not a Native or a
descendant of a Native after February 3,
1988, if-(i) the corporation-(I) amends
its
articles
of
incorporation to authorize such
purchases, and
(II) gives the person receiving such
stock written notice of its intent to
purchase within ninety days after
the date that the corporation either
determines the decedent's heirs in
accordance with the laws of the State
or receives notice that such heirs
have been determined, whichever
later occurs; and
(ii) the person receiving such stock fails
to transfer the stock pursuant to
paragraph (1)(C)(iii) within sixty days
after receiving such written notice.

App-159
(C) Settlement Common Stock of a Regional
Corporation-(i) transferred by will or pursuant to
applicable laws of intestate succession
after February 3, 1988, or
(ii) transferred by any means prior to
February 3, 1988,
to a person not a Native or a descendant of a Native
shall not carry voting rights. If at a later date such
stock is lawfully transferred to a Native or a
descendant of a Native, voting rights shall be
automatically restored.
(3) Replacement Common Stock
(A) On the date on which alienability
restrictions terminate in accordance with the
provisions of section 1629c of this title, all
Settlement Common Stock previously issued
by a Regional Corporation shall be deemed
canceled, and shares of Replacement
Common Stock of the appropriate class shall
be issued to each shareholder, share for
share, subject only to subparagraph (B) and
to such restrictions consistent with this
chapter as may be provided by the articles of
incorporation of the corporation or in
agreements between the corporation and
individual shareholders.
(B)(i) Replacement Common Stock issued
in exchange for Settlement Common
Stock issued subject to the restriction
authorized by subsection (g)(1)(B)(iii) of
this section shall bear a legend indicating

App-160
that the stock will eventually be canceled
in accordance with the requirements of
that subsection.
(ii) Prior to the termination of
alienability restrictions, the board of
directors of the corporation shall approve
a resolution to provide that each share of
Settlement Common Stock carrying the
right to share in distributions made to
shareholders pursuant to subsections (j)
and (m) of this section shall be exchanged
either for-(I) a share of Replacement Common
Stock that carries such right, or
(II) a share of Replacement Common
Stock that does not carry such right
together with a separate, non-voting
security that represents only such
right.
(iii) Replacement Common Stock issued
in exchange for a class of Settlement
Common Stock carrying greater per
share voting power than Settlement
Common Stock issued pursuant to
subsections (g)(1)(A) and (g)(1)(B) of this
section shall carry such voting power and
be subject to such other terms as may be
provided in the amendment to the
articles of incorporation authorizing the
issuance of such class of Settlement
Common Stock.
(C) The articles of incorporation of the
Regional Corporation shall be deemed

App-161
amended to authorize the issuance of
Replacement Common Stock and the security
described in subparagraph (B)(ii)(II).
(D) Prior to the date on which alienability
restrictions
terminate,
a
Regional
Corporation may amend its articles of
incorporation to impose upon Replacement
Common Stock one or more of the following-(i) a restriction denying voting rights to
any holder of Replacement Common
Stock who is not a Native or a descendant
of a Native;
(ii) a restriction granting the Regional
Corporation, or the Regional Corporation
and members of the shareholder's
immediate family who are Natives or
descendants of Natives, the first right to
purchase, on reasonable terms, the
Replacement Common Stock of the
shareholder prior to the sale or transfer
of such stock (other than a transfer by
will or intestate succession) to any other
party, including a transfer in satisfaction
of a lien, writ of attachment, judgment
execution, pledge, or other encumbrance;
and
(iii) any
other
term,
restriction,
limitation, or provision authorized by the
laws of the State.
(E) Replacement Common Stock shall not be
subjected to a lien or judgment execution
based upon any asserted or unasserted legal

App-162
obligation of the original recipient arising
prior to the issuance of such stock.
(4) Purchase of settlement common stock of
Cook Inlet Region
(A) As used in this paragraph, the term
“Cook Inlet Regional Corporation” means
Cook Inlet Region, Incorporated.
(B) The Cook Inlet Regional Corporation
may, by an amendment to its articles of
incorporation made in accordance with the
voting standards under section 1629b(d)(1) of
this title, purchase Settlement Common
Stock of the Cook Inlet Regional Corporation
and all rights associated with the stock from
the shareholders of Cook Inlet Regional
Corporation in accordance with any
provisions included in the amendment that
relate to the terms, procedures, number of
offers to purchase, and timing of offers to
purchase.
(C) Subject to subparagraph (D), and
notwithstanding paragraph (1)(B), the
shareholders of Cook Inlet Regional
Corporation may, in accordance with an
amendment made pursuant to subparagraph
(B), sell the Settlement Common Stock of the
Cook Inlet Regional Corporation to itself.
(D) No sale or purchase may be made
pursuant to this paragraph without the prior
approval of the board of directors of Cook
Inlet Regional Corporation. Except as
provided in subparagraph (E), each sale and
purchase made under this paragraph shall be

App-163
made pursuant to an offer made on the same
terms to all holders of Settlement Common
Stock of the Cook Inlet Regional Corporation.
(E) To recognize the different rights that
accrue to any class or series of shares of
Settlement Common Stock owned by
stockholders who are not residents of a
Native village (referred to in this paragraph
as “non-village shares”), an amendment made
pursuant to subparagraph (B) shall authorize
the board of directors (at the option of the
board) to offer to purchase-(i) the non-village shares, including the
right to share in distributions made to
shareholders pursuant to subsections (j)
and (m) of this section (referred to in this
paragraph as “nonresident distribution
rights”), at a price that includes a
premium, in addition to the amount that
is offered for the purchase of other village
shares of Settlement Common Stock of
the Cook Inlet Regional Corporation,
that reflects the value of the nonresident
distribution rights; or
(ii) non-village shares without the
nonresident
distribution
rights
associated with the shares.
(F) Any shareholder who accepts an offer
made by the board of directors pursuant to
subparagraph (E)(ii) shall receive, with
respect to each non-village share sold by the
shareholder to the Cook Inlet Regional
Corporation--

App-164
(i) the consideration for a share of
Settlement Common Stock offered to
shareholders of village shares; and
(ii) a security for only the nonresident
rights that attach to such share that does
not have attached voting rights (referred
to in this paragraph as a “non-voting
security”).
(G) An amendment made pursuant to
subparagraph (B) shall authorize the
issuance of a non-voting security that-(i) shall, for purposes of subsections (j)
and (m) of this section, be treated as a
non-village share with respect to-(I) computing distributions under
such subsections; and
(II) entitling the holder of the share
to the proportional share of the
distributions made under such
subsections;
(ii) may be sold to Cook Inlet Region,
Inc.; and
(iii) shall otherwise be subject to the
restrictions under paragraph (1)(B).
(H) Any shares of Settlement Common Stock
purchased pursuant to this paragraph shall
be canceled on the conditions that-(i) non-village
shares
with
the
nonresident rights that attach to such
shares that are purchased pursuant to

App-165
this paragraph shall be considered to
be—
(I) outstanding shares; and
(II) for the purposes of subsection
(m) of this section, shares of stock
registered on the books of the Cook
Inlet Regional Corporation in the
names of nonresidents of villages;
(ii) any amount of funds that would be
distributable with respect to non-village
shares or non-voting securities pursuant
to subsection (j) or (m) of this section
shall be distributed by Cook Inlet
Regional Corporation to itself; and
(iii) village shares that are purchased
pursuant to this paragraph shall be
considered to be-(I) outstanding shares, and
(II) for the purposes of subsection (k)
of this section shares of stock
registered on the books of the Cook
Inlet Regional Corporation in the
names of the residents of villages.
(I) Any offer to purchase Settlement
Common Stock made pursuant to this
paragraph shall exclude from the offer-(i) any share of Settlement Common
Stock held, at the time the offer is made,
by an officer (including a member of the
board of directors) of Cook Inlet Regional
Corporation or a member of the
immediate family of the officer; and

App-166
(ii) any share of Settlement Common
Stock held by any custodian, guardian,
trustee, or attorney representing a
shareholder of Cook Inlet Regional
Corporation in fact or law, or any other
similar person, entity, or representative.
(J)(i) The board of directors of Cook Inlet
Regional Corporation, in determining the
terms of an offer to purchase made under
this paragraph, including the amount of
any premium paid with respect to a nonvillage share, may rely upon the good
faith opinion of a recognized firm of
investment bankers or valuation experts.
(ii) Neither
Cook
Inlet
Regional
Corporation nor a member of the board of
directors or officers of Cook Inlet
Regional Corporation shall be liable for
damages resulting from terms made in
an offer made in connection with any
purchase of Settlement Common Stock if
the offer was made-(I) in good faith;
(II) in reliance on a determination
made pursuant to clause (i); and
(III) otherwise in accordance with
this paragraph.
(K) The consideration given for the purchase
of Settlement Common Stock made pursuant
to an offer to purchase that provides for such
consideration may be in the form of cash,
securities, or a combination of cash and

App-167
securities, as determined by the board of
directors of Cook Inlet Regional Corporation,
in a manner consistent with an amendment
made pursuant to subparagraph (B).
(L) Sale of Settlement Common Stock in
accordance with this paragraph shall not
diminish a shareholder's status as an Alaska
Native or descendant of a Native for the
purpose of qualifying for those programs,
benefits and services or other rights or
privileges set out for the benefit of Alaska
Natives and Native Americans. Proceeds
from the sale of Settlement Common Stock
shall not be excluded in determining
eligibility for any needs-based programs that
may be provided by Federal, State or local
agencies.
(i) Certain
natural
resource
revenues;
distribution
among
twelve
Regional
Corporations;
computation
of
amount;
subsection inapplicable to thirteenth Regional
Corporation; exclusion from revenues
(1)(A) Except as provided by subparagraph (B),
70 percent of all revenues received by each
Regional Corporation from the timber
resources and subsurface estate patented to it
pursuant to this chapter shall be divided
annually by the Regional Corporation among
all twelve Regional Corporations organized
pursuant to this section according to the
number of Natives enrolled in each region
pursuant to section 1604 of this title. The
provisions of this subsection shall not apply

App-168
to the thirteenth Regional Corporation if
organized pursuant to subsection (c) hereof.
(B) In the case of the sale, disposition, or
other use of common varieties of sand, gravel,
stone, pumice, peat, clay, or cinder resources
made during a fiscal year ending after
October 31, 1998, the revenues received by a
Regional Corporation shall not be subject to
division under subparagraph (A). Nothing in
this subparagraph is intended to or shall be
construed to alter the ownership of such sand,
gravel, stone, pumice, peat, clay, or cinder
resources.
(2) For purposes of this subsection, the term
“revenues” does not include any benefit received
or realized for the use of losses incurred or credits
earned by a Regional Corporation.
(j) Corporate funds and other net income,
distribution among: stockholders of Regional
Corporations;
Village
Corporations
and
nonresident stockholders; and stockholders of
thirteenth Regional Corporation
During the five years following December 18, 1971,
not less than 10% of all corporate funds received by
each of the twelve Regional Corporations
under section 1605 of this title (Alaska Native Fund),
and under subsection (i) of this section (revenues from
the timber resources and subsurface estate patented
to it pursuant to this chapter), and all other net
income, shall be distributed among the stockholders of
the twelve Regional Corporations. Not less than 45%
of funds from such sources during the first five-year
period, and 50% thereafter, shall be distributed among

App-169
the Village Corporations in the region and the class of
stockholders who are not residents of those villages, as
provided in subsection 2 to it. In the case of the
thirteenth Regional Corporation, if organized, not less
than 50% of all corporate funds received under section
1605 of this title shall be distributed to the
stockholders.
(k) Distributions among Village Corporations;
computation of amount
Funds distributed among the Village Corporations
shall be divided among them according to the ratio
that the number of shares of stock registered on the
books of the Regional Corporation in the names of
residents of each village bears to the number of shares
of stock registered in the names of residents in all
villages.
(l) Distributions to Village Corporations;
village plan: withholding funds until submission
of plan for use of money; joint ventures and joint
financing
of
projects;
disagreements,
arbitration of issues as provided in articles of
Regional Corporation
Funds distributed to a Village Corporation may be
withheld until the village has submitted a plan for the
use of the money that is satisfactory to the Regional
Corporation. The Regional Corporation may require a
village plan to provide for joint ventures with other
villages, and for joint financing of projects undertaken
by the Regional Corporation that will benefit the
region generally. In the event of disagreement over the
provisions of the plan, the issues in disagreement shall
2

So in original.

App-170
be submitted to arbitration, as shall be provided for in
the articles of incorporation of the Regional
Corporation.
(m) Distributions among Village Corporations
in a region; computation of dividends for
nonresidents of village; financing regional
projects with equitably withheld dividends and
Village Corporation funds

When funds are distributed among Village
Corporations in a region, an amount computed as
follows shall be distributed as dividends to the class of
stockholders who are not residents of those villages:
The amount distributed as dividends shall bear the
same ratio to the amount distributed among the
Village Corporations that the number of shares of
stock registered on the books of the Regional
Corporation in the names of nonresidents of villages
bears to the number of shares of stock registered in
the names of village residents: Provided, That an
equitable portion of the amount distributed as
dividends may be withheld and combined with Village
Corporation funds to finance projects that will benefit
the region generally.
(n) Projects for Village Corporations
The Regional Corporation may undertake on behalf of
one or more of the Village Corporations in the region
any project authorized and financed by them.
(o) Annual audit; place; availability of papers,
things, or property to auditors to facilitate
audits; verification of transactions; report to
stockholders

App-171
The accounts of the Regional Corporation shall be
audited annually in accordance with generally
accepted auditing standards by independent certified
public accountants or independent licensed public
accountants, certified or licensed by a regulatory
authority of the State or the United States. The audits
shall be conducted at the place or places where the
accounts of the Regional Corporation are normally
kept. All books, accounts, financial records, reports,
files, and other papers, things, or property belonging
to or in use by the Regional Corporation and necessary
to facilitate the audits shall be available to the person
or persons conducting the audits; and full facilities for
verifying transactions with the balances or securities
held by depositories, fiscal agent, and custodians shall
be afforded to such person or persons. Each audit
report or a fair and reasonably detailed summary
thereof shall be transmitted to each stockholder.
(p) Federal-State conflict of laws
In the event of any conflict between the provisions of
this section and the laws of the State of Alaska, the
provisions of this section shall prevail.
(q) Business management group; investment
services contracts
Two or more Regional Corporations may contract with
the same business management group for investment
services and advice regarding the investment of
corporate funds.
(r) Benefits for shareholders or immediate
families
The authority of a Native Corporation to provide
benefits to its shareholders who are Natives or

App-172
descendants of Natives or to its shareholders'
immediate family members who are Natives or
descendants of Natives to promote the health,
education, or welfare of such shareholders or family
members is expressly authorized and confirmed.
Eligibility for such benefits need not be based on share
ownership in the Native Corporation and such
benefits may be provided on a basis other than pro
rata based on share ownership.
43 U.S.C. § 1607. Village Corporations
(a) Organization of Corporation prerequisite to
receipt of patent to lands or benefits under
chapter
The Native residents of each Native village entitled to
receive lands and benefits under this chapter shall
organize as a business for profit or nonprofit
corporation under the laws of the State before the
Native village may receive patent to lands or benefits
under this chapter, except as otherwise provided.
(b) Regional Corporation: approval of initial
articles; review and approval of amendments to
articles and annual budgets; assistance in
preparation of articles and other documents
The initial articles of incorporation for each Village
Corporation shall be subject to the approval of the
Regional Corporation for the region in which the
village is located. Amendments to the articles of
incorporation and the annual budgets of the Village
Corporations shall, for a period of five years, be subject
to review and approval by the Regional Corporation.
The Regional Corporation shall assist and advise
Native villages in the preparation of articles of

App-173
incorporation and other documents necessary to meet
the requirements of this subsection.
(c) Applicability of section 1606
The provisions of subsections (g), (h) (other than
paragraph (4)), and (o) of section 1606 of this title
shall apply in all respects to Village Corporations,
Urban Corporations, and Group Corporations.
43 U.S.C. § 1626. Relation to other programs
(a) Continuing
availability
of
available governmental programs

otherwise

The payments and grants authorized under this
chapter
constitute
compensation
for
the
extinguishment of claims to land, and shall not be
deemed to substitute for any governmental programs
otherwise available to the Native people of Alaska as
citizens of the United States and the State of Alaska.
(b) Supplemental nutrition assistance program
Notwithstanding section 5(a) and any other provision
of the Food and Nutrition Act of 2008, as amended [7
U.S.C.A. § 2011 et seq.], in determining the eligibility
of any household to participate in the supplemental
nutrition assistance program, any compensation,
remuneration, revenue, or other benefit received by
any member of such household under this chapter
shall be disregarded.
(c) Eligibility for need-based Federal programs
In determining the eligibility of a household, an
individual Native, or a descendant of a Native (as
defined in section 1602(r) of this title) to-(1) participate in the supplemental nutrition
assistance program,

App-174
(2) receive aid, assistance, or benefits, based on
need, under the Social Security Act [42 U.S.C.A. §
301 et seq.], or
(3) receive financial assistance or benefits, based
on need, under any other Federal program or
federally-assisted program,
none of the following, received from a Native
Corporation, shall be considered or taken into account
as an asset or resource:
(A) cash (including cash dividends on stock
received from a Native Corporation and on
bonds received from a Native Corporation) to
the extent that it does not, in the aggregate,
exceed $2,000 per individual per annum;
(B) stock (including stock issued or
distributed by a Native Corporation as a
dividend or distribution on stock) or bonds
issued by a Native Corporation which bonds
shall be subject to the protection of section
1606(h) of this title until voluntarily and
expressly sold or pledged by the shareholder
subsequent to the date of distribution;
(C) a partnership interest;
(D) land or an interest in land (including
land or an interest in land received from a
Native Corporation as a dividend or
distribution on stock); and
(E) an interest in a settlement trust.
(d) Federal Indian programs
Notwithstanding any other provision of law, Alaska
Natives shall remain eligible for all Federal Indian

App-175
programs on the same basis as other Native
Americans.
(e) Minority and economically disadvantaged
status
(1) For all purposes of Federal law, a Native
Corporation shall be considered to be a
corporation owned and controlled by Natives and
a minority and economically disadvantaged
business enterprise if the Settlement Common
Stock of the corporation and other stock of the
corporation held by holders of Settlement
Common Stock and by Natives and descendants
of Natives, represents a majority of both the total
equity of the corporation and the total voting
power of the corporation for the purposes of
electing directors.
(2) For all purposes of Federal law, direct and
indirect subsidiary corporations, joint ventures,
and partnerships of a Native Corporation
qualifying pursuant to paragraph (1) shall be
considered to be entities owned and controlled by
Natives and a minority and economically
disadvantaged business enterprise if the shares of
stock or other units of ownership interest in any
such entity held by such Native Corporation and
by the holders of its Settlement Common Stock
represent a majority of both-(A) the total equity of the subsidiary
corporation, joint venture, or partnership;
and
(B) the total voting power of the subsidiary
corporation, joint venture, or partnership for

App-176
the purpose of electing directors, the general
partner, or principal officers.
(3) No provision of this subsection shall-(A) preclude
a
Federal
agency
or
instrumentality from applying standards for
determining minority ownership (or control)
less restrictive than those described in
paragraphs (1) and (2), or
(B) supersede any such less restrictive
standards in existence on February 3, 1988.
(4)(A) Congress
confirms
that
Federal
procurement programs for tribes and Alaska
Native Corporations are enacted pursuant to
its authority under Article I, Section 8 of the
United States Constitution.
(B) Contracting with an entity defined in
subsections 1 (e)(1) or (e)(2) of this section
or section 1452(c) of Title 25 shall be credited
towards the satisfaction of a contractor's
small or small disadvantaged business
subcontracting goals under section 502 of
P.L. 100-656, provided that where lower tier
subcontractors exist, the entity shall
designate the appropriate contractor or
contractors to receive such credit.
(C) Any entity that satisfies subsection (e)(1)
or (e)(2) of this section that has been certified
under section 637 of Title 15 is a
Disadvantaged Business Enterprise for the
purposes of Public Law 105-178.
1

So in original. Probably should be “subsection”.

App-177
(f) Omitted
(g) Civil Rights Act of 1964
For the purposes of implementation of the Civil Rights
Act of 1964 [42 U.S.C.A. § 2000a et seq.], a Native
Corporation and corporations, partnerships, joint
ventures, trusts, or affiliates in which the Native
Corporation owns not less than 25 per centum of the
equity shall be within the class of entities excluded
from the definition of “employer” by section 701(b)(1)
of Public Law 88-352 (78 Stat. 253), as amended [42
U.S.C.A. § 2000e(b)(1)], or successor statutes.

